<html>
<title> - DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]


<DOC>
 
                 DEPARTMENT OF THE INTERIOR AND RELATED
                    AGENCIES APPROPRIATIONS FOR 1999

========================================================================

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION
                                ________

   SUBCOMMITTEE ON THE DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES

                      RALPH REGULA, Ohio, Chairman

JOSEPH M. McDADE, Pennsylvania         SIDNEY R. YATES, Illinois
JIM KOLBE, Arizona                     JOHN P. MURTHA, Pennsylvania
JOE SKEEN, New Mexico                  NORMAN D. DICKS, Washington
CHARLES H. TAYLOR, North Carolina      DAVID E. SKAGGS, Colorado
GEORGE R. NETHERCUTT, Jr., Washington  JAMES P. MORAN, Virginia
DAN MILLER, Florida                    
ZACH WAMP, Tennessee                   

NOTE: Under Committee Rules, Mr. Livingston, as Chairman of the Full 
Committee, and Mr. Obey, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.

Deborah Weatherly, Loretta Beaumont, Joel Kaplan, and Christopher Topik,
                            Staff Assistants
                                ________

                                 PART 9
                                                                   Page
 Secretary of Agriculture.........................................    1
 U.S. Forest Service..............................................   85
 Secretary of Energy..............................................  355
 Office of Fossil Energy..........................................  473
 Office of Energy Efficiency and Renewable Energy.................  579
 Energy Information Administration................................  671

                              <snowflake>

                                ________

         Printed for the use of the Committee on Appropriations
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
48-354 O                    WASHINGTON : 1998
------------------------------------------------------------------------

             For sale by the U.S. Government Printing Office            
        Superintendent of Documents, Congressional Sales Office,        
                          Washington, DC 20402                          







                       COMMITTEE ON APPROPRIATIONS                      

                   BOB LIVINGSTON, Louisiana, Chairman                  

JOSEPH M. McDADE, Pennsylvania         DAVID R. OBEY, Wisconsin            
C. W. BILL YOUNG, Florida              SIDNEY R. YATES, Illinois           
RALPH REGULA, Ohio                     LOUIS STOKES, Ohio                  
JERRY LEWIS, California                JOHN P. MURTHA, Pennsylvania        
JOHN EDWARD PORTER, Illinois           NORMAN D. DICKS, Washington         
HAROLD ROGERS, Kentucky                MARTIN OLAV SABO, Minnesota         
JOE SKEEN, New Mexico                  JULIAN C. DIXON, California         
FRANK R. WOLF, Virginia                VIC FAZIO, California               
TOM DeLAY, Texas                       W. G. (BILL) HEFNER, North Carolina 
JIM KOLBE, Arizona                     STENY H. HOYER, Maryland            
RON PACKARD, California                ALAN B. MOLLOHAN, West Virginia     
SONNY CALLAHAN, Alabama                MARCY KAPTUR, Ohio                  
JAMES T. WALSH, New York               DAVID E. SKAGGS, Colorado           
CHARLES H. TAYLOR, North Carolina      NANCY PELOSI, California            
DAVID L. HOBSON, Ohio                  PETER J. VISCLOSKY, Indiana         
ERNEST J. ISTOOK, Jr., Oklahoma        ESTEBAN EDWARD TORRES, California   
HENRY BONILLA, Texas                   NITA M. LOWEY, New York             
JOE KNOLLENBERG, Michigan              JOSE E. SERRANO, New York           
DAN MILLER, Florida                    ROSA L. DeLAURO, Connecticut        
JAY DICKEY, Arkansas                   JAMES P. MORAN, Virginia            
JACK KINGSTON, Georgia                 JOHN W. OLVER, Massachusetts        
MIKE PARKER, Mississippi               ED PASTOR, Arizona                  
RODNEY P. FRELINGHUYSEN, New Jersey    CARRIE P. MEEK, Florida             
ROGER F. WICKER, Mississippi           DAVID E. PRICE, North Carolina      
MICHAEL P. FORBES, New York            CHET EDWARDS, Texas                 
GEORGE R. NETHERCUTT, Jr., Washington  ROBERT E. (BUD) CRAMER, Jr., Alabama
MARK W. NEUMANN, Wisconsin             
RANDY ``DUKE'' CUNNINGHAM, California  
TODD TIAHRT, Kansas                    
ZACH WAMP, Tennessee                   
TOM LATHAM, Iowa                       
ANNE M. NORTHUP, Kentucky              
ROBERT B. ADERHOLT, Alabama            

                 James W. Dyer, Clerk and Staff Director







=======================================================================


                     U.S. Department of Agriculture

                        Secretary of Agriculture

=======================================================================









DEPARTMENT OF THE INTERIOR AND RELATED AGENCIES APPROPRIATIONS FOR 1999

                              ----------                              

                                          Thursday, March 19, 1998.

                     U.S. DEPARTMENT OF AGRICULTURE

                                 WITNESS

HON. DAN GLICKMAN, SECRETARY OF AGRICULTURE

[Pages 4 - 7--The official Committee record contains additional material here.]

    Mr. Regula. Well, this morning we are pleased to welcome 
the Secretary of Agriculture, the Under Secretary, and the 
Chief of the Forest Service.
    Mr. Secretary, welcome, and in the interests of time, your 
statement and all of the statements will be made part of the 
record. We would be pleased if you would summarize for us.

                            opening remarks

    Secretary Glickman. Thank you, Mr. Chairman.
    I have with me, of course, our Under Secretary, Jim Lyons, 
who has been before this committee many times and the chief of 
the Forest Service, Mike Dombeck, who is here helping me out, 
and who will testify later in more detail about the substance 
of our proposals.
    First of all, let me just say this is the second time I 
have been before this subcommittee, these relates to the 
priority I place on the Forest Service. One-third of our 
department's employees work in the Forest Service. It is not 
generally understood how significant a piece of USDA the Forest 
Service is. The Forest Service programs make up about one-sixth 
of our discretionary programs in terms of spending. We operate, 
as you know, nearly 200 million acres of publicly-owned land. 
The agency affects millions of people's lives each year, we 
think in a very positive way. So, this is important to me and 
to the administration, and we appreciate your personal interest 
in this.
    There is no question that the Forest Service issues are 
highly controversial. Of course I come from Kansas--we have a 
grassland in Kansas, but trees are not our most productive 
growing item in the State of Kansas, as opposed to State like 
Washington and Colorado which have a combination of forests and 
croplands, and Ohio as well.
    Mr. Regula. Some.
    Secretary Glickman. We have other very important things in 
Kansas, but the irony is that the vigorous public debate on 
forest and forestry issues is perhaps the toughest part of the 
issues I face as secretary. So often, there are such polarizing 
views as to which direction we ought to be going in this area, 
and reasonable people can differ as to how the Forest Service 
ought to go.
    I would have to say that a major part of the Forest 
Service's job in its history is initiating change, dealing with 
controversy and managing change. Last year, we gave Mike 
Dombeck the top change job at the Forest Service, and I have 
asked him to move forward with a natural resource agenda based 
on sound science and collaboration with the public to lead the 
agency into the Twenty-First Century.
    Again, Mike came on, I assume, knowing that this job would 
not be without differences of opinion and controversy, but I 
think he has handled it exceedingly well.
    Mr. Regula. You mention that the northwest has the forests, 
but all 50 states have the consumers and the owners.
    Secretary Glickman. That is correct and the taxpayers.
    Mr. Regula. And the taxpayers.

                        natural resources agenda

    Secretary Glickman. Yes.
    The new agenda is in place, and our budget request supports 
the aspects that we believe are important for the Forest 
Service. There are recreation, clean water, sustainable 
forestry and a sound forest roads policy. One aspect, the roads 
initiative, has been especially controversial. But, as I said, 
I encourage the debate and public participation, which is why 
we are holding 25 public meetings all over the United States. 
In the end, I have no doubt that the debate will produce a 
modern, adaptable transportation strategy that will meet the 
needs of everyone who relies on the hundreds of thousands of 
miles of roads inside our forests.
    Overall, we are requesting $2.6 billion for the Forest 
Service discretionary appropriation. This is a minimal increase 
over this year's appropriation, but there are some important 
components. If I might just summarize, one is watershed 
restoration. More than half the water in our nation falls on 
and flows through our national forests. More than 900 
communities depend on forest land watersheds for their source 
of drinking water. That is why we continue to place a very high 
priority on protecting our water quality and our watersheds on 
forest lands. Doing so has been the Forest Service's 
responsibility since the very beginning, but it is one that we 
take with increasing seriousness.
    The Forest Service budget has $69 million for watershed 
restoration, which will pay for repairing damaged fish habitat, 
preventing soil erosion from roads and other sources and 
restoring riparian and wetlands areas. These activities will 
help turn degraded and threatened watersheds on forest lands 
back into healthy headwaters of our nation's water supply.
    Moreover, our state governments are fighting an uphill 
battle to curb non-point source pollution, which poses serious 
water quality problems all over the U.S. The $69 million we are 
requesting will go a long way to assure that our forests are a 
part of the governors' solutions, not part of their problems.
    The second area is sustainable forest management. Congress 
and the administration share a commitment to improving forests 
and promoting their sustainable management. I ask that you 
support our 1999 budget request to continue the progress we 
have made in reducing fuel loads, thinning overstocked stands, 
managing vegetation, reintroducing fire to the landscape and 
revising expiring forest plans to incorporate the latest 
science and forest management practices.

                        receipt-sharing payments

    We are turning the corner on restoring our forest 
resources, and our budget will help us move in this direction. 
One important proposal in this budget is our decision to 
increase and stabilize payments to counties. For more than 80 
years, counties have depended on receipts from Federal timber 
sales, grazing fees and mining revenues to fund a significant 
share of school budgets and road budgets. Over the last 8 to 10 
years, these receipts have been falling for a variety of 
reasons, including a reduction in the amount of timber cut on 
Federal lands.
    But school children and rural transportation systems should 
not suffer as a result of that. Our budget proposal recognizes 
and continues the strong historic relationship we have with 
rural communities by proposing to give counties the higher of 
their 1997 payments or 76 percent of the payments they received 
between 1986 and 1990. Nationally, this would provide them a 
$37 million increase over the 1997 payment level.
    The third item is recreation.
    Mr. Regula. What is the offset on that? You have to pay for 
that somehow.
    Secretary Glickman. Where is this coming from? It is just 
part of the whole package.
    Mr. Regula. I know, but there has to be some source of 
revenue to pay these counties, since it is not going to be from 
cutting and selling trees.
    Secretary Glickman. I am sorry; it comes from other USDA 
programs.
    Mr. Regula. Outside of the Forest Service.
    Secretary Glickman. Outside of the Forest Service, some 
come from the cotton Step Two program, and some comes from the 
Export Enhancement Program.
    Mr. Regula. Does your testimony outline those sources?
    Secretary Glickman. Mine does not. I do not know if the 
other statements do that, but they come from other USDA 
programs.
    Mr. Regula. I think we would want to know the specifics on 
that, because we are asked to approve the outlay side, and some 
other committee would have to approve the increase in fees, I 
assume.
    Mr. Lyons. We can provide you the details on that, Mr. 
Chairman.
    [The information follows:]

[Pages 12 - 13--The official Committee record contains additional material here.]

    Mr. Regula. Yes, I would like that.
    Mr. Lyons. The legislation that provides this authorization 
is forthcoming.
    Secretary Glickman. In one case, it would require 
legislation. In the other case, it is an appropriation item. We 
will get you that information in the next two days.
    Mr. Regula. Okay; thank you.

                               recreation

    Secretary Glickman. The third major priority is recreation, 
and that is recognizing that the forests will host 1 billion 
visitors each year--obviously, many are multiple users. More 
and more of us like to enjoy the beauty of the forests enjoy a 
variety of recreation activities, such as hiking, biking, 
fishing, hunting, skiing, camping and other interests. Congress 
and the administration have cooperated on this through the 
Recreation Fee Demonstration Program, which will be fully 
operational on 100 project sites in 1999.
    The public likes knowing that the fees that they are paying 
are being invested into their favorite campsites or trails to 
make them better. While these fees are extremely useful, they 
are not enough, which is why I ask you to support our budget 
increase of $20 million, bringing the total recreation 
management program to $190 million. We also propose $63 million 
for the land, water and facility restoration initiative, which 
will mean improved recreation water systems, more trails, and 
cleaner campgrounds.

                                 roads

    Our policy initiative on roads is also supported by the 
budget. Few natural resource issues in recent years have 
captured as much attention and public scrutiny and debate and 
controversy as the whole issue of the National Forest road 
system. Forest roads are an essential part of the 
transportation system in many rural parts of this country, and 
they provide recreational as well as economic opportunities.
    But we simply have more roads than we can afford. With over 
380,000 miles of roads in the forests, we can circle the globe 
16 times, and we have a maintenance backlog currently estimated 
at $10 billion on just 20 percent of these miles. To help 
address this problem and improve the public's access to the 
forests, we propose to increase road maintenance funding by 26 
percent and road reconstruction and construction funding by 9 
percent, with an emphasis on restoration of degraded roads to 
achieve public safety and watershed health objectives.
    In addition to that, we also need to have a broader 
transportation strategy for our national forests. We cannot 
afford to keep building roads without having a broader strategy 
in place that the entire agency follows in making decisions on 
where and when to build more roads. Creating this strategy is 
going to take time and require much public participation. I 
strongly commend and support the chief for initiating this 
debate, and I know that he is going to comment more on this 
issue during his testimony. You may have specific concerns that 
you would like to discuss with him.

                              civil rights

    Finally, I would like to just mention the issue of civil 
rights, because one of the primary issues involving the 
Department of Agriculture right now is an effort to address 
long-neglected civil rights problems within USDA. Congressman 
Nethercutt has heard me talk a little bit about this in the Ag 
Appropriations Subcommittee. As secretary, I am committed to 
ensuring the civil rights of USDA's customers and employees are 
upheld. Every customer and every employee must be treated 
fairly and with dignity and respect. There are no exceptions to 
this.
    In its history the Department of Agriculture has not 
demonstrated a total and complete commitment by all of its 
agencies to deal with civil rights problems. All parts of the 
department, including the Forest Service, have had an 
unacceptably high level of employee and customer complaints 
arising out of civil rights issues.
    The Forest Service is the largest employer in the USDA, and 
its employees deal with a large and diverse constituency. So, I 
fully expect this Forest Service, no less than any other agency 
within USDA, to devote the necessary time, staff and resources 
to deal with this problem.
    In closing, I would say that I believe that the Forest 
Service has a clear, broad-based natural resource agenda based 
upon watershed protection and protection of the water supplies; 
sustainable forest management, which relies on a prudent but 
sustained level of harvest; and recreation. This is a resource 
agenda built on a foundation of science that is sensitive to 
the needs of local communities. We think this budget provides 
resources necessary for the Forest Service to begin fulfilling 
that mission.
    I thank you very much, Mr. Chairman.
    [The statement of Secretary Dan Glickman follows:]

[Pages 16 - 19--The official Committee record contains additional material here.]

    Mr. Regula. Thank you. As I understand it, you would like 
to get out sometime shortly after 11:00.
    Secretary Glickman. If possible.
    Mr. Regula. If possible.
    Secretary Glickman. Yes.
    Mr. Regula. We will try to get around to all the 
subcommittee members.

                         forest service mission

    Do you feel that the Forest Service has clearly delineated 
its mission looking into the next century given the fact that 
historically, it produced fiber initially? Then, you moved to a 
multiple use, and now, you have a moratorium on the roadless 
areas, which would seem to be moving in a direction of 
nonusage. If you have a clear mission, do the 36,000 employees 
understand what it is? I sense that there may be some 
transition within the personnel of the Forest Service.
    Secretary Glickman. I believe that the chief has created 
and articulated a clear mission for the future of the Forest 
Service, and it is a multiple use mission, notwithstanding the 
recent controversy about roadless areas. I do not think that 
this modifies the basic mission that I talked about in my 
statement, and I do believe that the Forest Service is in a 
period of some transition. I think its mission today is 
probably somewhat different than it was 20 years ago and 30 
years ago. It is not entirely, because it always provided 
recreation and always was involved in the protection of 
resources, but I think it was more focused on the timber cut 
and less focused on the other things.
    I think the Chief has articulated a balanced mission. I 
think there are some folks out there who do not like that. I 
think there are some folks who like the historic mission, which 
was largely more harvest-focused and less focused on watershed 
protection and recreation. I think there are some folks who 
believe that there is an ideological agenda at the Forest 
Service which is not based on sound science. I disagree with 
that. I think that Mike is a competent, able public servant who 
has spent a career dealing with land management issues.
    So, the best I can tell you is yes, I think there is a 
clear mission. Does everybody understand it? Probably not yet. 
Does everybody agree with it? Probably not yet. But, you know, 
that is one of the reasons why we are moving in this direction.

                                 timber

    Mr. Regula. Do you envision the future to include the 
production of fiber? If you note, 8 or 10 years ago, we were 
providing for an allowable cut of 12 billion board feet in the 
bill. Last year, it was less than 4 billion board feet. What is 
the right number, given the fact that we are producing about 20 
billion board feet annually?
    Secretary Glickman. Let me just say that the answer to that 
question is yes. I certainly think that the production of fiber 
is part, a very key part, of the mission of the Forest Service. 
I would ask Under Secretary Lyons to respond to the question of 
what the cut ought to be.
    Mr. Lyons. Well, Mr. Chairman, as you know, a decade ago, 
we were harvesting upwards of 10 billion board feet per year, 
and I think one of the unintended consequences of that was the 
adverse resource effects that we are now trying to address 
through the Chief's agenda and through the budget that we 
present to you. We have learned more about the critical need to 
address watersheds and watershed health. We have an extensive 
road system that supported that higher level of harvest. 
Unfortunately, we did not have the funds to be able to address 
the maintenance needs and the reconstruction needs on those 
roads. We are trying to tackle that issue.
    We are trying to move in directions that have a sustainable 
harvest, but quite candidly, I think that decision, what is 
sustainable, what is the right number, is a local decision. It 
has to be made by forest managers on the ground, understanding 
the multiple use mission they have and trying to produce what 
is both sustainable from the standpoint of fiber production and 
what will meet the need for goods and services from the 
communities.
    Secretary Glickman. This budget assumes a cut of roughly 
about 3.5 billion board feet, I think.
    Mr. Lyons. Yes, and that is fairly consistent with what we 
have presented in the last few years.

                            road moratorium

    Mr. Regula. But you are saying it ought to be a local 
decision, but you put a moratorium on establishing roadless 
areas as a national policy. If it is a local policy, should 
that not be a local decision?
    Mr. Lyons. I would like to address that, Mr. Chairman.
    I think ultimately, that is a decision that will be 
addressed on a local basis. What Chief Dombeck has proposed, 
and I am sure he can give you much greater detail, is a time 
out on entry into roadless areas, so as to assess the 
implications and the impacts of entry. It is not a decision to 
stop all entry permanently but rather a proposal.
    Mr. Regula. Wait a minute; a proposal for a moratorium?
    Mr. Lyons. Yes.
    Mr. Regula. So, it is not in effect.
    Mr. Lyons. Correct.
    Mr. Regula. When do you anticipate it would be in effect?
    Mr. Lyons. We actually have a proposal out for public 
comment now, Mr. Chairman. That is what is being reviewed. I 
think Mike can give you the details on that.
    There is one point I wanted to make, though, because I know 
you made the comment in your initial remarks that that might 
infer in some way a decision not to continue a commitment to 
fiber production. I would point out that this proposed 
moratorium would only affect 100 million board feet of timber 
this year, according to current data, which is less than 1 
percent of the Forest Service's total program. It is not in any 
way meant to indicate a lack of commitment to fiber production. 
To the contrary, it is meant to indicate a commitment to better 
understand how we can produce fiber on a sustainable basis and 
minimize impacts in other areas. But I would let Mike address 
the specifics on the proposal, if I could.
    Mr. Regula. Well, the one concern I have is that yes, it is 
100 million board feet but if you have a little mill that is in 
that area, you have not proposed to give the local management 
any discretion. It could have a very serious impact on a 
community, even though, in the big picture, it is only the 100 
million.
    Mr. Lyons. Well, this is the reason for the extensivepublic 
hearings that are underway now, public meetings to discuss this 
proposal as well as the fact that it is out for comment, so that we can 
understand implications and see if adjustments are necessary.
    Mr. Regula. So, you could contemplate modification of this 
to be sensitive to local needs. Would that be a fair statement?
    Mr. Lyons. Well, we are going to collect all comment and 
then make a determination based on that comment, as we should 
through the rulemaking process.
    Mr. Dombeck. There are a couple of points that I want to 
emphasize on the moratorium. The temporary suspension of road 
building deals only with roads and not with the projects that 
the roads would access. In many cases, we have gotten 
information from the forests. There are many projects that we 
initially had anticipated might not move forward that we now 
believe can be accomplished because they might have alternative 
access such as by means of helicopters.
    Mr. Regula. Do you mean projects for sale?
    Mr. Dombeck. Timber sales?
    Mr. Regula. Yes.
    Mr. Dombeck. They would include timber sales, thinning, and 
other projects in some places where they have found that 
helicopter logging may be an option. We know it is less 
economic, but if it precludes the need to build a road, it also 
precludes the need to maintain the road decade after decade.
    So, we are only talking about road building and 
reconstruction, and the other thing I want to emphasize is that 
this is a proposal. We have a 60-day public comment period. 
There are 25 meetings that we have formally announced through 
the Federal Register process. In addition, we have added more 
public meetings based upon requests from either members of 
Congress or from individual communities.
    All of the information is on the World Wide Web, and our 
effort is to get as much of this information out as possible, 
because there are a lot of misunderstandings about the issue. 
For example, an essential part of the proposed temporary 
suspension of road building is based upon economics. Entering 
these areas is very expensive for us. Sales in these areas are 
appealed and litigated, and the failure rate is much higher 
than sales in other areas. I believe that if we can direct 
resources to other areas, it is certainly more efficient from 
the standpoint of the business management side of things.
    The other point is that we have a road system of 
approximately 380,000 miles. With the backlog that we have in 
reconstruction and maintenance, it is tough to justify building 
more.

                            economic effects

    I would also like to respond to your point about the 100 
million, and yes, even if you only lose one job, if it is your 
job----
    Mr. Regula. That is right.
    Mr. Dombeck [continuing]. You are out of work.
    We understand that, and we would hope that as we assess the 
impacts on local communities specifically, that we could direct 
other types of opportunities there such as efforts to increase 
the maintenance and reconstruction of roads by contractors and 
other kinds of things. We will be looking for every option to 
soften the effects of this as much as possible.
    Mr. Regula. Do you have a policy of privatizing your 
construction and maintenance needs as much as possible?
    Mr. Dombeck. The construction and maintenance is done in a 
variety of ways. For example, Lemhigh Colony in Idaho does it 
for us through contract. I believe the largest portion of it 
would be done by contracting with local contractors.
    Mr. Regula. Well, I have a number of other questions, but I 
want to allow the other members the opportunity to ask their 
questions.
    Secretary Glickman. Could I just make one other point? One 
of the nice things about USDA is the fact that we have a very 
large rural development function. We work with water systems, 
sewer systems, and business development, and we have instructed 
our rural development folks to work with the Forest Service so 
that if, in fact, decisions are made which affect jobs or 
livelihoods, then, we can bring the resources of the entire 
Department of Agriculture as well as the Government to try to 
soften the blow.
    There are a lot of things that we can do.
    Mr. Regula. Yes; I will have more questions on the 
moratorium.
    One last one: are you going to meet the targets for the 
allowable cut for 1998?
    Mr. Lyons. Yes, we will meet our budget targets.
    Mr. Regula. Mr. Skaggs.
    Mr. Skaggs. Thank you, Mr. Chairman.
    Good morning. While we have the Secretary here, I wanted to 
take advantage of his particularly distinguished service in 
this place as chairman of the Intelligence Committee to----
    Secretary Glickman. Scary.

                           intelligence data

    Mr. Skaggs. It was a scary time; you are right, Dan.
    I have been doing a survey with all of our witnesses about 
the usefulness of costs and benefits of the effort that the 
USGS manages for all of the public lands agencies in making 
intelligence products available for their purposes, whether it 
is forest fire management or erosion control, whatever it may 
be. I figured you might have a particular interest in that, 
given your work up here, and I wanted to get a Forest Service 
and, for that matter, departmental read on what you have been 
able to take advantage of from your involvement in that 
interagency process.
    Secretary Glickman. Mike, do you want to answer? Are you 
involved in this process?
    Mr. Dombeck. I am not sure of the specific process, but we 
meet regularly with the U.S. Geological Survey. I have been in 
dialogue with Pat Shea to try to pull together all of the 
remote sensing resources in the most efficient manner that we 
can.
    Secretary Glickman. Go ahead.
    Mr. Lyons. I was just going to point out that I also 
oversee the Natural Resources Conservation Service, and they 
have been involved in this whole Federal information effort to 
try to capitalize on remote sensing data. This includes 
information that is already available as well as the 
information that has been gleaned from the Defense Department 
which has been released from a secure status. This has 
amplified our ability to make projections with regard to 
resource needs, forest health and the like.
    So, there is a unified Federal effort to try to use this 
information to the best of our ability.
    Mr. Skaggs. What I am trying to do, department or agency by 
agency, is to establish as concrete a record as possible about 
the usefulness of this, particularly in terms of early warning 
or other risk assessment that has enabled, in this case, the 
Forest Service or more broadly the department, steps to have 
been taken that save us money.
    Secretary Glickman. Yes; from a general department 
perspective, you know, much of the satellite data that we use 
is not intelligence-related such as crop predictions. Of 
course, we work with intelligence agencies on reporting 
conditions within various countries such as crop reporting, 
weather, and other kinds of things. But I would have to get 
back to you with more specific information.
    [The information follows:]

    The Forest Service has participated in the Civil Applications 
Committee (CAC) since it was first chartered in 1975. We have worked 
through the CAC to develop a broad range of applications using 
intelligence data and products to augment and supplement commercial and 
other government imagery sources. Our original use of these assets was, 
with the U.S. Geological Survey (USGS), to support topographical map 
revisions of National Forest lands. Over the years we have expanded our 
use of these systems to support a broad range of natural resource 
conservation and ecosystem management applications. These applications 
have included disaster preparation, mitigation, response, and recovery 
associated with wildland fires, floods, landslides, hurricane, 
tornadoes, insect and disease outbreaks, and drought. Agency missions 
and mandates have also benefited by the use of National Technical Means 
(NTM) data for natural resource inventory and monitoring, and 
development of conservation measures, and land management support.
    In 1995, the Government Applications Task Force conducted a series 
of eight pilot projects to test the use of classified data to support 
civil agency missions. These projects led directly to the convening of 
renowned scientists in a collaborative applications effort. Two 
examples of these applications groups is MEDIA and Environmental 
Programs. The Forest Service has participated in these programs, 
sponsoring a pilot study on the detection of changes in alpine forests 
as an indicator for global change detection. More recently, the Forest 
Service has supported the Imagery Derived Product (IDP) program, which 
will provide unclassified data sets to support specific needs of 
critical agency programs. This year, the Forest Service was selected to 
participate in a cost-sharing initiative to create and establish 
automated and semi-automated IDP techniques and processes, and develop 
IDP production capabilities.
    For several years, national imagery systems have been successfully 
used to protect lives, property and natural resources from the ravages 
of wildland fire in the United States. These systems augment 
conventional airborne fire mapping systems operated by the Forest 
Service. In cooperation and coordination with the National Interagency 
Fire Center (NIFC) located in Boise, ID and the National Imagery and 
Mapping Agency (NIMA), Disaster Response Team, requests for support are 
forwarded through the CAC to produce maps showing areas of active fires 
and intense burns. Once the fires are contained, IDPs are used to help 
in burned area emergency restoration efforts. In 1997, large fires 
raged in Alaska requiring the effective use of fire maps produced from 
national imaging systems.
    Wildfires have recently created one of the worst environmental 
disasters in recorded history in Indonesia. Fire maps have been and are 
being produced from national imaging systems in cooperation with the 
NIMA, Disaster Response Team showing the location of active fires and 
intense burns. These maps are being made available via the Internet 
from the Forest Service. In 1997, these maps were used for fire 
suppression tactical support by the Department of Defence (DOD) and 
Forest Service working in Indonesia. These maps were also used to 
support international efforts in damage assessment and ecosystem 
restoration activities.
    The Forest Service is also working with USGS and DOD to test the 
potential of using classified and commercial systems for early fire 
detection. If successful, this system has the potential to 
significantly improve our capability to detect and respond to wildland 
fires. A prototype capability will be operational by June 1998 and the 
Forest Service is working with other land management agencies and the 
USGS to develop testing procedures for the new facility.

                  economic contribution of recreation

    Mr. Skaggs. Well, if you would be kind enough to get into 
the record a fuller treatment. Maybe, in your case, there 
simply is not that much that is going on compared to some of 
the other public lands agencies. But I wanted to get that.
    Moving to what may be a context setting proposition for the 
debate about the roadless area moratorium, can you just paint 
for us the rough picture of the economic activity and 
contribution to GDP coming out of the national forests on the 
timbering side versus the recreation side?
    Secretary Glickman. I think maybe Jim might be able to do 
that the best.
    Mr. Lyons. Well, the best information we have, Congressman, 
from our own Resources Planning Act assessment indicates that 
recreation, by and far, is contributing a great deal more to 
the gross domestic product than many of the other activities on 
the national forests. In fact, a survey that we have done 
indicates that by the year 2000, 75 percent of what the 
national forests contribute to the gross domestic product 
actually will come from recreation.
    That does not diminish the importance of these other 
program activities and outputs, but it just indicates that I 
think that this element of our program is much more significant 
than we ever realized, and, of course, that is why this budget 
proposal seeks additional funds to support our recreation 
efforts.
    Mr. Skaggs. Well, staff just handed me the Economic Report 
of the President from a year ago which has a wonderful pie 
chart that says you were at three-quarters attributable to 
recreation even in 1993, with timbering being, my guess is, 
something like 5 percent and then other activities, grazing, 
mining, whatever. So, I just think that sense of perspective is 
important for us to have.
    Thank you, Mr. Chairman.
    Mr. Regula. Mr. Wamp.

                                olympics

    Mr. Wamp. Thank you.
    Mr. Secretary, welcome again this year, and thank you for 
coming. I want to say publicly at the outset that the Forest 
Service, from my experience in East Tennessee, where I like to 
spend most of my time, has just been wonderful. The Forest 
Service personnel there are efficient, capable, innovative, and 
I really mean that. I do not need anything from them. We have 
that Olympic whitewater venue there in our district. It is kind 
of the crown jewel of the Cherokee National Forest now, and the 
Forest Service 10-year plan is ambitious, but it is just going 
to really capitalize on that Federal investment, and Ann 
Zimmerman and the entire team there are just fantastic people.
    I have worked with them and toured creeks with them, and we 
have coordinated with Fish and Wildlife and USGS and all of the 
different agencies, and it is really a great example leading up 
to the Olympics and then the work following the Olympics in our 
region of how Government can work, even at this high level. And 
so, you probably will----
    Secretary Glickman. Thank you.

                          maintenance backlog

    Mr. Wamp. Catch some grief today but not from me. But I 
want to ask this question. We had the Secretary of the Interior 
here last week, and we had hearings on this issue of backlog 
maintenance. It continues to be a puzzle to us that agencies 
under the Interior and Agriculture do not have a universally-
adopted definition of backlog maintenance and that in both 
departments, there are some programs being requested that are 
not backlog at all, that are actually prospective.
    There are new projects that are being lumped into backlog 
maintenance, and I think it is the will of this committee that 
we address these backlog needs. In order to do that effectively 
and efficiently, we have to determine, in both departments, 
Interior and Agriculture, what does backlog mean? Let us not 
throw things into backlog that are actually prospective. I just 
want to know if you are aware of that and if you plan to do 
something about it and what?
    Secretary Glickman. Yes, first I would like to say, in 
connection with the Cherokee forest and the Olympics that, we 
are involved in an even more active way with the 2002 Winter 
Olympics in the Salt Lake City area. We are providing the land 
mass, the resources for the downhill racing. It is a good 
example of public-private sector partnership.
    Mr. Regula. Will it cost us some extra money, then?
    Mr. Lyons. Minimally, we hope.
    Mr. Regula. We hope so, too.
    Mr. Lyons. Yes, sir. [Laughter.]
    I would address the question you raised, Congressman, and 
just point out that in large respect, I think Chairman Regula 
deserves the credit for raising the deferred maintenance issue 
a number of times. It has brought a lot of attention within the 
administration to this issue.It is one of the reasons we have 
brought forth our concern about our road maintenance and reconstruction 
backlog of $10.5 billion. This is the backlog for only 20 percent of 
the system, the portion of the system that actually gets 80 percent of 
the use.
    We have also identified about a $2.5 billion backlog in our 
recreation facilities maintenance needs, and in part, the 
proposed increases in funding in the recreation program will 
help address those concerns.
    We are working with the Department of the Interior, and I 
am working directly with John Berry, who heads up the policy 
shop over there, to try and get on top of this issue and come 
up with an appropriate way to respond to the issues that have 
been raised by this committee and by the chairman time and 
again. This is the investment that will support many 
communities and many interests. The whitewater venue, for 
example, is a showpiece, and unless we continue to invest in 
it, we run the risk of losing the value of the investment 
already made.
    Secretary Glickman. Jim, his question, though, relates to 
definition.
    Mr. Wamp. Definition of backlog maintenance.
    Secretary Glickman. How do we deal with that?
    Mr. Lyons. We are working with Interior to try to come up 
with an agreed approach. As is often the case, agencies have 
different ways of dealing with those particular issues. It just 
takes us sitting down and agreeing on how we are going to 
categorize these things.
    Mr. Wamp. Just in all due respect, and I am only a year and 
a half on this committee, but I have been hearing that for a 
year and a half, and I understand my predecessors were hearing 
it 3 and a half years before I got here. So, it really is 
important that between here and next year's cycle, we have a 
definition that is universal, that this is backlog maintenance, 
and anything that is added into that particular area that does 
not qualify has to be put into another area so that it does not 
continue to be squeezed down.
    Otherwise, we are going to end up having to, at some point, 
turn down legitimate programs just to keep these facilities 
open, I believe.
    Mr. Lyons. Well, I will make a commitment: you will hear a 
different story next year. We will get it done.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Nethercutt.

                       export enhancement program

    Mr. Nethercutt. Thank you, Mr. Chairman.
    Welcome, gentlemen.
    Mr. Secretary, I came in when you were speaking about the 
delinking of county payments to timber receipts, the 25 percent 
that goes to schools, and I thought I heard you say that you 
proposed that the sustainable figure would be maintained by 
taking money out of EEP, the Export Enhancement Program.
    Secretary Glickman. The President's budget proposes changes 
in Step Two cotton and in the aggregate on EEP. I will get you 
the specifics in the next 2 days. Obviously, a lot of that 
relates to what you do in your subcommittee.
    Mr. Nethercutt. And I appreciate that. And I am one who is 
frustrated with the department's lack of use of EEP in terms of 
the ag policy for the country. In my part of the state and 
across the country, we are facing low wheat prices. I am going 
to be assertive, frankly, Secretary, respective to the 
department to use the tools that have been given, including 
EEP, P.L. 480 and other agriculture programs that can help our 
farmers make it in this freer market environment.
    So, I guess I am protective, certainly of----
    Secretary Glickman. Can I just make one comment here if I 
might?
    Mr. Nethercutt. Sure.
    Secretary Glickman. While this does not relate to the 
specific jurisdiction, the heart of our programs to move our 
commodities are in the GSM credit programs.
    Mr. Nethercutt. Right.
    Secretary Glickman. This involves billions of dollars to 
guarantee loans, in Korea, in Indonesia and in other countries. 
EEP is one of our tools, but based upon what I see now, the use 
of EEP will reduce world wheat prices, not increase them. It 
will be a subsidy to European consumers, and the Argentines and 
the Europeans will increase their subsidies to meet it.
    What I want to try to do is find a way to build wheat 
prices up, which means legitimate market sales to get more 
grains sold in the world markets. I have not ruled out using 
EEP, but I want to make it clear that there is a lot of 
frustration out there. I understand that. People are saying do 
it, do it; move it, move it, get it done. But I do not want to 
do something that adds gasoline to the fire and causes prices 
to go down further.
    There is a lot of wheat out there in the world right now. 
So, I only say to you that our goal is mutual: get prices up.
    Mr. Nethercutt. Right; and I understand that. I think we 
are going to have more debate on that but for another day.
    Secretary Glickman. Yes, okay.

                            road moratorium

    Mr. Nethercutt. I know time is short here.
    Mr. Lyons, I heard you testify that you are giving 
attention to and public comment on the roadless moratorium 
proposal. I will wage money that the policy is not tentative; 
it is not a proposal. We are going to be facing that policy 
permanently. I appreciate the fact that we need public comment 
on the proposal. Has the administration taken a position on the 
Peterson bill, to have a hearing in every single national 
forest that is affected by the roadless moratorium? If not, why 
not?
    Mr. Dombeck. I testified before the House Resources 
Committee on Tuesday, and our position is in opposition to that 
bill.
    Mr. Nethercutt. Why is that?
    Mr. Dombeck. There are two parts to the Peterson bill. 
First it calls for approximately 120 hearings around the 
country, and there are some areas where the roads issue is not 
controversial. So, we believe that it is not universally needed 
across the country. But where it is needed, we think it is 
important.
    The other part of the Peterson bill, requires that we not 
move forward with the temporary suspension of the road building 
if there are adverse economic effects; if there are any adverse 
effects on forest health or a third category. The fact is that 
part of multiple use management is that we cannot maximize 
every category of the resource. That is something that we do 
not do for any issue or area. That is our more significant 
concern about the bill, because it asks us to maximize forest 
health; it asks us to maximize economic return and other 
considerations, and it is difficult to do all three.

                     economic returns from forests

    Mr. Nethercutt. What is wrong with that? I heard the 
comment earlier that your return comes from recreation. That is 
entirely consistent, it seems to me, with these requirements in 
this bill.
    Mr. Dombeck. Well, what we do is balance uses.
    Mr. Nethercutt. Sure.
    Mr. Dombeck. There is not enough of everything to go 
around.
    Mr. Nethercutt. You make judgments.
    Mr. Dombeck. Yes, yes.
    Mr. Nethercutt. And I guess the concern from those of us in 
the Northwest is that the judgments are going to be against 
economic return and in favor of some other predetermined policy 
decision about what is good for the people of that region. I 
guess I have a prejudice about what you are going into here, 
and I say it respectfully. I have had a good relationship with 
all of you as far as I am concerned, but there is great concern 
out there that there is some social engineering going on in 
terms of what is right for the forests--not for forest health 
but in terms of shifting away from any resource extraction in 
favor of recreation or preservation.
    Forgive my prejudices, but that is what I am hearing from 
people on the ground in my region, and they are very concerned 
in the West about it. I have a lot of questions to ask you 
about the Interior Columbia Basin Project, which I think is a 
furtherance of this policy that may be underlying the decisions 
that you all are making, but I probably am out of time.
    Mr. Regula. Well, we have a vote on tropical rain forests 
and then a 5-minute vote on the Journal.
    Can you come back, Mr. Miller?
    Mr. Miller. I am planning to come back.
    Mr. Regula. Okay.
    Mr. Miller. Will the Secretary be here? Or are you going to 
be----
    Mr. Regula. Well, I would like for you to stay.
    Secretary Glickman. I can stay until about 11:30.
    Mr. Regula. Okay; well, it will take us about 10 or 15 
minutes to get through----
    Secretary Glickman. Okay.
    Mr. Regula. You have been through this.
    Secretary Glickman. No problem; do you want me to go vote 
for you? [Laughter.]
    Mr. Skeen. There are no proxies anymore.
    Secretary Glickman. I cannot do that; that would be wrong.
    Mr. Skeen, I would not do that to you.
    Mr. Skeen. You would vote right every time. [Laughter.]
    Mr. Regula. We will reconvene as quickly as possible, 
because I know that members have a number of questions.
    [Recess.]
    Mr. Regula. Okay; we will get started here.
    You know how it goes, Mr. Secretary.
    Secretary Glickman. I know how it goes. Mr. Yates!
    Mr. Yates. Hello, hello.
    Secretary Glickman. It is a pleasure to see you, sir.
    Mr. Regula. Mr. Yates, would you like to get a couple of 
questions in before we get back to our other group?
    Well, here is Mr. Dicks.
    Mr. Dicks. Let him go ahead.
    Mr. Yates. No, no; Dicks, you go ahead, because you have an 
interest in the Forest Service. [Laughter.]
    Mr. Regula. Okay, Mr. Dicks, you are on. And he was here 
earlier, anyhow.

                         purchaser road credits

    Mr. Dicks. I want to welcome the Secretary here and Mr. 
Lyons and Mike, who have been working on a lot of these issues.
    You know, one of the problems that we have had over the 
last couple of years has been on the whole roads issue. It has 
been, as you know, very controversial up here, and the 
administration, as I understand it now, has again proposed in 
its budget--this was not agreed to last year--to get rid of 
purchaser credit on timber sales, and I do not know whoever 
wants to take this question, but explain that. Explain why that 
decision was made and what should be done about the Purchaser 
Elect Program, which has been important to the smaller 
companies.
    Secretary Glickman. Jim?
    Mr. Lyons. Well, the philosophy behind that change, 
Congressman, is simply to allow timber purchasers to assume the 
costs of road construction in their bids and to simplify the 
process. The Purchaser Credit Program provides essentially 
trading timber for roads, and the trading of credits, et 
cetera, has been a very complicated process.
    The simple, straightforward way to do it would be simply to 
allow a bidder to look at the cost of road construction as well 
as the cost of acquiring timber and factor that into their bid.
    Mr. Dicks. But, then, the department does the actual road 
construction, then, is that correct?
    Mr. Lyons. Not for those purchasers who have the capacity 
to build the road themselves. For those who do not, we need to 
create a system that would allow the purchasers to elect to 
have the department build the road. That is the old Purchaser 
Elect Program.
    Mr. Yates. I know.
    Mr. Dicks. Well, as I understand it, some of the smaller 
companies cannot do it, do not have the financial wherewithal 
to do it. Then, they can elect to have the department do it, as 
I understand it.
    Mr. Yates. Well, it is kind of hard. Suppose that a company 
that the department thinks can do it wants the department to do 
it? What do they decide in that case?
    Mr. Dicks. I think there are limitations. Is there not a 
criterion, you have to be a certain size company, certain 
number of employees? Mike, do you want to----
    Mr. Dombeck. On the Purchaser Elect, without purchaser 
credit, there would be a modification required. However, the 
Purchaser Elect is available for companies with 500 employees 
or less, and this has typically been used by companies that do 
not have the capital to make the investment up front.
    Mr. Yates. So, there is that limitation.
    Mr. Dombeck. Correct, yes.
    Mr. Yates. Okay; thank you.

                              road budget

    Mr. Dicks. Now, how much money this year is in your road 
budget? Can you describe it?
    Mr. Lyons. Well, Congressman, to try to clarify the road 
budget, we offered a different display of the road funding this 
year. We worked some with the committee staff on it to make 
sure that there was some understanding of what it looked like 
and that there was agreement to clarify the confusion that has 
occurred in the past about roads. We have broken this out into 
a number of categories.
    Mr. Yates. Do you know what page it is on, the document you 
are looking at?
    Mr. Lyons. Well, the document I am working from is our 
summary document on page 38. It is in the more detailed 
explanatory notes in a different place; I apologize for that.
    But basically, we have identified the overhead in program 
management costs for all construction and reconstruction 
activities. Then, we have identified the engineering support 
for new construction and reconstruction and broken that out as 
well as the engineering support for timber; that is, for the 
roads that would be built by timber purchasers for which we 
would actually do the engineering work. In addition, we have 
tried to break out, or we have identified the funds that would 
be allocated to road maintenance and the funds that would be 
provided for roads and trails maintenance by each state.
    So, the total for the Forest Road Program, Congressman, is 
about $96 million, and that includes engineering support for 
timber, our actual cost for new construction and reconstruction 
as well as the overhead for the program.
    Mr. Dicks. Okay; so, reconstruction is $26 million, right?
    Mr. Lyons. Correct.
    Mr. Dicks. And new construction is $1 million?
    Mr. Lyons. That is right; we only propose to build 7.5 
miles of new road this year. That is for general access.
    Mr. Dicks. And then, road maintenance; this is a different 
category than reconstruction, right? Because----
    Mr. Lyons. Correct.
    Mr. Dicks. And that is a total of $107 million.
    Mr. Lyons. Right.
    Mr. Dicks. Now, one of the problems here, you know, in our 
area of the world is that a lot of these roads are contributing 
to environmental problems, that you have washouts. You have 
sediment going into the rivers, et cetera, and so, being able 
to properly maintain these roads; in fact, a lot of the money, 
when we talk about watershed restoration, Mr. Secretary, a lot 
of the money that we got for watershed restoration under the 
President's program wound up being used to fix roads. About 80 
percent of it in Washington State was used to fix roads.
    Now, you know, frankly, there is such a small amount 
ofwatershed restoration money, I would like to see it used more for 
fixing of the culverts and other things rather than having it come out 
of--and winding up taking our watershed restoration money and using it 
for road maintenance. But if you listen to the people who are concerned 
about the fish, and I am one of those, the salmon issues, they say that 
the roads do more to contribute to the sedimentation and those 
problems.

                            road moratorium

    Now, if you are going to have a timber program, on the 
other hand, you must still have some roads out there, and the 
one thing that I wanted to ask you, too, because this is 
somewhat controversial--the administration, now, in some areas, 
where you do not have current planning, declared a moratorium 
on any new roads. But that does not mean you would not 
necessarily have access to that timber. I mean, is it not 
possible to do things like helicopter logging, things of that 
nature, so even if you are not building the new roads does not 
mean you are not going to be harvesting some of the timber in 
those areas?
    Mr. Regula. Will you yield?
    Mr. Dicks. Yes.
    Mr. Regula. If you do helicopter logging, do you not have 
to have a road for the people to go in and cut with tools and 
so on?
    Mr. Lyons. You do that from the existing road network, Mr. 
Chairman.
    Secretary Glickman. In most cases, you would not need new 
roads.
    Mr. Regula. Okay.
    Secretary Glickman. Mike might be able to answer that more 
specifically.
    Mr. Regula. Thank you.
    Mr. Dombeck. First of all, this is a proposal.
    Mr. Regula. Right.
    Mr. Dombeck. It is in a public comment period at this 
point, and that public comment period closes on March 30. Since 
the proposal was made public, and we have been able to review 
the data more closely we have found that we can often go ahead 
and do the forest management job in many areas without road 
building. Some sales of timber have helicopter logging 
alternatives, which are less economic up front. But then, we 
are not saddled with the costs of the long-term maintenance of 
that road for decade after decade.
    So, there are a variety of options. I can say that some of 
the engineers in California have told us that we could probably 
do the forest management job today with about half of the roads 
that might have been designed and put in there 15 or 20 or 30 
years ago. And this, again, accentuates the need to review at 
this policy and continually search for new technologies and 
different ways to get in there and do the job.
    The proposal, I want to reemphasize again, is only about 
road building or reconstruction. It is not about land 
allocations; it is not about changing anything else. It is 
about the activity of road building.
    Mr. Dicks. Well, one other point I wanted to--again, 
anything we can do to educate members up here about this roads 
issue, to explain that, one, we have a problem, and we need to 
get some funding in ISTEA, hopefully, for this but that we have 
got to explain that a lot of this money is being used to 
maintain the existing roads, and if we do not do that, we are 
going to have deterioration in clean water and other issues.
    The other thing I just wanted to raise briefly, Mr. 
Chairman--I appreciate your being a little bit flexible here--
with the Secretary is the Conservation Reserve Enhancement 
Program. We see this in Washington State. The Governor has just 
put in some money at my request and urging to get this; we took 
Park Shackleford of your staff out there. We see the 
Conservation Reserve Enhancement Program as having tremendous 
applicability in both Washington and Oregon and in the West 
generally, but we think that is a very good program, and we 
want to work with you on that.
    Mr. Regula. Mr. Miller?
    Mr. Miller. These questions will continue later? We will 
have another round with the Forest Service? Yes; I have some 
questions of the Forest Service, but since I have a chance to 
talk to you on some other issues, I thought I would bring them 
up.
    Basically, on the logging issue, I am probably very 
supportive of your position. So, you have one supporter in this 
group.
    Secretary Glickman. Okay. [Laughter.]
    Mr. Regula. By that do you mean the moratorium?
    Mr. Dicks. He means everything. [Laughter.]
    Mr. Miller. I look at it from a corporate welfare 
standpoint.
    However, let me ask----
    Mr. Dicks. Have you ever heard of building houses in this 
country? You know, the stuff does not just immaculately fall 
out of the----
    Mr. Miller. I do hope, by the way, to make a trip out to 
some--and see, get a better, first-hand view of the logging 
issues.
    Mr. Dicks. It would be difficult to learn something about 
it.

                             methyl bromide

    Mr. Miller. But anyway, let me ask a question about methyl 
bromide. As you know, that is getting ready to be banned in the 
United States in less than 3 years, and it will be devastating 
to Southern agriculture, including California and Florida and 
such, the concern is that Mexico and other countries continue 
to use it. Two questions, what are you doing, and what do you 
see can happen as far as having to have this level playing 
field with countries like Mexico? And then, have you done any 
analysis of the economic impact of this ban on methyl bromide? 
I am told by my farmers in my area that we are going to 
devastate their ability to compete with Mexico.
    Secretary Glickman. There are alternatives, but they are 
not all very feasible.
    Mr. Miller. Right.
    Secretary Glickman. We have basically directed our 
Agriculture Research Service through Mr. Skeen's committee to 
try to come up with substitutes and alternatives. We are 
involved with international agreements on methyl bromide, but 
I, too, am worried about making sure that the playing field is 
level. Notwithstanding our compliance with various agreements 
in the international arena, we continue to try to deal with 
that issue and to ensure that we do not shoot ourselves in the 
foot in the process.
    I do not have any good, hard answers for you except that we 
are doing our best to redouble the dollars that are available 
in research, both internally and through the land grant 
schools, to try to come up with some alternatives that are 
feasible to be used by the time that the deadline clicks in.
    Mr. Miller. Do you know if there has been any economic 
analysis of what the impact of that would be on agriculture 
yet?
    Secretary Glickman. I am sure we do, but I do not have the 
information off the top of my head.
    Mr. Yates. Why is it being eliminated?
    Mr. Miller. They consider it bad for the environment. And 
so----
    Secretary Glickman. Scientists pretty much agree that 
methyl bromide ought to be phased out.
    Mr. Miller. Right.
    Secretary Glickman. The problem has to do with the 
compliance by Third World countries versus the U.S. and who 
gets a little break in terms of the time period for compliance 
and whether our producers are being put at a disadvantage.
    Mr. Miller. And there is no alternative for it.
    Secretary Glickman. Right now, there is no alternative.
    Mr. Miller. It is used as, in my area, for tomatoes, to 
sterilize the ground between crops. And so, there is no 
alternative. When there is an alternative, the farmers will 
change.
    The other areas used simply are shipping products into the 
United States and as a pesticide or fumigant. It is about the 
only powerful one they can use in ports and so, for 
agricultural importation, it is critical, too. So, they want to 
change, and, it is just a matter of getting the alternative. 
So, you are putting the research into it. Vic Fazio is working 
on trying to get something. If there is some way we can get 
some help, push along the administration to agree to something 
that we can legislatively do, our concern is the competition 
with Mexico. So, it is a California issue as much as it is a 
Florida issue.
    Secretary Glickman. Our deputy secretary was former 
director of the Agriculture Department of the State of 
California.
    Mr. Miller. Right.
    Secretary Glickman. He is intimately involved in working on 
this issue.
    Mr. Miller. Any help you can push would be appreciated, and 
Mr. Fazio is working with us on this.

                          everglades and sugar

    The other question I want to ask about is on the Everglades 
and sugar. The chairman and I were down in the Everglades in 
January seeing what was happening. There is an extremely 
complex program going on down there with, 23 different Federal 
and state agencies, including the Department of Agriculture. 
The problem we have, it seems, is we have a conflicting policy 
with the Federal Government. We are spending billions of 
dollars to get the Everglades back, and a lot of it is caused 
by population growth and such.
    But we also have a Federal policy to encourage 
overproduction of sugar in those areas and the overvaluation of 
the land that sugar is grown on. We are having to buy all of 
this land from the sugar companies for the Everglades, which we 
agree that we need to buy it, but because we have doubled the 
world price on sugar, it makes it very expensive. So, it seems 
like we are wasting Federal dollars, because one Federal 
policy, the sugar program, encourages overproduction, 
overvaluation, and then, we are spending all of this money 
trying to correct it. How do you explain that to somebody?
    Secretary Glickman. Let me just say, Mr. Miller, that 
Congress had an opportunity in the 1996 farm bill to deal with 
sugar policy, and it chose to deal with it in the way that it 
did, and we administer that policy as fairly as possible. 
[Laughter.]
    I mean, that is about the best I can tell you. [Laughter.]
    I mean, sugar is a complicated policy. It has different 
roots than the other commodities. We also have a great amount 
of sugar being grown by beet producers. This is now a major 
factor which we did not have 50 or 60 years ago.
    There were some changes in the sugar policy last year that 
the new farm bill made, but ultimately, it is a policy decision 
that Congress has got to decide on.
    Mr. Regula. Mr. Skeen? [Laughter.]
    Mr. Skeen. Ball two.
    Mr. Secretary, I came down to see how they were treating 
you down here, and they already have your jacket off. 
[Laughter.]
    This is a tough outfit. I just wanted to say that I 
appreciate the coordination and the cooperation that we have. I 
also wanted to say we have very serious problems, particularly 
those on international trade and the rest. So, I have no 
questions for you. I think we have just about exhausted you, 
so, I will give you a little chance here to talk about sugar.
    Secretary Glickman. Thank you.
    Mr. Skeen. By the way, I went down and visited Florida. It 
is quite an engineering feat they are using to address a very 
serious problem.
    Secretary Glickman. I will have to say that the Government 
overall is putting extensive resources into Everglades-related 
issues. Our soil conservationists, technicians, engineers with 
NRCS, which is our old Soil Conservation Service, are actively 
engaged in this effort.
    Mr. Skeen. I yield back.
    Mr. Regula. Mr. Yates.
    Mr. Yates. Mr. Secretary, I wanted to join my good friends 
in congratulating you and commending you upon the superb job 
you have done as secretary. It could not have been a very easy 
thing to move from the legislative branch to the executive 
branch, but you have made the transition very well. And from 
this urban dweller's point of view, I think you are a great 
Secretary. I do not know what the farmers think but----
    [Laughter.]
    Mr. Yates. I think you are terrific.
    Mr. Dicks. I love him. He giveth with the right hand, 
taketh with the left.

                               litigation

    Mr. Yates. Anyway, tell me what is going on between the 
Department and the environmental groups? Are they still suing 
to keep you from carrying out timber contracts?
    Secretary Glickman. Well I am a defendant in lots of 
lawsuits.
    Mr. Yates. I bet you are.
    Secretary Glickman. And I would say that I do not know if 
the pace of litigation has slowed down at all. It seems to have 
slowed a little bit.
    Mr. Yates. Well, it should slow down if you are cutting 
your contracts should it not?
    Secretary Glickman. It has certainly not slowed down at all 
the last few years.
    Mr. Yates. Well, but you had not slowed the pace, then, 
really, had you?
    Mr. Taylor. But you cannot scare people to give money 
unless you are suing them.
    Mr. Yates. I am sorry?
    Mr. Taylor. You cannot scare people to give money unless 
you are suing, and that has nothing to do with cutting.
    Secretary Glickman. Let me make this point, and then, I 
would like to ask one of my colleagues on this side to respond 
to the issue of the amount of litigation. My philosophy is that 
I am not in this job to please the environmentalists or to 
please the timber industry. We get pulled. I must tell you that 
on these issues, you get pulled both ways very, very hard, and 
as I have said, the forests have multiple purposes and multiple 
roles.
    We have probably given more emphasis to recreation and the 
protection of the environment than was the case in previous 
years, but I also still believe that there is a role for 
responsible and sustainable harvesting of the forests as well. 
There are some people who want to see no cut, period. That is 
not my philosophy, and that is not the philosophy of the Chief 
of the Forest Service.
    There are some people who think that we are far, far too 
stingy in the amount of timber that we are allowing to be cut. 
I think that they fail to take into account the other uses of 
the forest, including the water issue that I talked about 
before. It is always a question of balance, and usually, when 
you try to walk down the middle of the road, you end up 
pleasing nobody, but I think we are generally doing the right 
thing.
    Mr. Yates. Okay; well, I knew that there had been a lot of 
lawsuits in previous years, and I knew that you had announced 
that the size of your timber cut would not be as great. I 
thought, perhaps, that they were laying off of you to some 
extent. But it is too early to know whether that will happen or 
not.

                  road maintenance and reconstruction

    I thought I saw somewhere in your statement that you have a 
backlog of about $10 billion in road maintenance.
    Secretary Glickman. That is correct.
    Mr. Yates. How are you going to take care of that?
    Secretary Glickman. Mr. Lyons?
    Mr. Lyons. We need your help.
    We hope to tackle it a number of ways. The 1999 budget 
proposal includes requests for increased funding for road 
maintenance. But even that will only get our program up to 
where we can maintain 45 percent of our major roads to 
standard. The Secretary indicated earlier that we have 380,000 
miles of road in the national forest system. About 86,000 get 
most of the use, and we are really focusing on the maintenance 
of those roads and bridges.
    We have 7,000 bridges, 1,000 of which have been deemed 
deficient already.
    Mr. Yates. Have been deemed deficient?
    Mr. Lyons. That is right, they have been deemed deficient 
from a safety standpoint or a structural standpoint.
    Mr. Yates. Are you still using them?
    Mr. Lyons. Well, we try not to.
    Mr. Yates. Well, no, I did not ask you that.
    Mr. Lyons. Yes, I imagine that in some places we are.
    And we know that we need to continue maintenance on those 
bridges at a rate of 150 to 200 a year, but we only have 
adequate funds for 40. It is not an issue that can be dealt 
with solely by this committee, and I want to thank the 
committee for the support provided last year in increased road 
maintenance funding. That helped some.
    But what we really need is some support from the 
Transportation Committee and perhaps some funds from the ISTEA 
program to get at the backlog, and we have talked to some of 
the members of that committee. I know Chairman Regula was 
helpful in talking that issue through with us the other day.
    A $10.5 billion backlog cannot be cleaned up under the 
current circumstances we face. We have to get at it with a 
larger pot of funds.
    Mr. Yates. Well, as a matter of fact, it will probably 
increase, will it not.
    Mr. Lyons. It will increase if we do not get on top of it. 
It is accelerating because at the current pace we are only 
maintaining 40 percent of the system to standard.

                            grazing program

    Mr. Yates. Does the Department of Agriculture have a rental 
system like they do in Interior for renting Federal land for--
what is it now--$2 a month?
    Mr. Dicks. You mean like the BLM program.
    Mr. Yates. Yes, BLM.
    Mr. Lyons. The grazing program?
    Mr. Yates. Grazing program.
    Mr. Lyons. Yes, we do have a large grazing program.
    Mr. Yates. You do have?
    Mr. Lyons. Yes.
    Mr. Yates. And it still costs a lot of money, does it not?
    Mr. Lyons. Well, hopefully, we will improve the efficiency 
of that program, but our rental rates are consistent with 
Interior's. That is set by executive order.
    Mr. Yates. Yes; I see; of course, that is the problem. How 
do they compare with state rates?
    Mr. Lyons. Well, they vary, but, in general, I am sure 
private rates and the rates in certain states are higher than 
those on the lands we administer.
    Mr. Yates. Significantly?
    Mr. Lyons. In certain places, yes, sir.
    Mr. Yates. Can you put a comparison in the record?
    Mr. Lyons. I would rather provide you that information for 
the record, but we could do that.
    Mr. Yates. That is what I asked you.
    Mr. Lyons. Yes, sir, we can do that.
    [The information follows:]

    The livestock grazing fee for 1998 is $1.35 per month for each 
``head-month'' of grazing use on the National Forests. This is the rate 
charged on the National Forests and National Grasslands in the western 
States. The following table displays the rates charged by western 
States where livestock grazing is taking place. The ``per-head'' rate 
is that rate most comparable to the head-month rate used in the Forest 
Service.

[Page 39--The official Committee record contains additional material here.]

    Mr. Yates. Thank you, Mr. Chairman.
    Mr. Regula. Let me say to the committee members that it is 
my understanding that the tropical forests bill will finish 
between 1:00 and 1:30, it is still up in the air whether we 
will go forward with the State Department reauthorization. If 
not, we will be finished voting around 1:30. So, what I would 
anticipate is we go forward with two members who have not yet 
had a chance to ask you questions, Mr. Secretary. I would like 
if they could, and then, we will keep going until we adjourn 
the committee, rather than trying to break.
    So, Mr. Taylor.

                          timber salvage sales

    Mr. Taylor. Mr. Secretary, we have had these discussions 
before. Our best schools have schools of forestry, and we 
ignore them. About 2 years ago, we set out a group of educators 
from all across the country and put together a report, which 
they did. They presented it about a year ago to Congress. Then, 
they asked for a peer review of the study, and the information 
came back without serious scientific fault.
    You have experimental stations that you, the Forest 
Service, maintain as well as private and state experimentation. 
Now, all of those, and let us focus on one area, because I do 
not have the time, but all of those are consistent that 
salvage, for instance, is essential for forest health. We are 
bringing in insects because we are bringing in more imports. We 
are creating fires. We have disease and insect spreads all over 
the country.
    Yet, when we had a very modest salvage bill, it was fought 
by the administration, I suppose, to pander to the 1996 
election, and, in fact, it was stopped about a half a month 
earlier than what the Congress had put in the actual bill, 
which I think is illegal. But to see that kind of action on 
behalf of the department when all of the evidence says this is 
for the forest's health; we had a very modest situation here, 
and, of course, there was the pandering, the hue and cry that 
it was being abused in some way. And yet, every investigation 
showed that it was not.
    And just looking at that one area before I go into other 
areas, how can we say that we are managing the forests on a 
scientific basis when we ignore all of that? I know you folks 
have reviewed; we gave you a copy of the scientific report and 
so forth. Open to question at any time.
    Secretary Glickman. Mike or Jim, do you want to respond?
    Mr. Taylor. I do not want it to go more than about a 
minute, because I would like to ask another question, if I 
could.
    Secretary Glickman. Well, let us talk about the salvage and 
then let me comment quickly.
    Mr. Lyons. Congressman Taylor, I would point out that, 
consistent with the Congressional direction under the salvage 
rider, the administration exceeded the commitment that 
Secretary Glickman made to the speaker in terms of the volume 
that would be generated under the salvage program. We followed 
through on our commitment.
    Mr. Taylor. Why did you stop it a half a month early?
    Secretary Glickman. Well, our instruction to the field was 
to start to transition back to a normal timber sale program. We 
had quite a bit of volume that had already been prepared under 
the salvage program. We wanted to clean that out and deal with 
the normal program, so we were simply transitioning.
    Mr. Taylor. The law, I think, required you to go through 
December 31, and that was a commitment in writing by the 
President, and you stopped it early.
    But let us go beyond that and say if that was a good idea, 
why are we not doing that every year instead of ignoring it?
    Secretary Glickman. Well, Congressman, I would just point 
out that of our proposed timber offer for 1999, nearly a third 
is salvage. We are trying to respond by shifting the program to 
address forest health concerns focused primarily on salvage.
    Mr. Taylor. But you probably have way more than $30 billion 
of free board feet that are going to rot right in the forest 
now. So, it is like you are making an effort right now. It is 
way below what you were doing even during the salvage 
legislation, and it is very far below what is needed.
    Secretary Glickman. Mike may want to add a comment about 
the forest health issue. I think that underlying your question 
is the desire to make sure that we do what we need to do to 
deal with diseased, insect-infested or dying timber.
    Mr. Dombeck. I think we are in agreement in several areas, 
and one is that active management is required. We need to do a 
better job integrating timber sales and timber harvests with 
the forest health issue and with the urban wildland fire issue, 
and I would say that the dialogue that I would like to enter 
into over the course of the next couple of years involves the 
incentive systems. When we take a look at timber salvage, this 
gets us into the issue of below-cost timber sales, because much 
of this is lower value wood.
    In my view, we should not even be talking about below-cost 
timber sales. We should be talking about the condition that we 
want in the forests and then, how do we get there.
    Mr. Taylor. Certainly.
    Mr. Regula. Do you have another question, a brief one?

                     profitability of timber sales

    Mr. Taylor. Yes; the last year, I think it was just 
announced that you lost money in 1996, Mr. Secretary. Did you 
consider firing your undersecretary if you lost $15 million? I 
certainly would have in my company, because we do not have--you 
have almost a zero basis in your land, and we have much higher 
than that. And yet, we do not lose money, and yet, we have 
excellent wildlife proposals. And we are not sided; we plant 
roads and things of that nature.
    Why did you make that announcement when the GAO says the 
Forest Service lacks adequate controls to ensure that all 
billings for timber sales and other revenue-generating 
activities submitted are accurately recorded? And, in fact, you 
really cannot make that statement, because your information 
seems to be faulty. Why would you make a statement like that 
when your books are really--it is impossible?
    Secretary Glickman. Well, Mike, are you going to comment on 
this? Because I need to make a comment as well.
    Mr. Dombeck. Yes; some of the things that have changed over 
time are that we are doing about 84 percent less clear-cutting 
over the last decade, and that about 70 percent of the timber 
sales that are being offered now have objectives beyond getting 
the cut out. They are the kinds of things we have been talking 
about dealing with: forest health issues and other types of 
things. I believe the direction we are going in is to better 
integrate timber harvests into our other watershed forest needs 
in order to maintain the long-term health of the forests.
    But one of the questions I always ask myself is why is it 
that we wait for a forest to have severe problems and then 
salvage it? Why is it that we are not practicing the 
appropriate silvaculture on the land to keep it healthy?I think 
that is where we want to move forward.
    Mr. Taylor. But you cannot do that if you are not cutting 
and you are now----
    Mr. Regula. Mr. Secretary, you wanted to make a comment?
    Secretary Glickman. Well, I read the GAO report, and it 
struck me that the inference of that report was to cut timber 
to make money; the Forest Service was a money-generating 
operation. they are no longer generating money in the 
traditional way. My perspective on that is that I did not 
believe the statute required us to be a money-generating 
operation.
    Mr. Taylor. That is not my question. I know that is not the 
mission they said that you wanted to do. But what the GAO said 
is that it lacks adequate controls to ensure that all billings 
for timber sales and other revenue-generating activities are 
submitted and accurately recorded and recognized.
    Secretary Glickman. Okay.
    Mr. Taylor. And that has entirely----
    Secretary Glickman. Okay; that is a fiscal audit issue. 
Those issues are serious ones, and they are being addressed.
    Mr. Regula. And I think perhaps you should provide Mr. 
Taylor with----
    Secretary Glickman. Yes.
    Mr. Regula [continuing]. A more complete response for the 
record.
    Secretary Glickman. Yes.
    Mr. Regula. Because I have the same question.
    Secretary Glickman. That question needs to be specifically 
responded to.
    Mr. Regula. Yes.
    Secretary Glickman. I agree with that.
    [The information follows:]

    The Forest Service recognizes its weakness in the area of financial 
statements and is currently in the process of improving its financial 
situation through such initiatives as its effort to implement a new 
accounting system know as FFIS (Foundation Financial Information 
System).
    Although the difficulties with our current accounting procedures 
are not specific to the Timber Sale Program Information Reporting 
System (TSPIRS), which is used to compile the financial information 
presented in our Forest Management Program Annual Report, the data 
compiled from the accounting system by TSPIRS could be affected. 
Recognizing this, there was considerable internal discussion about 
whether or not the agency should release a TSPIRS report in FY 1996. 
The decision to release was based upon two considerations that were 
felt to overshadow any potential inaccuracies in the financial data. 
These were: 1) the fact that the report is prepared at the request of 
Congress; and 2) the fact that failure to release a report, in the 
first year the program appears to have lost money, would almost 
certainly have been perceived as an attempted cover-up. We do not know 
for sure that the timber sales program lost exactly $14.7 million in FY 
1996; but we strongly feel this is the best estimate of actual loses 
based on the information we have.
    It is our harvest data, not our accounting data, that document the 
timber program's continuing shift away from timber commodity and 
towards forest stewardship purpose sales. This shift means that 
decisions regarding sale design are being made less and less on the 
basis of commercial considerations, and more on the basis of 
considerations such as forest health related objectives; for example, 
reducing the risk of catastrophic fire.

    Mr. Regula. Mr. Moran?
    Mr. Yates. Mr. Moran, would you yield for just one 
question?
    Mr. Moran. Sure.

                             timber salvage

    Mr. Yates. Mr. Secretary, was part of the reason for 
stopping that program not because of the criticism that it did 
receive because it went far beyond the actual salvage of the 
forest but because it was cutting down the green trees as well?
    Mr. Taylor. I would like to hear that.
    Mr. Regula. I think the law allowed the green trees to be 
cut.
    Mr. Taylor. There was never any proof after I think it was 
about 12 or 14 investigations that showed that any ringed 
timber other than that affected was ever involved.
    Mr. Dicks. Let us be honest about this, too. I mean, 
scientifically, you know, there is going to be some timber 
adjacent----
    Mr. Taylor. Sure.
    Mr. Dicks [continuing]. To the diseased timber that if you 
are going to try to stop the disease, you have to take it out.
    Mr. Taylor. Sure.
    Mr. Dicks. I mean, that is a scientific requirement. That 
is not some malicious, terrible eco-attack.
    Mr. Regula. Let us get a comprehensive answer for the 
record and please send a copy to Mr. Taylor. I think he has a 
very legitimate concern.
    [The information follows:]

    The emergency salvage provisions as provided for in Section 2001(b) 
of the 1995 Rescissions Act requires that salvage timber sale contracts 
be offered prior to December 31, 1996 (Section 2001(j)). According to 
contract law, a timber sale is considered offered only when the Forest 
Service receives the bids for the advertised timber. Salvage sales were 
advertised for 14 days. Given these conditions, the agency started the 
transition to the expiration of the emergency provisions on December 
13, 1996 by withholding any future advertisements of salvage sales 
under the emergency provisions. Any salvage sale advertised under the 
emergency provisions but not receiving valid bids before December 31, 
1996 would not have qualified for the provisions and would have needed 
to be reworked to meet all NEPA requirements, including full public 
participation and legal review. It was not prudent for the agency to 
solicit bids for salvage sales that could not be offered before the 
expiration of the emergency provisions.

    Mr. Moran. Yes; I do not think Mr. Yates was suggesting 
that people should not use common sense but that they should 
exercise judgment just in determining----
    Mr. Dicks. That is correct. I am not suggesting it either.

                         income from recreation

    Mr. Moran. No, I know.
    I think you are doing a hell of a job, Mr. Secretary, and I 
appreciate the work that you are doing and the guidance that 
you have given. Might as well get it on the record.
    Speaking of money, the Forest Service just concluded a 
study that showed that the income from recreational activities 
is going to be five times as much as the income from extraction 
activities by the year 2002.
    Mr. Taylor. Look at how many people are using it.
    Mr. Moran. Yes; that is right; that is an excellent chart. 
We can put that in for the record right here.
    Mr. Regula. Without objection.
    Mr. Moran. Thank you, Mr. Chairman.
    [The information follows:]

[Page 45--The official Committee record contains additional material here.]


    Mr. Moran. Do you find that communities around the country 
are starting to realize this trend and benefiting from all of 
the tourism and the recreational opportunities on forest lands, 
particularly areas that used to be almost solely concentrating 
on timber harvest production are now looking toward tourism and 
recreation; and, of course, that means that they have to put in 
restaurants and lodging and so on. They have to put in the 
infrastructure. Do you see that taking place in anticipation of 
this economic growth potential?
    Secretary Glickman. There is extensive rural development 
going on in and around our forests to take advantage of the 
multiple uses of our forests, recognizing that there is still a 
role for timber cutting but that there are enhanced roles for 
other functions as well. One of the great things about the 
Forest Service being in USDA is that every state has a rural 
development state director whose job it is to promote water 
systems, sewer systems, business and industry development and 
working with the Forest Service to provide the kind of a venue 
for infrastructure improvements to get this kind of 
development.
    You do have a lot more community interest in this. Trying 
to establish entrepreneurship is not often as easy as I would 
like it to be in some of these areas which are particularly 
remote, but it is a high priority with us.
    Mr. Moran. Well, I am not surprised. That really seems to 
be the economic bridge. It is not that people are so gung ho 
about harvesting forests as much as the jobs that are involved 
bringing revenue into areas that have been economically 
disadvantaged, and if we can provide an infrastructure to bring 
in revenue for other purposes, we will have, perhaps, a more 
stable source of income.

                           road program needs

    The other thing I just wanted to raise if I could, Mr. 
Chairman, to put this road moratorium into perspective, how 
many miles of new roads were you slated to build in last year's 
budget? And what percentage of total roads would those new 
roads have represented? Do we have a figure on that?
    Secretary Glickman. Mr. Lyons, do you have those numbers?
    Mr. Lyons. You asked for new road construction as a 
percentage of total roads?
    [The information follows:]

    The planned construction of new system roads for FY 1998 is 11.1 
miles from appropriated funds and 503.7 miles by timber purchasers, for 
a total of 514.8 miles. That's an increase of 0.14 percent in system 
miles.

    Mr. Moran. Yes, as a percentage in last year's budget. And 
then, the other thing that I wanted to ask while you are 
getting that is to tie it in to the previous question. Is the 
road building moratorium going to reduce recreational access to 
the forests? Or do you think, in your judgment, we already have 
enough roads to adequately access those areas for most 
recreational users?
    [The information follows:]

    To respond to your question on recreation access, the road 
moratorium has no significant effect. There would be less than two 
miles nationally of road being constructed or reconstructed primarily 
for the purpose of recreation access within roadless areas. Therefore, 
the majority of pre-existing recreation access continues.

    Secretary Glickman. Well, we have 380,000 miles of roads. 
Many of them are not being properly maintained, because there 
are not enough funding resources although we are maintaining 
those roads that are actively involved in recreation usage. You 
know, the big problem we have is the inadequacy of resources to 
deal with this backlog of maintenance needs on the roads that 
we already have.
    Mr. Moran. So, it is not so much building new roads as much 
as you would consider a higher priority really adequately 
maintaining the existing road network.
    Mr. Lyons. That is correct; certainly, for the recreational 
activities, that is correct.
    Mr. Dicks. Would the gentleman yield just on one point that 
Mr. Lyons made with some of us that he met with yesterday? He 
is actually having to shut down some roads because of a lack of 
maintenance funding and bridge funding; is that not correct?
    Mr. Lyons. That is correct. With the budget situation, for 
example, we face circumstances where we have to shut down the 
system for public safety concerns. And so, unfortunately, 
without the investment in maintenance, we are seeing a 
shutdown.
    Mr. Taylor. Would the gentleman yield on that?
    Mr. Moran. Yes; let me just make a point, and then, you can 
probably respond to that, too, Charles, while you are at it.
    It just seemed to me with all of the reaction that occurred 
with the 18-month moratorium that it is interesting to put this 
in perspective, that the real priority is having the resources 
to maintain the road network we currently have even greater 
than----
    Secretary Glickman. I did not mean to leave the impression 
it was only for recreation.
    Mr. Moran. Yes, sure.
    Secretary Glickman. It is also for the timber interests as 
well.
    Mr. Moran. Charles?
    Mr. Taylor. The gentleman that we--in 1996, we built 147 in 
new roads. We took out 1,440. Ten times as many were 
obliterated. And that is what concerns a lot of us about why we 
need the 18-month moratorium.
    Mr. Regula. Mr. Lyons, do you want to respond to that?
    Mr. Lyons. I think that I prefer to give you accurate 
figures on that. That is not the figures I have, Congressman 
Taylor. So, we would have to get you that information.
    I would tell you, for example, that, in the 1999 proposal 
we would actually propose to increase the number of miles 
decommission roads to 3,500 miles, which is the biggest 
increase that we have seen. We know from current forest plans, 
this is information generated at the forest level, that we have 
about a 40,000 mile backlog of inventoried and uninventoried 
roads which could be decommissioned over a 10-year period. This 
has been determined through a public planning process.
    Mr. Taylor. Mr. Chairman, I would like to submit as part of 
the record with the U.S. Department of Agriculture Forest 
Service fact sheet, and that is with the figures I just quoted.
    Mr. Regula. Without objection, this will be made part of 
the record.
    [The information follows:]

[Page 48--The official Committee record contains additional material here.]


    Mr. Taylor. I would hope the Secretary would read that.
    Mr. Moran. I do not want to impose on your indulgence any 
more, Mr. Chairman. I know we are on a tight time frame. So, I 
will conclude.

                             accountability

    Mr. Regula. We will continue; however, Mr. Secretary, I 
think you have to go. Let me just comment that I would like to 
stress that you work with the agency, and your role is to 
enhance the accountability. Mr. Taylor touched on that, and I 
think it is a serious problem.
    Secretary Glickman. That is a fair question, and we will 
respond specifically to that. There is no question that the 
Forest Service has administrative management challenges. We are 
working along with our Chief Financial Officer and Mike Dombeck 
and our IG to update and modernize their accounting systems, 
information systems and the like.
    Mr. Dicks. Mr. Chairman?
    Mr. Regula. Yes?
    Mr. Dicks. Is there any estimate of how much money is not 
being collected?
    Mr. Regula. I do not think they really know; am I correct?
    Well, in any event, if you have that for the record, please 
provide it.
    Secretary Glickman. We will provide that for the record.
    [The information follows:]

    The Forest Service has not estimated how much money is not being 
collected to recover costs associated with some services. However, the 
Agency is currently reviewing the appropriateness of cost recovery 
regulations for processing and administering authorizations, i.e., 
primarily special use authorizations, for the occupancy and use of 
National Forest System (NFS) lands. The issue of recovering costs for 
services historically provided by the Agency at no charge to applicants 
can be very controversial. The issue was also raised in a 1998 GAO 
report where fair market value cost recovery for goods or services such 
as resort lodges, marinas, guide services, private recreational cabins, 
and the like were mentioned. Previously, Forest Service management had 
not proposed that the Secretary of Agriculture promulgate regulations 
for the recovery of costs to the United States related to special use 
authorization applications. Costs eligible for recovery in association 
with special use authorizations may include costs of special studies, 
environmental impact statements, monitoring construction, operation, 
maintenance and termination of any authorized facility, or other 
special activities.

    Mr. Regula. But I do think it is a serious problem. It 
requires the attention of everyone in the agency. We reserve 
the right to have you back. It all depends how we work it out. 
And let me say particularly, the President's budget request is 
based on a lot of user fees, which I do not believe the public 
will embrace. Given that fact, we are probably going to have to 
prioritize in the use of the funds that are available, and we 
would like to work with you and get your input on any 
prioritizing we have to do based on what is reality as far as 
the funds we have available.
    Secretary Glickman. I understand the controversy about user 
fees because Mr. Skeen and I have talked a lot about them in 
other areas of the department. What we have found in the case 
of recreation user fees is that the public is very supportive 
if they know that the collections are going into something that 
they see every day.
    Mr. Regula. Well, those are the fees that you collect at 
the gate. But, many of these user fees are something entirely 
different.
    We appreciate your coming, and I understand you will stay, 
Mr. Dombeck.
    Secretary Glickman. Yes, Mr. Dombeck will stay to answer 
the detailed questions.
    Mr. Regula. Okay; Mr. Dicks?
    Secretary Glickman. Thank you.
    Mr. Dicks. Are you back to me?
    Mr. Regula. Yes.
    [The following questions and answers were submitted for the 
record:]

[Pages 51 - 84--The official Committee record contains additional material here.]








=======================================================================

                     U.S. Department of Agriculture

                          U.S. Forest Service

=======================================================================

              Thursday, March 19, 1998 and Tuesday, March 31, 1998.

                          U.S. FOREST SERVICE

                               WITNESSES

MICHAEL P. DOMBECK, CHIEF
ROBERT JOSLIN, DEPUTY CHIEF, NATIONAL FOREST SYSTEM
ROBERT LEWIS, DEPUTY CHIEF, RESEARCH AND DEVELOPMENT
JANICE McDOUGLE, ACTING DEPUTY CHIEF, STATE AND PRIVATE FORESTRY
CLYDE THOMPSON, ACTING DEPUTY CHIEF, OPERATIONS
RON STEWART, DEPUTY CHIEF, PROGRAMS AND LEGISLATION
FRANCIS PANDOLFI, SPECIAL ASSISTANT TO THE CHIEF

[Pages 88 - 89--The official Committee record contains additional material here.]

    Mr. Regula. Would you like to put any statement in the 
record?

                        Chief's Opening Remarks

    Mr. Dombeck. I would like to make just some very brief 
comments.
    Mr. Regula. Okay.
    Mr. Dombeck. And introduce some of my staff.
    Well, thank you, Mr. Chairman, and we appreciate the 
opportunity to be here to answer your questions. I would like 
to take a moment to highlight some issues that I have been 
thinking about and talk a little bit about budget priorities. I 
have been in the job now about 15 months. The goals I have been 
focusing on are: restoring and maintaining the health of the 
land within the context of multiple-use management; ensuring 
accountability for what we do on the land; our financial 
resources and business systems; civil rights of our employees; 
and promoting collaborative stewardship partnerships and 
decisions based upon the best science.
    As you know, the Forest Service has a National Forest 
System of 191 million acres, a very significant research 
program, and also a State and Private Forestry program that 
provides assistance important to many, many people.
    On March 2, I delivered an address to employees where I 
outlined an agenda we have been developing for some time based 
upon much input from employees, many, many meetings, and many 
years of professional forest management assistance by the 
Forest Service employees. I am really focusing on four key 
areas with this agenda: watershed health and restoration; 
sustainable forest management; the forest road system; and 
recreation. I would be happy to discuss any of those areas with 
you or any of the members of the committee.
    I do want to close in mentioning one issue that is very, 
very important to me. That is the combined issue of 
accountability, financial management, data systems, and 
performance measures. As of February 7 this year, the level of 
concern over accountability is very high. We have more than 100 
separate audits going on conducted by the General Accounting 
Office and the USDA Office of the Inspector General. I want to 
assure you that accountability and our business management 
practices are very, very high on my list. We are going to be 
moving forward aggressively to address those issues. I would 
invite the committee, as well as other members of Congress, to 
work with us. The situation has evolved over time. It is 
something that, if any of us could snap our fingers to fix it 
instantly, we would like to do just that.
    So, I ask you for your support and cooperation in 
highlighting something very important to me and the Forest 
Service.
    I have with me Bob Joslin, Deputy Chief for the National 
Forest System, and in the empty chair here, I hope to utilize 
other leadership of the Forest Service: Clyde Thompson is 
Acting Deputy Chief in charge of operations; Robert Lewis is 
Deputy Chief in charge of Research and Development; Ron Stewart 
is Deputy Chief for Programs and Legislation; and Janice 
McDougle is Acting Deputy Chief for State and Private Forestry. 
I will be calling on their expertise. It is a big program, lots 
of issues, and they are the experts.
    [The statement of Michael Dombeck follows:]

[Pages 91 - 95--The official Committee record contains additional material here.]

    Mr. Regula. Thank you.
    Mr. Nethercutt, your friends over here have deferred to you 
because you have to chair another committee; so, you may lead 
off with your questions.
    Mr. Nethercutt. Well, thank you very much. I will be brief 
because I do have to leave. Thanks again, Mr. Dombeck.

                    interior columbia basin project

    I want to talk about the Interior Columbia Basin Project. 
It has been a concern of mine for the last few years. Section 
323(a) of the FY 1998 Appropriations Act from this subcommittee 
requires that a report be submitted to the committee which must 
include the estimated production of goods and services from 
each unit of the Federal lands for the first 5 years of the 
implementation of the project.
    I understand you may be working on this. Has it been 
completed or where are we regarding that requirement of this 
committee?
    Mr. Dombeck. Let me ask the staff exactly where that is at.
    Mr. Joslin. Are you talking about the economic study there?
    Mr. Nethercutt. I am quoting out of Section 323: the 
estimated production of goods and services from each unit of 
the Federal lands for the first 5 years. What are you going to 
get out of the Colville National Forest for example?
    Mr. Joslin. Yes; we have submitted that economic study. We 
have not completed the work that you are talking about. We are working 
on that.
    Mr. Nethercutt. But the record of decision, to the extent 
that it issued, will immediately amend all 74 land management 
plans; is that correct?
    Mr. Joslin. Yes, sir.
    Mr. Nethercutt. Okay; and if those land management plans 
are affected, the local planning, the land management planning 
for each forest and BLM district will be affected; would you 
agree with that?
    Mr. Joslin. Yes; the plans would be amended overall, but 
those specifics for each individual plan will not--the total 
amendment will not occur as a result of the Columbia River 
Basin Project.
    Mr. Nethercutt. Well, my concern is that we are going to 
amend the local land use plans; we are going to amend the local 
forest plans; but, yet, the project managers do not have any 
sense of what the estimated production of goods and services 
from each unit of these lands is going to be.
    Mr. Joslin. Well, I think they will have, yes.
    Mr. Nethercutt. Well, how will they have that if the work 
has not been done that is required to be done under existing 
law?
    Mr. Joslin. That work will be done before that comes out.
    Mr. Nethercutt. Before the record of the decision?
    Mr. Joslin. Yes, I hope it will be, yes.
    Mr. Nethercutt. You hope, sir, or it will?
    Mr. Joslin. Yes, it will be. [Laughter.]
    Mr. Nethercutt. Because it is required that it be 
submitted----
    Mr. Joslin. Yes.
    Mr. Nethercutt  [continuing]. Prior to any decision 
document so----
    Mr. Dombeck. The timetable for the close of the comment 
period, as you know, is May 6, and I believe, then, we would 
anticipate that the record of decision would be signed in about 
a year.
    Mr. Joslin. Right.
    Mr. Nethercutt. So, you think you can get it all done 
within that time.
    Mr. Dombeck. Yes.

                interior columbia basin project funding

    Mr. Nethercutt. You indicated you need another $10 million 
in additional funding and the redirection of $114 million from 
your existing budget for implementation of the project. Are 
those still good numbers?
    Mr. Dombeck. Yes.
    Mr. Nethercutt. You have asked for $124 million for fiscal 
year 1999 to implement. Is that the number that you have asked 
for?
    Mr. Dombeck. That is correct.
    Mr. Nethercutt. If you have $124 million budgeted for FY 
1999, is it accurate, then, to assume that in fiscal year 2000, 
you would need about four times that amount for the 
implementation? In other words, if you look at the numbers for 
fiscal year 1999 versus what is coming in the years ahead, is 
that consistent with your projections? Do you follow my 
question?
    Mr. Dombeck. I think so; let me start and then ask the 
staff to dig out additional numbers if they have them.
    We are assuming that implementation would begin during the 
last quarter of the fiscal year; hence, the requested funding 
increase because we would be reprioritizing, putting priorities 
on some things that would be consistent with the new record of 
decision.
    Mr. Nethercutt. So, $124 million for the last quarter.
    Mr. Dombeck. No, for the entire year.
    Mr. Nethercutt. Okay; but you are going to be doing the 
work in the last quarter, correct? Spending that money in the 
last quarter?
    Mr. Dombeck. No, the $114 million of the $124 million is 
really the base funding for the National Forests and Research 
within the Columbia Basin. The National Forests within the 
Basin represent approximately 15 percent of the entire National 
Forest System land base. I would suspect that in the $114 
million base funding $60 million to $70 million is included for 
timber management. So, it is the continuation of an existing 
program, perhaps with slightly different priorities, that would 
be dictated by the new record of decision.
    Mr. Nethercutt. Thank you.
    I will have some other questions for the record, if I may, 
Mr. Chairman.
    Mr. Regula. Yes.
    Mr. Nethercutt. Mr. Dombeck, thank you very much.
    Mr. Regula. We are going to have a 15 minute vote, followed 
by a 5 minute vote coming up. Do you want to come back to ask 
your questions?
    Mr. Skaggs. Mr. Chairman, as the Chairman knows, we have a 
meeting of the committee Democrats.
    Mr. Dicks. Why do we not go as late as we can here and 
then----
    Mr. Regula. Okay; why do we not maybe have time for about 
one minute from each or one question from each of you?
    Mr. Skaggs. A couple of comments; one, I want to----
    Mr. Dicks. We have got 15 minutes here, do we not, Mr. 
Chairman?
    Mr. Regula. Yes; go ahead, Mr. Skaggs.
    Mr. Skaggs. For the record, one of your many good people 
out in my part of the country, Skip Underwood, has been working 
very helpfully with us in dealing with the Boulder, Colorado 
pipeline issue, and as the Chairman knows, we believe we have 
been able to resolve many, many very contentious issues there. 
It is because a lot of people of good will have helped make 
that happen. I appreciate the Forest Service's forthcomingness 
on that, and Skip, in particular, has done good work for you.
    I was glad to see that the acquisition of some property 
within the Maroon Bells wilderness, the Conundrum Creek Mine 
property, has a high place on your priority list and I hope, 
Mr. Chairman, that we will be able to implement that.

                  stabilization of payments to states

    For the record, if you would be kind enough, in connection 
with your effort to stabilize funding for local communities 
coming out of your program, I really would be interested in 
understanding the multiplier effect of these recreational uses 
that we have been talking about and the net tax benefit to 
those same local communities that are getting, now, less coming 
out of the timber cutting side of the program. While we want to 
be fair and appropriate, we should deal with all of the 
important economic factors that bear on what a fair and 
appropriate level might be.
    Mr. Regula. You might want to comment for the record. That 
is a pretty significant question.
    Mr. Skaggs. That means the Chairman wants an answer too, 
right?
    Mr. Regula. That is correct.
    [The information follows:]

    We do not have specific information related to the multiplier 
effect of recreational uses in every local community nor do we have 
information on the net tax benefit to communities. A national economic 
impact analysis was reported in ``The Forest Service Program for Forest 
and Rangeland Resources: A Long-Term Strategic Plan'' (Draft 1995 RPA 
Program). Based on the Draft RPA Program analysis, it was estimated 
that spending by recreation users and the associated multiplier effects 
contributed about $93 billion of Gross Domestic Product in the 1993 
national economy related to national forest recreation. However, there 
is no information available from this national level analysis to 
estimate the proportional amounts attributable to individual local 
economies.

    Mr. Skaggs. One other comment for the record.
    Mr. Regula. Okay.
    Mr. Skaggs. If you can, advise us whether there is any need 
for legislative language to deal with what may be a colocation 
of the Boulder Ranger District office with a state forest 
service office or whether you have discretion in existing law 
to take care of that.
    Thank you, Mr. Chairman.
    [The information follows:]

    To construct a new office to be shared by State and USDA--
Forest Service personnel, special legislative language is 
needed. The language should address issues such as the sharing 
of administrative support, financial liabilities, health and 
safety responsibilities, etc. To ensure that all complexities 
of colocation are covered in the language, we suggest that all 
interested parties participate in the discussion.

    Mr. Regula. Mr. Dicks.

                         roads policy proposal

    Mr. Dicks. What is the total--you are talking about this 
decommissioning of roads. How much of the whole system are we 
going to decommission? I mean, we have 360,000 miles, and 
86,000 are arterials? What are we looking at here?
    Mr. Dombeck. The total system is 373,000 miles which are 
planned roads officially on the books and all in rural areas. 
There are other roads that just happen to be there because 
people have been using them for a long time.
    Land Management plans are typically implemented over a 10-
year or more period of time. In regard to roads, 
decommissioning, 40,000 miles of inventoried and univentoried 
roads is definitely within our long-range capability. This is 
based upon local input to date. I want to say that part of the 
new policy that we hope to develop is that we know we have more 
miles of roads than we can afford to maintain today. The new 
road policy would have two major factors: number one is 
analysis based upon the best science and technology about how 
to build a road.
    Mr. Dicks. Are most of these roads locals?
    Mr. Dombeck. 86,000 miles of the roads are arterial and 
collector roads.
    Mr. Dicks. No, I know that.
    Mr. Dombeck. The remainder are local.
    Mr. Dicks. The ones you are going to decommission. I am 
talking about decommissioning now. Are most of those the 
locals?
    Mr. Joslin. Yes, they are.
    Mr. Dombeck. Yes.
    Mr. Dicks. Almost all of them, right?
    Mr. Joslin. Yes, they are; that is correct.
    Mr. Dicks. Because the other roads are very important; I 
think the arterial----
    Mr. Joslin. Yes; arterial and collector roads are main 
trunk roads.
    Mr. Dicks. We would like to have a breakout. If you can 
give us the breakout on a state-by-state basis of what roads 
are going to be decommissioned, we would like to know that.
    Mr. Dombeck. Yes.
    [The information follows:]

    The Forest Service has the capability of decommissioning 40,000 
miles of inventoried and univentoried roads over a long period of time. 
However, we do not have an inventory or roads planned for 
decommissioning either by State or by Region. As funds become available 
to do watershed assessment planning coupled with access and travel 
management planning, roads no longer needed for resource management and 
protection, and public use, will be prioritized for decommissioning. 
Our intent is to do this work on a watershed-by-watershed basis. 
Priority for assessment and decommissioning will be set at the Forest 
and Regional levels.

    Mr. Dicks. Okay?

                         northwest forest plan

    Now, the other thing: we talked here a little bit yesterday 
about adaptive management. How are we doing on that in the 
forest plan, in the adaptive management areas?
    Mr. Joslin. In the Northwest Forest Plan, we have completed 
eight out of nine areas, and we hope to have the ninth one 
completed this year. We will have it done. So, I think that is 
coming along very well. I think that adaptive management is a 
concept, too, that will probably expand further around the 
National Forest System.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Regula. Thank you.
    Mr. Dombeck, I anticipate that we are going to have another 
hearing; I think possibly the afternoon of March 31st. I know 
Mr. Taylor has a number of issues, as do I, and we have two and 
possibly three votes coming up. Rather than try to prolong all 
of this, we will just tentatively schedule for about 2:00 on 
the 31st, so that we have enough time to adequately address a 
number of other issues.
    Mr. Taylor, anything you want to get in quickly?
    Mr. Taylor. Well, the thing that disturbs most of us about 
the Forest Service . . . you know, I had a crop of beans that I 
lost $1 million on one year; I forgot to plant them. 
[Laughter.]
    Mr. Taylor. Now, this is the type thing we are getting. 
Nobody knows what is going on in the service as far as 
accountability, and yet, in the middle of an audit, it seems we 
lost $15 million. How can you say that when you have no real 
data--I mean, it depends on the multitude of facts you are 
using.
    It sounds like what you are doing is pandering to some 
organization that wants to see a headline rather than talking 
about science or reality. That is what we would like to get 
back to: a basis where we have put the folks who have no 
knowledge in this subject over to the side. There should be 
public input, but you must look at the science and say, ``this 
is the best thing to do, scientifically.''
    If the Congress wants to do something stupid, that is our--
--
    Mr. Regula. Prerogative.
    Mr. Taylor. Prerogative, and a good tradition. [Laughter.]
    But what I can say, your responsibility, I think, is to 
look at real science, and we are not doing this. We have our 
best universities, you have your research areas, and there is--
I would like to go into this a lot more.
    Mr. Regula. Well, that is why I think, Mr. Taylor, there 
are many issues here. We simply have not had time to address 
them. With the schedule that is coming up, we are going to have 
another hearing, tentatively at 2:00 on the 31st, and we will 
pursue these items further at that time.
    So, with that, I will adjourn for this morning.
    Mr. Regula. The hearing will come to order.
    We have scheduled the Forest Service this afternoon. Mr. 
Nethercutt is going to take over at about 2:00; I've got 
another committee meeting I have to attend.
    Any comments or whatever statements you have will be made a 
part of the record.

                        Chief's Opening Remarks.

    Mr. Dombeck. Well, I made my statement on March the 19th 
and I will not add to that. So we can just quickly get into the 
proceedings. I do want to introduce again the Deputy Chief's 
represented here: Bob Joslin from the National Forest System; 
Dr. Robert Lewis, Research and Development; Clyde Thompson from 
Operations; Ron Stewart, Programs and Legislation; and Janice 
McDougle from State and Private Forestry. I also have Special 
Assistant Francis Pandolfi who is prepared to speak on some of 
the business accountability issues we have been discussing 
lately and at Thursday's hearing on March the 26th.
    So, with that, I would be happy to answer any questions and 
discuss anything that you like. Thank you.

                          MULTIPLE-USE MISSION

    Mr. Regula. Thank you. I think one of the concerns I have 
is I don't know whether the Forest Service has a clear 
definition of its mission today. You started out producing wood 
fiber. That's why you're in the Department of Agriculture I 
guess. Then you moved to multiple use, adding recreation. Now 
with the proposed moratorium on new roads, that really is 
saying, in effect, that you are now emphasizing wilderness 
preservation.
    When I look back at the numbers, I see we were approving 12 
or 13 billion board feet for a cut and now it's down to about 
3.5 billion. What do you see as your future mission? Maybe 
you're just in the process of sorting that out.
    Mr. Dombeck. The multiple-use mission of the Forest Service 
remains intact and I think is very appropriate. We could go 
back to the history of the Organic Act which provides for a 
sustainable supply of timber to the Nation while protecting 
watersheds. The Multiple-Use, Sustained Yield Act further 
defined the mission to include grazing, mining, and other 
activities. I really think what the dialogue is about today is 
more a matter of balance than mission. I think the mission is 
that, if we work within the limits of the land, the land will 
take care of us--the fiber will flow, the water will flow, and 
jobs important to local communities will remain.
    The changing dynamic we have is the increase in population 
in the country, particularly the West, and the increase in the 
recreational workload we see on the National Forests. I will 
just cite two examples. The Wasatch Cachel National Forest 
experiences about a million people a week who visit the 
National Forest to hike, bike, hunt, fish, camp, walk with 
their kids, and enjoy the scenery. If we take a look at the 
Southern California National Forests, we have an exodus of 
about 2.5 million people every weekend from Los Angeles and San 
Bernadino, who leave the L.A. Basin and the San Diego area to 
recreate in the National Forests. That has caused the increase 
in the workload.
    At the same time, we see the reduction in timber harvest, 
as you mentioned, from 10 to 12 billion board feet in the 
1970s, a peak in the 1980s, and, as a result of court 
injunctions and various controversies, we are now at about the 
timber harvest levels we were at in the 1950s.
    Is it enough? I think the investments in technologies, 
forest inventory and analysis, and things like that will 
continue to chart the course. As I look at my job as Chief of 
an agency that has a fair amount of controversy associated with 
projects and proposals, I think we have to use the best 
science, technology, and resource professionalism we have to 
provide as much information as we can to the public.

                         ACCOUNTABILITY FACTOR

    Mr. Regula. Well, of course, you're fully aware one of the 
criticisms is the accountability factor, both fiscal and 
performance. I think we're entering an era of Government where 
management is the watchword. What are you doing specifically to 
overcome that deficiency? I recognize it's a big agency and it 
has a huge variety of tasks, but I think we still need to try 
to get control of the accountability.
    Mr. Dombeck. Yes. I think the hearing last Thursday 
highlighted a lot of issues. I certainly appreciate the input 
from both the Inspector General and the General Accounting 
Office.
    When I came into the job a little bit over a year ago, 
accountability was bright on the radar screen. I brought in a 
private sector executive, someone with many years of experience 
as a CEO, Francis Pandolfi, who is here and prepared to talk 
about any of these issues. We then commissioned Coopers and 
Lybrand the consulting firm helping the IRS and others and they 
have made extensive recommendations for procedural and 
organizational changes. For example, the five top 
recommendations they make is to establish a CFO and a 
strengthened organization to lead the business management 
effort. One of the things we need most in the Forest Service is 
the data, the information, the systems so that we can truly 
take a look at exactly what things are costing us and where the 
trade-offs are.
    Mr. Regula. How long will it take you to accomplish those 
recommendations?
    Mr. Dombeck. I would say a minimum of five years. However, 
we can show progress much sooner than that in getting the 
systems in place. The world-renowned Jack Welsh, who retooled 
General Electric, took about 10 years to get GE where he wanted 
GE to be in business management. We are making progress through 
incremental changes. The information systems are beginning to 
be put into place. We are going to have a complete inventory of 
real and personal property done by the end of June--location, 
what it is, and value. We are beginning to put into place 
things like that.
    Just to give you an idea of the level of complexity in the 
organization: We do about 75 million transactions a month; we 
have 800 data entry points; and we have about 40 systems that 
do not talk to one another. The same kinds of things are 
measured differently in different parts of the country.
    Mr. Regula. I'm curious, how did you build up to 40 systems 
that don't communicate? They are all Forest Service systems?
    Mr. Dombeck. I think over time we have had an accretion of 
increasing complexity. It is time now to cut through it. If 
there is a point that I continually stress with the leadership 
of the Forest Service and that I hear from the advice of 
experts, it is that we have an exceedingly complex system that 
is and the only way to cut through it is to simplify the system 
at every turn because it is so process-laden.
    For example, we have about 100,000 active management codes, 
2 and million management codes on the books. Some of those 
management codes have transactions of $50,000, some of them 
even have as little as $5,000, and we are talking about an 
organization with a $3 billion budget. I believe the most 
significant thing the Forest Service can do is to really move 
forward and modernize its business management principles.
    The decentralized nature of Forest Service culture 
necessitates the way decisions are made--on the ground by 
professionals, because the Wayne National Forest is different 
from the Pisgah National Forest is different from the Tongass 
National Forest. But that has also drifted into business 
management. We have to bringing discipline to business management in 
the organization because a debit and a credit are the same whether you 
are in Alaska, Florida or Ohio.

                       FOREST MANAGEMENT TRAINING

    Mr. Regula. If you recall, last week, we had the joint 
hearing on the Forest Service and one of the criticisms was you 
had a program that was a ``touchy-feely'' type of thing. My 
question is, are you doing something to teach these forest 
supervisors good management practices? It seems to me if you're 
going to do any education program at all, it ought to be 
focused on management techniques and policies.
    Mr. Dombeck. Training is one of the key aspects recommended 
by Coopers and Lybrand. In fact, a significant amount of 
training has been conducted already. We could talk about some 
of the details of that training.
    Another part of the administrative side of the agency is 
when we went through recent personnel reductions. Over the last 
few years, the administrative side of the organization was hit 
with reductions at a disproportionately higher level than the 
rest of the organization. One of the things we are going to 
have to do, as we get on top of business management, is bring 
in, not a lot of people, but perhaps somewhere in the 
neighborhood of 50 to 100 people agency-wide who would really 
focus on bringing discipline to business management.
    Mr. Regula. I think you need to get your managers or 
supervisors to think management in the Forest Service. That's 
the future in Government as I see it, and how we better use the 
resources.
    Another question deals with fuel build up. Mr. Taylor 
provided leadership on salvage, not without some opposition, am 
I correct, Mr. Taylor? [Laughter.]

                         FUEL LOADING BUILDUPS

    Mr. Regula. It seems to me, and I've got about 80 acres of 
forest on my farm, that if you don't have some kind of a 
salvage program, you're going to get a fuel build-up. then when 
you get lightening precipitated fire, it's going to be much 
more intense than if you can address this by getting out the 
dead trees and maybe having a better program of forest health. 
What am I missing here?
    Mr. Dombeck. As I testified before, we estimate about 40 
million acres, mostly in the Intermountain West, at high risk 
to fire----
    Mr. Regula. Because of fuel build-up?
    Mr. Dombeck. Fuel build-up is a big part of it. It is a lot 
more complicated issue that also gets into business management 
and budgeting. We understand resource management quite well. 
Where we might have had 200 or 300 stems per acre of ponderosa 
pine, today we might have 3,000 stems per acre Grand fir 
species. Also, because of a combination of complete fire 
suppression--so you did not have the cool burns that would go 
through naturally every, say, 7 to 15 years in those areas we 
had suppressed that completely----with ladder fuels and so on 
building up for decades, we have got a situation where we know 
it is going to burn; it is just a matter of when. So, if ever 
there was a jobs program--we need to better integrate our 
timber management program with all of these needs--dealing with 
the urban-wildland interface, dealing with forest health 
issues, dealing with fuel--loading issues--and integrate them 
to the greatest extent we can.
    That gets back to one of the things I asked myself at the 
very first hearing I attended when I came into this job, Sun 
River in front of Chairman Smith last January 16, 1997: How 
could something like this have evolved? I believe it has to do 
with our incentive system, and part of it has to do with our 
budget structure. We know what we have to do. We just have to 
get the systems in place, working with Congress, so we can deal 
with it.
    From the standpoint of thinning, we are ratcheting that up 
significantly. In fact, we have asked for more money in the 
1999 budget to increase thinning to 1.5 million acres.

                         TIMBER SALVAGE PROGRAM

    Mr. Regula. But that's not thinning by salvage operations. 
Is that not thinning by taking out the stems?
    Mr. Joslin. That is a combination of both. It would be a 
combination of both. In some of those areas where you are 
taking out smaller material and utilizing that, it is a 
combination.
    Mr. Regula. Like chipboard?
    Mr. Joslin. Yes.
    Mr. Regula. Do you have to do an EIS in order to do 
thinning where you're going to sell that material for 
chipboard?
    Mr. Dombeck. We have to go through the NEPA process. It may 
be an EA or it could be an EIS, depending on the magnitude.
    Mr. Regula. That was one of the criticisms of the salvage 
bill is that it by-passed the normal time. But a tree that has 
fallen over isn't going to last three or four years while you 
do all your NEPA requirements.
    Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    Those who were so vocal on worrying that we might cut down 
a tree that wasn't fully diseased and, therefore, there was a 
threat--I think there were a number of investigations I believe that 
you folks studied and you never found, at least on the reports I saw, 
abuse of the salvage bill in the U.S. Forest Service. Yet, when you 
worry about one or two trees that might have been cut and it might be a 
border-run situation, and you compare that with what the Chief just 
said--40 million acres in the West alone that are in danger--it would 
seem the people who were upset about salvage ought to be more concerned 
about the 40 million acres. Certainly, there is a greater cause there.

                       silviculture study report

    We also put together, with this committee's support and the 
authorizing committee's support, a scientific study about two 
years ago made up of professors from our best silviculture 
training universities. A little over a year ago, they made a 
joint presentation to Congress. The Speaker came in and was 
impressed by the report. It was sent to the authorizers and the 
appropriators, and then it went on to the Senate. The 
scientists are now finishing the peer review part of that 
study. The comments we're getting back, Mr. Chairman, are 
positive. This went to people who are not of like mind on 
forestry policy, but none of them could raise any substantial 
questions with the scientific part of that study.
    Now, if you have a widespread study based in science and a 
peer review across the country, could not your department lend 
some attention to such a study without having to have another? 
Did you folks familiarize yourself with that study?
    Mr. Dombeck. Yes, I believe the Forest Service reviewed 
that study. I am not prepared to speak about the details of it. 
But I think we agree upon the fact that we need to apply the 
best science, technologies, and integrated timber harvest 
tools--as you do, and private landowners do as well--to achieve 
our objectives on the land, especially as we deal with the 
high-risk areas I spoke of. We need to use all the tools--
salvage, harvest, thinning, and prescribed fire--to achieve the 
goals we want on the land.
    Mr. Taylor. There was some concern by a number of people 
who have talked with me over the months that we may be putting 
pressure on properly trained scientific silvicultural 
professionals and that we're trying to put in more placements 
in the U.S. Forest Service of those that the Chairman would 
refer to as the ``touchy-feely'' type. If ever we needed 
professional, modern-trained silviculturalists to guide the 
Forest Service, it would seem like today would be the day. Can 
you give me assurance that where forestry is involved--I'm not 
talking about recreation or other areas, I'm talking about 
where forestry is involved--that you're trying to seek the best 
trained silviculturalists? We have a plethora of good schools 
and universities training such people.
    Mr. Dombeck. I am proud of the Forest Service workforce and 
the professionals we have in the organization who range from 
foresters and silviculturalists, to many on Robert Lewis' staff 
in research and technology development, to the hydrologists 
concerned about water quality. I do not have the breakdown of 
numbers with me. Is there anything you can add to elaborate on 
that, Bob?
    Mr. Joslin. The only thing that I would add, Congressman, 
is that we do have a very active silvicultural certification 
program we run our foresters through to continue to have 
topflight silviculturalists in the organization to make those 
prescriptions out on the ground.
    Mr. Taylor. I won't get into any of the information that 
has been disclosed at this time, I'll get into it maybe at 
another time, but I would like--with the Chairman's 
cooperation, and the authorizing committee, as well as minority 
members here in this committee, and the Forest Service--I would 
like to see if we can develop a language that would produce 
real, recognizable accounting figures within the Service so 
that it will give Congress and the public a chance to observe 
the reality of our silvicultural programs.

           timber sales program information reporting system

    For instance, the timber sale program information reporting 
system, the TSPIRS, that is one portion of your accounting 
procedures. It certainly is one that focuses toward timber as 
much as possible. If we were to draft language, would it take 
us five years to produce a TSPIRS report, or can you do what 
all of us civilians have to do--the IRS gives us about 12 
months to get our accounting ready and they don't take ``no'' 
for an answer--could we perhaps get accurate reporting, at 
least in the TSPIRS area, in less than a year? What do you 
think about that? It may be premature for you to say.
    Mr. Joslin. To get our TSPIRS report out?
    Mr. Taylor. One that is based in reality with real 
accounting principles, to divide what really has troubled other 
areas, so that when this committee looks at your report it sees 
something that is reality, not pie in the sky as far as 
accounting is concerned. And I could go into that specifically, 
but I think, this being the third hearing, we've talked about 
that several times.
    Mr. Dombeck. As mentioned at last Thursday's hearing before 
not only the Appropriations but Budget and Resources 
Committees, our reporting systems and our data systems go well 
beyond TSPIRS and, in fact, what Mr. Pandolfi will be doing 
along with Clyde Thompson and the Foundation Financial 
Information System and others--need the support and help of 
Congress and the energy of the organization--is get these data 
systems where they need to be. On progress that can be made to 
develop milestones on an annual basis, I would be happy to have 
Francis or Clyde further elaborate on timetables, if you want 
to discuss that here. Our plan will is to present something to 
the three Committees within 60 to 90 days to make sure we are 
all on board in where we are headed. We are certainly aware of 
the need to get all of these systems----
    Mr. Taylor. I don't think there is any patience, I can't 
speak for this committee, but there is not enough patience to 
wait five years to get accounting that this committee or the 
Congress can rely on. That would not be tolerated, certainly 
not by me. Certainly, there are procedures in some areas that 
would take longer than others, but I would hope that at least 
by the next report, after this fiscal year, that we could come 
up with a formula that would give us reality.
    When you have one Government agency attacking private 
businesses or individuals or through the press or whatever and 
the Forest Service can't be relied on to furnish contrary 
information because they don't know what they're doing, then we 
can't wait five years for that.
    Mr. Dombeck. I will let Bob address TSPIRS specifically, 
because we can make significant progress much faster than five 
years. I used Jack Welsh and the GE example a little earlier. But we 
can make specific progress and set milestones much sooner than that. 
Our target for a clean financial statement was initially 1999; now we 
are looking at 2000. But, believe me, I am going to do everything I can 
to keep as much pressure on to bring in the level of expertise we need 
to achieve that.
    Bob, you may want to address the specifics of TSPIRS.
    Mr. Joslin. We will work with you, your staff, and other 
Members of the committee, Congressman Taylor, to address the 
TSPIRS issue in a timely manner.
    Mr. Taylor. We'll try to coordinate that with the Chairman 
and the chairman of the authorizing committee, also.
    Mr. Chairman, thank you.
    Mr. Nethercutt [assuming Chair]. Thank you, Mr. Taylor.
    Mr. Kolbe.
    Mr. Kolbe. Thank you very much.
    Chief Dombeck, welcome. I apologize for being a bit late. 
With the votes and somebody in my office, I'm sorry I didn't 
get here for your opening statement. I just have a couple of 
questions that I want to try to pursue in a general way and 
then some specific follow-ons to that.
    In your testimony and in previous remarks that you've made, 
you have said that the Forest Service, both through its policy 
and its actions, does support multiple use on forest lands. Is 
that a correct statement?
    Mr. Dombeck. Yes.

                          multiple-use mission

    Mr. Kolbe. I'm afraid that I get conflicting information. 
When it gets down beyond you to people that implement that 
policy, or that view that we ought to have multiple use of 
forest lands, I get conflicting information. Frankly, the 
General Accounting Office does as well in their report. They 
suggest that it is not being communicated very effectively from 
headquarters down to people at the level of the forests.
    Let me just give you a couple of reasons why I make the 
statement that I did. In their report on the lack of financial 
performance and accountability as resulted in inefficiency and 
waste, the GAO says, ``The agency tends to limit goods and 
services on national forests, including recreational 
experiences, commercial saw timber, and livestock and wildlife 
forage.'' Being more specific, at a previous hearing that we 
had a few weeks ago, the Forest Supervisor from the Coronado 
National Forest, which is largely in my area, said that even 
though we had closed down a large shooting range in the Santa 
Catalina Ranger District, he could not find an appropriate site 
anywhere in that district, in so many hundreds of thousands of 
acres that exist there. There's another situation in the 
Prescott National Forest where the Verdi District Ranger has 
said the same thing, that there is no such thing as an 
appropriate site for a shooting range there either.
    Given these kinds of examples which seem to indicate a very 
definite trend or view that we should not at least allow for 
that particular use of forest lands, how can you give me some 
assurance with some specific concrete, real life examples that 
this is not the case, that you do allow for multiple uses?

                            shooting ranges

    Mr. Dombeck. I know you are very familiar with the Coronado 
NF, as both Bob and I participated in that hearing along with 
John McGee. In fact, we are working with the International 
Association of Fish and Wildlife Agencies, several other 
groups, and the NRA to provide shooting ranges. I was just 
visiting with someone not long ago from North Carolina who 
asked me to thank a Ranger for the good cooperation they had in 
opening a new shooting range in North Carolina. Another 
District Ranger I talked to in Virginia had also opened a new 
shooting range. It certainly is not our policy not to have 
shooting ranges.
    Mr. Kolbe. Both of those were on Forest Service lands?
    Mr. Dombeck. Correct. Bob may want to elaborate on the 
policy we are working toward. He has been meeting with various 
interest groups. But I think, certainly, it is an appropriate 
use. The more we can educate individuals, the more we can teach 
safety, respect for natural resources, the more it is to 
everybody's benefit. I am a strong proponent of that. In fact, 
go to the shooting range out here in Centreville about once a 
month.
    Mr. Joslin. Having just not long ago come from the Southern 
Region, we have a tremendous number of shooting ranges on the 
National Forests there as developed recreation sites. We also 
have other situations--for example, in the Gallatin National 
Forest--where we worked with the public and came up with a new 
site there. I think for every one of those cases, Congressman, 
you need to examine each individual case and see what the 
situation is. Certainly, I think shooting has a place on the 
National Forests as do many other recreational uses.
    Mr. Kolbe. I appreciate those answers. It's helpful. It 
doesn't give me an awful lot of comfort when it comes to the 
particular case I have in mind. I happen to agree with you from 
a philosophical standpoint; I don't use the gun range, I don't 
shoot, but I think, as you suggested, it is a legitimate 
recreational pursuit. And certainly, as you said, from a safety 
standpoint, not just training safety, but safety of not having 
wildcat shooting going on, which is legal otherwise, trying to 
confine that to a shooting range makes a great deal of sense. I 
think most people in the Tucson area have come to believe that 
and to understand that.
    As you know, the closing of the Rod and Gun Club there, the 
largest in the country I think in terms of membership, the 
closing of their shooting range has been a very divisive issue. 
And I understand that. The community has changed, the place has 
grown, there are homes and schools closer by. I think most of 
us on all sides, because there are more than two sides of this, 
all sides of this issue would agree that finding an alternative 
location is a preferable result.

                            shooting ranges

    With that in mind, we recently helped facilitate a meeting 
that brought together all the various players here, not only 
Forest Service, but the Arizona Game and Fish, the Arizona 
State Land Department, Pima County, which is where Tucson is 
located, the Bureau of Land Management, the Rod and Gun Club, 
the homeowners who opposed the reopening of it, and, as I said, 
the Forest Service. BLM said they would entertain any proposal 
to build a range on BLM land. Game and Fish said they are 
interested in doing all they can to find a site, even offered 
some money for construction. The county has already provided 
bonds for some funds at another location which, because of 
another problem, an endangered species problem which you are 
probably also familiar with there, the issue of the Pygmy Owl, we have 
some problems with that. But, I don't know if you're familiar with what 
the forest supervisor offered.
    Basically, the forest supervisor said it wasn't his 
business to find a site or to go look for one or to suggest 
where there might be a site for a shooting range, that his only 
business was to evaluate a site that was brought to him. In 
other words, go out and do it, then we'll spend a year 
evaluating it, tell you it's no good, and then you can go try 
and find another one, and we'll go through the process again. 
He did say the evaluation would take about a year to do.
    What this suggests to me is possibly a general hostility, 
but I think more than anything it shows the kind of 
bureaucratic nonsense that seems to go with this agency. It 
just left everybody, I might say both homeowners and gun range 
people, with a bad taste in their mouth at the end of this 
meeting with the view that the Forest Service doesn't want 
anybody using the lands. I just would ask you, if that's not 
the case, I would hope that we could find some assurance that 
they would play a slightly more proactive role in trying to 
help us locate an alternative site for this.
    Mr. Dombeck. I do believe that we must be proactive; we 
must be facilitators to find solutions. I realize some local 
issues are divisive and often retractable, but it is important 
that we play a key role as part of the solution. In fact, just 
a day or two after the meeting, you made your offer to help 
locate a site. I really appreciated your positive approach in 
that as well.
    Mr. Kolbe. Thank you. I appreciate that. I hope we can get 
your supervisor to take the same approach out there.
    For the record, I would like you to give us some data on 
all Forest Service lands over the last five years regarding the 
changes in the amount of grazing allotments, the numbers of 
shooting ranges, and the amount of timbering activities that 
have gone on measured by board feet. I would just like to see 
overall the total amounts in those different areas that are 
aside from recreation. If you would give me some information on 
that just over the last five, or if you've got it over ten, it 
doesn't make any difference to me, I would just like to see 
some trends in that way.
    [The information follows:]


            Timber Sales (Regular and Salvage) by Fiscal Year           
                     (Volume in Million Board Feet)                     
------------------------------------------------------------------------
            Fiscal year                  Offered           Harvested    
------------------------------------------------------------------------
1988..............................         11,347,700         12,596,361
1989..............................         10,514,800         11,950,937
1990..............................         11,058,600         10,500,278
1991..............................          6,180,100          8,474,919
1992..............................          5,062,700          7,289,632
1993..............................          4,554,500          5,916,938
1994..............................          3,408,500          4,815,327
1995..............................          4,006,700          3,865,913
1996..............................          4,015,500          3,724,552
1997..............................          4,001,100          3,285,294
------------------------------------------------------------------------


    Grazing Allotments: The following data provides a summary for the 
nation for the years requested. The data available is not in the same 
format for all years. Thus, the answer is presented in AUMs (animal 
unit months), as well as HMs (head months). AUMs are equal unit 
equivalent months based upon 1000 pound live weight for all animals. 
The values used by the Forest Service are: cow 1.0, cow with nursing 
calf 1.32, bull 1.5, yearling 0.7, sheep and goats 0.2, and etc. HMs 
are a total count of each month of grazing for cattle, sheep, and 
horses added together. The data source is the yearly ``Report of the 
Forest Service.''

------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                              YEAR                                                              
                                                               ---------------------------------------------------------------------------------------------------------------------------------
                                                                    1988         1989         1990         1991         1992         1993         1994         1995         1996         1997   
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
AUMs..........................................................    8,382,763    8,059,699    8,107,555    7,415,766    7,688,011  ...........    8,095,109    8,095,109    7,918,309    7,718,149
HMs...........................................................          \1\          \1\          \1\          \1\          \1\    8,357,518    8,568,799    8,569,110    7,559,147    8,096,870
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
\1\ No data.                                                                                                                                                                                    


    Shooting Ranges: The Forest Land Use Report (FLUR) system has 
information readily available for FYs 1995 to 1997. We were only able 
to provide an estimate for FY 1994.


          
Fiscal Year:                                          Number of Shooting
                                                           Range Permits
      1994..............................................   79 (estimate)
      1995..............................................              79
      1996..............................................              79
      1997..............................................              79

                          multiple-use mission

    Mr. Kolbe. And lastly, let me just ask you this again, 
coming back to the general question, is it the Forest Service's 
overriding mission to move away from multiple use of forest 
lands and towards conservation and preservation, like a refuge 
system? Is that the overall direction that you see the agency 
going?
    Mr. Dombeck. No. I think the balances are shifting.
    Mr. Kolbe. Elaborate on that, will you.
    Mr. Dombeck. Our responsibility is to study trends in and 
pressures on uses of resources, within the limits of the land 
over the long haul. If we take care of the land, it will take 
care of us from the standpoints of fiber production, clean 
water, recreation opportunities, grazing, and the whole 
spectrum of benefit from the land. As populations grow, and 
particularly as the West becomes more and more urbanized, the 
pressures increase. We do know there is not enough for everyone 
to have everything they want from the land because there just 
is not enough to go around.
    I believe the challenge I have, and the challenge we all 
have, is to determine the appropriate balance for that use. I 
think there is good agreement on the underlying principle that 
we as a society depend on the land. I want to reaffirm my 
support again for active forest management; I oppose a zero-cut 
policy. We need to use the best science, and better integrate 
our timber management programs and all our programs, for long-
term sustainability.
    We have a resource in the United States, like virtually no 
other developed country, in our public lands, not only National 
Forests, but the Parks and BLM lands. The job of arriving at 
that balance seems tougher each year. Those of you on the 
Committees also feel those same pressures very intensely like 
we in the agency do.
    Mr. Kolbe. I appreciate the statement. Again, I would say 
that there seems to be a major disconnect between the policy 
that you've reiterated here and what gets implemented down 
below or expressed by those who work under you. So I hope you 
have more success in the future than you seem to have had so 
far in communicating this policy to those who work in the 
Forest Service.

                            roads moratorium

    There was a newsletter from one of the organizations 
recently that suggested that the moratorium on roads is really 
just the first step towards stopping hunting and fishing on 
forest lands. Can you assure us that that's not the intent?
    Mr. Dombeck. That is absolutely not true. The 191 million 
acres of the National Forests are places people can go without 
having to worry about ``No Trespassing'' signs. Dispersed 
recreation is a big activity. The roads issue, I will admit, 
has been divisive but it has been divisive for a long time. I 
think great misunderstanding of the roads issue persists, 
particularly the temporary suspension of road building.
    We are not denying access. We are talking about economics 
and other issues. This roads issue has been so divisive for so 
long that somehow we need to reposition the debate. But, more 
importantly from the standpoint of economics--proposing the 
projects and building roads in roadless areas--we have appeals 
and litigation, and a failure rate of about 50 percent compared 
to about 20 percent in other areas. So from the standpoint of 
organizational energy expended and limited resources available, 
those investments are just not good.
    When we cannot take care of the nearly 380,000-mile road 
system we already have, it is hard for me to justify building 
more roads. Although I will be the first to acknowledge that as 
the proposed rule--and I want to say ``proposed'' rule again--
develops, the important thing is that we intend to have 
appropriate emergency measures in place so that if we have 
safety problems, if we have high-risk problems, we are able to 
go into those areas, just as we do today, and do what we need 
to do.
    As to the temporary suspension of road building in roadless 
areas, the RARE II areas, for 1998, we are talking about 172 
miles of roads for 99 million board feet of timber. Of that, a 
little bit over 70 miles is construction of new roads. The 
remainder is reconstruction or temporary roads. If we take that 
to 1999 and impacts on RARE II areas, we have, I think, 207 
miles of roads for 132 million board feet of timber. So the 
dichotomy I deal with are: below-cost timber sales; balancing 
the books; and pressures to do work in areas that are very 
uneconomic from the standpoint of expending organizational 
energy.
    I know there is disagreement on the issue. But if we could 
just channel more of our resources into areas of more 
agreement--where we can better integrate the timber management 
program with the other needs that we talked about, I think just 
before you came in, such as the urban-wildland interface, fire-
risk, and forest health--that would go a long way toward 
solving the problem. The other part of the issue is below-cost 
sales. We are emerging from the era where we could put the cost 
of management on the back of timber. We could do that when we 
were harvesting 10 billion board feet a year, but today we are 
doing what we were in about 1950, about 3.5 to 4 billion, and 
the dollars are not there. So we need to make investments in 
other areas.
    Mr. Kolbe. Just in closing, I think it is important to 
remember that there are all kinds of forest roads, like the 
kind that I used as a kid growing up on a ranch with a forest 
allotment. We could barely get our jeep over these little 
trails all the way to the two-lane paved highway that links 
Tucson with Summerhaven community at the top of Mt. Lemon. 
There is a huge project of redoing that road to make it more 
safe, one that's been ongoing now for several years and still 
has another decade to run. So we have road projects and we have 
road projects. Sometimes we forget that there are different 
kinds of forest roads.
    Thank you very much, Mr. Chairman.
    Mr. Nethercutt. Thank you, Mr. Kolbe.

                      custodial forest management

    Welcome, gentlemen. I also want to acknowledge the presence 
of Representative Helen Chenoweth from Idaho. We had a series 
of hearings with others last week, part of which I participated 
in. I just want to follow up a little bit, gentlemen, on Mr. 
Kolbe's comments about the moratorium and the state of affairs 
at the Forest Service. I know you have a difficult job and 
these are not easy times for you given the GAO report and the 
I.G.'s report. I have the clear sense that you're struggling 
with it and making your best effort, which is commendable.
    You were sent a letter on February 20th by two 
Senators,Senator Murkowski, Senator Craig, and by two Representatives, 
Don Young and Helen Chenoweth, with a series of questions to respond to 
and a request for information. In the last paragraph, and I assume 
you're familiar with the letter, there's a conclusion about the 
determination of whether the Forest Service will ultimately become a 
custodial manager of the forest system in America. I assume that's not 
what you want.
    My first question would be, have you responded to these 
numerous questions and request for information and production 
of information? And, secondly, what is your response to the 
conclusion that seems to be reached by that letter?
    Mr. Dombeck. Yes. In fact, the staff should have the 
response. That was signed, I believe, late last week. With all 
we have been involved with, time seems to run together.
    Mr. Nethercutt. I understand.
    Mr. Dombeck. The custodial management issue is an 
interesting issue to consider. I am not sure, but like some of 
the dialogue about what the mission of the agency is, there is 
even disagreement on what ``custodial management'' is. When we 
have 1.7 million vehicles a day on National Forest System 
roads; when we have 40 million acres at some level of risk from 
insects, disease, and fire; when we have the number of people 
hiking, biking, camping, hunting, and fishing; when we have 
7,700 bridges--we have a lot of work to be done on the land 
from forest management, recreation management, in forest 
health, and controlling millions of acres of invasive, exotic 
weeds. The list goes on and on. This is a dialogue I think is 
healthy in probably some incredibly important times we are 
experiencing now to determine what the appropriate balance of 
use should be.

                         appeals and litigation

    Mr. Nethercutt. Given that balance that you seek, it seems 
to me, that until something is fundamentally changed relative 
to the ability of the citizen to challenge what you do in the 
Forest Service and what you do in your decision-making, I think 
we will be faced with a continuation of lawsuits and objections 
because you will not be able to satisfy everybody. If the 
perception and the rule is that anybody has a right to 
challenge in court, I think we are headed for tough times ahead 
in terms of the ability to have some consensus on how you can 
best manage the lands under your jurisdiction.
    I know that is hard to accept in terms of imposing these 
restrictions. I raised the issue last week in the hearing, and 
I know it is unpleasant to talk about it, but the sad reality 
is you spend a lot of time and effort and energy in just 
responding to the administrative burdens of your jobs instead 
of doing those very important things on the ground that I think 
need to be done. I'm an optimist by nature, although I probably 
sound pessimistic. Are you pessimistic or optimistic relative 
to the current state of debate regarding how forests should be 
managed and your ability to manage as you see fit?
    Mr. Dombeck. Before I declare myself an optimist or 
pessimist--sometimes it depends upon the day given the level of 
controversy associated with some of these issues--I ask myself: 
What choices do I have? I think, number one, we must follow the 
law. That is what I am paid to do and I do that as intently as 
I possibly can. Number two, we must base management decisions 
on the best science and technology we have, and work with 
people.
    And by the way, we do have the results here of the question 
you asked last week. In fact, I will just show you the numbers 
of appeals. We, as an agency, spend about $5 million a year on 
appeals and about the same amount on litigation. And that is 
about a 5-year average. So a great amount of organizational 
energy is expended in this area.
    Mr. Nethercutt. This will be placed in the record, without 
objection.
    [The information follows:]


[Page 116--The official Committee record contains additional material here.]


    Mr. Nethercutt. Were you finished with that answer?
    Mr. Joslin. I just want to add that I am optimistic. I know 
these are tough times and a lot of disagreement over which way 
management of the National Forests should go. But I guess I am 
an optimist, as you are, Mr. Chairman. I think there is great 
hope for us in the future.
    Mr. Dombeck. And I would agree. I did not answer that part 
of the question. If I were not optimistic, I would not be here; 
I would be doing something else. I think people care about the 
land. Open space and large tracts of land are becoming more and 
more valuable to the American public. Let me cite just one 
example. The number of tracts of forest land less than 50 acres 
in the United States doubled from 1978 to 1994. The turnover 
rate of those lands is also increasing. So, therefore, managing 
for long-term goals--which we must in forests where species 
rotation might be 40 years, to 200 years depending upon 
location--is increasingly important to local communities and 
the entire country.
    Mr. Nethercutt. It really is important to local 
communities. I don't know if you have been up in my part of the 
world, but if you have not been to Colville or the North part 
of the 5th District, I know you have been elsewhere that is 
similar. The decisions that are made by Government affect the 
lives of these people who live in this area, who want to 
continue to be part of it and want to protect it and preserve 
it but to also use it. And so there is a sensitivity that I 
believe you have and hope you have to their needs as well. That 
is why I have been insistent in connection with the Interior 
Columbia Basin Ecosystem Management Project to have the input 
of the citizens. You, in the broad sense of decision-makers, 
have to understand what the feelings are out there and what the 
consequences are going to be to the actions that are likely to 
be taken. So it is extremely important and we feel it as 
Members of Congress and I am sure you feel it from a lot of 
different angles. But it can not be forgotten or lost, in my 
judgement, in terms of policy decisions you make.

                        urban-wildland interface

    Let me ask you some specific questions that I want to get 
out of the way just for the record. I want to talk with you 
about the possible need for new firefighting techniques 
necessitated by increased population and the trend toward 
suburbanization which has resulted in an increased risk to 
lives and property from fires in urban-wildland interface 
areas. As population expands into urban-wildland interface 
areas, what changes in airborne firefighting techniques is the 
Forest Service considering to respond to new challenges 
resulting from these population increases?
    Mr. Dombeck. I am not prepared to answer technicalquestions 
here but I would be happy to provide that for the record. I believe 
that one of our biggest challenges in the urban-wildland interface is 
education. You drive through these areas and you see the heavy fuel 
loadings with their associated ladder fuels. You see expensive homes 
with cedar-shake shingles. You just pray they do not have a tough fire 
year. So we need to educate people from the standpoint of making sure 
that they use the best safety precautions to protect their property.
    We also have to make sure they appreciate stand conditions 
to avoid catastrophic fire. Over time, people get used to 
looking at these same dense stands. Yet, historical journals of 
the 1700s describe open, park-like stands of big timber. This 
is also a big challenge because the more money we can put into 
prevention, the less money we have to spend to deal with fires. 
Fighting fire in an urban-wildland interface, where we have 
lots of personal property to worry about, is a very, very 
expensive proposition. More investments up front in education 
and affecting the appropriate conditions on the land are where 
I believe we should focus our energy.
    But we will talk about technologies as well and provide 
some information for the record for you.
    [The information follows:]

    The Forest Service uses a complete array of firefighting technology 
and includes state-of-the-art warning systems, communications systems, 
fire equipment, and aircraft of all types. Fires that threaten 
wildland/urban interface areas are given the highest priority to 
prevent them from destroying homes. One technique used by the Forest 
Service to protect homes focuses on fuel treatment near the interface 
area to reduce fire intensities. This is very effective when homeowners 
use fire-wise home safety techniques. The combination allows 
firefighters the best opportunity to stop the fire from entering 
residential areas. Without such treatments, firefighters are often 
unable to stop fast-moving wildfires. The Forest Service has also 
targeted National Forest Service lands adjacent to homes as high 
priority for hazardous fuel reduction projects. Aircraft are capable of 
providing initial attack in interface areas. The economics of using 
converted excess military aircraft as airtankers work in favor of the 
taxpayer, who has already purchased the aircraft once. Additional 
benefit is derived from the aircraft because, as a firefighting 
airtanker, the aircraft operates at a lower cost than if it had been 
obtained from new or even aging commercial sources. The Forest Service 
does not now use these aircraft for airborne fire containment but 
rather in support of ground firefighters to increase the efficiency of 
their operations. The initial attack phase is the only time an 
airtanker might operate without being in support of firefighters on the 
ground. During this phase, the airtanker would act to reduce fire 
spread as ground firefighters are sent to suppress the fire.
    The Forest Service works with cooperators at all levels on programs 
and projects designed to mitigate fire occurrence and loss in the 
wildland/urban interface. These programs are long-term in duration; 
there are no simple or quick solutions.
    Often, the first line of defense in wildland/urban interface fires 
are Rural Volunteer Fire Departments, which have direct relationships 
with State Foresters. The Forest Service's Cooperative Fire Protection 
program has three program components designed to improve the fire 
protection programs of State and rural fire organizations. The Federal 
Excess Personal Property (FEPP) program expedites loans of excess 
federal property to State Foresters and rural communities for their 
fire protection programs. The Rural Community Fire Protection program 
provides technical and financial assistance directly to local fire 
prevention and suppression organizations. The Rural Fire Prevention and 
Control program works with States to enhance their capacity to prevent 
wildfires and provide coordinated fire suppression response.
    The Forest Service participates at all levels in public awareness 
and educational campaigns designed for fire departments, homeowners, 
home builders, homeowner community groups, local governments, insurance 
companies, landscapers, architects, community planners, and developers. 
Local contacts are normally the most effective.
    The Forest Service is expanding the Hazardous Fuel Reduction 
program toward a goal of 3 million acres treated in 2005. In 
recognition of wildland/urban interface fire concerns, a priority focus 
in the Hazardous Fuel Reduction program is treatment of National Forest 
System lands adjacent to residential areas.

                          firefighting program

    Mr. Nethercutt. Okay. Any comment?
    Ms. McDougle. The only thing that I would add is our fire 
program is probably one of the best models of interagency 
cooperation. We cooperate on policies planning, and resources 
on the ground. We also cooperate with volunteer fire 
departments in rural communities where there are about 960,000 
volunteer fire-fighters. If we had to pay them, it would cost 
about $36 billion.
    The urban-wildland interface is one of the highest priority 
interagency efforts. We are working toward better 
accomplishments.
    Mr. Nethercutt. What additional tools, such as initial 
strike airborne technologies, are available to augment the 
Forest Service's capability in this area?
    Ms. McDougle. We are acquiring bigger tankers to hold more 
retardants. We are looking at our bases and assessing the ones 
still of use to us. We are phasing out those no longer useful 
or which cannot provide services for larger equipment. That is 
what we are doing now.
    Mr. Nethercutt. Have you done anything to evaluate the 
effectiveness of these tools relative to what you might need 
specifically for these particular areas that have urban 
qualities to them?
    Ms. McDougle. We recently completed a research report on 
how to establish priorities. But in terms of specific 
equipment, I am not sure we have done much. I think making it a 
priority on an interagency basis is one of the biggest things 
we have done. Some of that focuses on Forest Service lands as 
well as off Forest Service lands.

                            fuels reduction

    Mr. Nethercutt. Do you feel you have effective and adequate 
resources at this time, or are you going to seek more or 
different ones as time goes on?
    Ms. McDougle. I think we are okay. We propose for 1999 to 
shift the emphasis from big fire a little bit to fuels 
reduction. We work cooperatively Service-wide to assess how 
much we can actually do in reducing fuels. We estimate that by 
the year 2005 we can treat up to 3 million acres a year. But 
that will be contingent on the outcome of smoke management 
guidelines from EPA.
    Mr. Nethercutt. How many acres can you cover now?
    Ms. McDougle. I think we exceeded our target. We estimated 
1 million acres and we did exceed that. But we are ground-
truthing to verify whether we can actually do that by 
vegetation type.
    Mr. Dombeck. We are looking at 1.5 million acres in the 
proposed 1999 budget. Our estimates are that in 1997 we did 1.1 
million. We would like to treat at least 3 million a year.
    Mr. Nethercutt. Thank you. I will stop now and recognize 
Mr. Dicks.
    Mr. Dicks. Thank you, Mr. Chairman.
    Let me ask you one thing. In the debate we had on the 
forest health on the floor, I think the figure was used that we 
have 40 million acres where we have a substantial forest health 
problem. Do you agree with those numbers?
    Mr. Dombeck. Yes.
    Mr. Dicks. According to your statement, we're going to deal 
with 1.5 million acres this year.
    Mr. Dombeck. Proposed in 1999, yes. We would like to 
ratchet that up to at least 3 million a year.
    Mr. Dicks. When is that going to happen?
    Mr. Dombeck. What is the timeframe?
    Ms. McDougle. That is by 2005.
    Mr. Dombeck. We hope to increase it and achieve that rate 
by 2005.
    Mr. Dicks. Is it going to go up gradually to 3 million, or 
is it 2005 that we just go to 3 million?
    Mr. Dombeck. I presume we would go up gradually, although 
the need is certainly there to do more.
    Mr. Dicks. Of that 40 million acres, how much of that is a 
severe problem? Are they all severe or are there some that are 
worse than others in terms of potential forest fire problems?
    Mr. Dombeck. Certainly, some are worse than others. I do 
not know, Bob, if you are prepared to elaborate on the split. 
Some areas, forest health is significantly better than it has 
been for a long, long time, like the Allegheny NF, and 
particularly Appalachian National Forests. In the more arid 
climates, particularly the Intermountain West where we have got 
more even-aged stands and intense fire suppression for the last 
50 years, we have got lots of challenges.
    Can you elaborate on that, Janice?
    Ms. McDougle. The 40 million acres is the field estimate 
our people are now trying to verify by vegetation type.

                          forest health issues

    Mr. Dicks. On the western side of Washington, Oregon, and 
Northern California, what are the forest health issues there? 
They are not as severe I would think as the Intermountain, 
Rocky Mountain West, or eastern Washington, or where Mr. 
Nethercutt has his seat. Those are the areas where you've got 
the hot, dry climate that have the more serious problems; isn't 
that correct?
    Mr. Dombeck. Yes.
    Mr. Dicks. What kind of forest health problems do we have 
in the Owl Forest, for example, on the West side? Do we have 
any problems there at all?
    Mr. Dombeck. My assumption is they are in pretty good 
shape.
    Mr. Joslin. We have some problems there but they are not 
nearly as significant. We have some problems with insects and 
disease. Some stands need mechanical work and prescribed fire.
    Mr. Dicks. When you say mechanical, you mean thinning, 
pruning?
    Mr. Joslin. Correct.
    Mr. Dicks. Is there a backlog there?
    Mr. Joslin. Yes, part of that 40 million acres.
    Mr. Dicks. In Region VI, Region V?
    Mr. Joslin. Every region has some problems. I cannot quote 
you the figures but we could get those for you, our best 
estimates.
    [The information follows:]

Timber Stand Improvement Needs By Region As of the End of FY 
    1997

                                                                   Acres
        Region:
1.............................................................   407,271
2.............................................................    53,042
3.............................................................    29,602
4.............................................................    60,567
5.............................................................   502,935
6.............................................................   606,772
8.............................................................    78,281
                                                                   Acres
        Region:
9.............................................................    51,209
10............................................................    31,855
        Total*................................................ 1,821,534

*This total is roughly comprised of 23 percent release, 9 percent 
fertilization, 5 percent pruning, and 63 percent thinning.

    Mr. Dicks. When we did option 9 there was a commitment to 
get up to about a billion board feet in green sales in the Owl 
Forest. Where are we on that?

                          timber volume offer

    Mr. Dombeck. I think Bob may have the breakdown of green 
versus salvage volumes. If not, we can get that. But what I 
show here is that the accomplishment in 1997 was 706 million 
board feet; the probable sale quantity was 694 million board 
feet.
    Mr. Dicks. That's Forest Service?
    Mr. Dombeck. Yes.
    Mr. Dicks. And, of course, we're talking here about the 
Forest Service and the BLM. They add about another 215 million 
so that gets you up to about 905 million, something in that 
range. Those are all green sales?
    Mr. Joslin. Some of that is salvage volume. For instance, 
in the fiscal year 1999 budget, we have 596 million board feet 
of salvage and 807 million board feet of regular green, for a 
total of 1.403 billion board feet.
    Mr. Dicks. That's Region V and Region IV?
    Mr. Joslin. Yes, sir.
    Mr. Dicks. Both East and West?
    Mr. Joslin. In the President's plan, yes.
    Mr. Dicks. So it wouldn't be East then, it would just be on 
the West side?
    Mr. Joslin. Right.
    Mr. Dicks. Now on this roads issue, we had a hard time up 
here explaining this issue to Members of Congress. We have had 
these statistics that have been thrown out this year that we 
have a $10.5 billion problem in terms of dealing with the road 
issues. That is nation-wide, correct?
    Mr. Dombeck. Yes.

                           road construction

    Mr. Dicks. And you've got some road work that needs to be 
done on a lot of these roads. So this is not all going out and 
building new roads, this is just fixing and maintaining the 
road structure that we already have. Isn't that correct?
    Mr. Dombeck. Correct.
    Mr. Dicks. In this year's budget, of the money that is 
being spent, how much of it is going to be to build new roads 
nation-wide?
    Mr. Dombeck. I will ask Bob to get that table out.
    Mr. Joslin. In fiscal year 1999, we would have 411 miles of 
construction and 3,541 miles of reconstruction.
    Mr. Dicks. Okay. So 411 miles of construction?
    Mr. Joslin. Right.
    Mr. Dicks. None of this is done under purchase or credit, 
because you've eliminated purchase or credit, right, in your 
budget?
    Mr. Dombeck. Yes.
    Mr. Dicks. Who would wind up doing that 411 miles of 
construction?
    Mr. Joslin. Primarily, the timber purchasers.
    Mr. Dicks. And the way that works is that they just take 
into account what it is going to cost them to build the roads 
when they bid on the timber.
    Mr. Joslin. Correct.
    Mr. Dicks. So they, in essence, reduce their bid 
accordingly. And if we had built the roads ourselves--do we 
build any of these roads?
    Mr. Joslin. We have seven miles to build but that is not in 
connection with the timber sale program.
    Mr. Nethercutt. Would the gentleman yield for just one 
second?
    Mr. Dicks. Yes.
    Mr. Nethercutt. When you just responded the bid comes in 
and they subtract for the roads, does that mean they have to 
pay up front the money for the roads?
    Mr. Joslin. What I believe he said, Congressman, was that 
they would reduce the bid price.
    Mr. Dicks. They reduce by what they estimate it will cost 
them to build the roads. So there's no subsidy here. This idea 
that somehow we're subsidizing these roads is not right. Is 
there any subsidy in the classic definition of the word?
    Mr. Joslin. No.
    Mr. Dicks. Tell me what account there was. Is it under the 
purchaser credit where there is some idea of subsidies or a way 
to conceive of a subsidy there?
    Mr. Joslin. I think some people came to that conclusion, 
yes.
    Mr. Dicks. Could you explain how a person could come to 
that conclusion?
    Mr. Joslin. I guess I would leave that to someone who 
reached that conclusion.
    Mr. Dicks. But you don't think there is a subsidy?
    Mr. Joslin. No.
    Mr. Dicks. Because what happens is the person gets a credit 
for building the road and they just use that credit on a 
subsequent sale, right?
    Mr. Joslin. Right.
    Mr. Dicks. So at some point it all nets out. In fact, I'm 
told that the Government actually got more revenues off the 
sales in which there was purchaser credit than on the other 
ones. I don't know if that's accurate. So that if you're 
arguing subsidy, it is hard for me to conceive of it.

                            recreation roads

    There are a lot of people who just don't like roads. One of 
the points I want to make is to emphasize how much of these 
roads are used for recreational purposes. Now, you have that 
chart of how much of it is used for timber purposes and how 
much is used for recreational purposes. It is anenormous plus 
on the side of recreational utilization. Isn't that correct?
    Mr. Dombeck. Yes. Nationwide, we have about 15,000 vehicles 
per day associated with timber harvest.
    Mr. Dicks. That's 15,000 vehicles a day?
    Mr. Dombeck. Per day. That is about the same number as in 
the 1950s. Recreational use on the 380,000 miles of National 
Forest roads is about 1.7 million vehicles a day. That is ten 
times what it was in the 1950s.
    Mr. Dicks. Recreation use is 1.7 million vehicles per day?
    Mr. Dombeck. Yes.
    Mr. Dicks. And that's up from about 170,000?
    Mr. Dombeck. That is a tenfold increase from the 1950s.
    Mr. Dicks. And isn't it true that the Forest Service 
provides more recreational opportunity than the Park Service?
    Mr. Dombeck. Yes.
    Mr. Dicks. That when you look at all the facilities, all 
the places that the average citizen can go to, they can't get 
there unless you have a road system. Isn't that correct?
    Mr. Dombeck. Yes.
    Mr. Dicks. Now, I agree with the notion that we ought to 
take out some of the older roads that are having problems and 
there ought to be some road obliteration. How much in your 
budget this year are you going to have for getting rid of 
troublesome roads or roads that are a problem?

                           road obliteration

    Mr. Dombeck. The proposed budget calls for 3,500 miles of 
decommissioning. But I also want to say that includes a variety 
of things, from converting roads to hiking trails, hunter-
walking trails, and other kinds of things.
    Mr. Dicks. Other utilizations.
    Mr. Dombeck. Yes,
    Mr. Dicks. It isn't like we're just locking up areas where 
people then can't get into.
    Mr. Dombeck. Yes. And it is only in the most severe 
situations, where we have significant, very costly 
sedimentation problems, that we move into the actual practice 
of obliterating the road, which would call for removing 
culverts. That is also an expensive proposition.
    Mr. Dicks. Now this backlog, this $10.5 billion backlog, 
the other day we had a hearing in which you didn't do so well--
this was maybe like Dien Bien Phu for the Forest Service--in 
terms of your finances. [Laughter.]
    Can we have any more confidence in terms of these numbers 
than the ones we heard about the other day? Are these just as 
shaky?
    Mr. Dombeck. They are estimates. But I have yet to go to a 
county and talk to a county commissioner who has told me we are 
doing a good road maintenance job. In fact, usually the first 
thing I hear is that they want us to do a better job on road 
maintenance.

                        road maintenance backlog

    Mr. Dicks. I'm sure of that. But is it $10.5 billion worth? 
That is what we're trying to find out.
    Mr. Dombeck. Well, that is the best estimate we have. But 
it is an estimate.
    Mr. Dicks. But it could be a couple billion dollars either 
way, right? [Laughter.]
    I mean, even Everett Dirksen said ``A billion here and a 
billion there, and after a while * * *.'' But I'm told by Jim 
Lyons, you've heard of him, haven't you? [Laughter.]
    Mr. Dombeck. Yes.
    Mr. Dicks. He said it could be $1.5 billion up or $1.5 
billion down under your accounting system.
    Mr. Dombeck. Well, that is right. But I believe that is 
only a problem if we had $10 billion to spend. When we have 
just a few million dollars to spend, they go to the highest 
priority areas by Region and by Forest for bridge problems and 
things like that. We replace about 40 bridges a year. We would 
like to be doing at least 150 bridges a year to keep up with 
safety problems. I was just in Colorado and one of the 
engineers on the Arapaho-Roosevelt NF told me that we did not 
have one bridge on that Forest totally up to safety standards. 
Of course, I am very concerned about liability issues 
associated with that. We have situations where we are reducing 
load limits on bridges because of maintenance problems.
    Mr. Dicks. Are you having to shut down certain areas 
because of safety problems?
    Mr. Dombeck. Because of access problems, road problems, 
bridge problems, yes.
    Of the arterial and collector roads--these would be roads a 
passenger vehicle can drive down, a non-four-wheel drive off-
road vehicle type situation--we have reduced them by about 
7,600 miles in the last four years just because of maintenance 
problems and deteriorating roads. So, in a sense, access is 
also being reduced because of maintenance.
    Mr. Dicks. I have been a supporter of your efforts to do 
watershed restoration. Many of us feel that restoring habitat 
in the Northwest is crucial to protecting our salmon and 
steelhead runs. Yet, 80 percent of the money--and I just 
thought this used to be a rip-off, frankly, not that you would 
take our good little sum of watershed restoration money and not 
use it properly--but all of a sudden I was told that 80 percent 
of the money for watershed restoration was going into road 
maintenance. Some cynical types up here might think that you're 
just taking that money that is supposed to be used for 
environmental purposes and using it to fix up roads because 
you've got an inadequate road maintenance program to the tune 
of $10.5 billion. But I was persuaded by experts, scientists, 
that probably the most significant threat to the fish were 
these deteriorating roads.
    If all of a sudden we're not going to be dealing with those 
roads properly and only doing a fraction of what is necessary, 
you could see a situation where all this effort with Option 9 
and everything else, which I consider to be a multi-specie HCP, 
could go for naught if we don't fix these roads and you have 
these washouts and the sediment gets in the river and chokes 
off the salmon and steelhead runs. Can you tell us, isn't that 
a real problem?
    Mr. Dombeck. It is a real problem. The one you did not 
mention is the culverts, the crossings that may impede fish 
passage upstream.
    Mr. Dicks. Have we looked at the backlog just on the 
culverts in Region VI and Region V?
    Mr. Dombeck. I do not have that information with me.
    Mr. Dicks. Would the regional foresters have that? Would 
they have any idea what kind of a backlog is related not just 
to the road maintenance part of the $10.5 billion--are the 
culverts part of that $10.5 billion?
    Mr. Dombeck. Yes, I presume so. Bob?
    Mr. Joslin. Yes, they are. The Regional Foresters I believe 
would have a fairly good idea in regard to your question about 
culverts, Congressman.
    Mr. Dicks. Would fixing the culverts have to be a top 
priority?
    Mr. Dombeck. Yes.
    Mr. Dicks. I would like for the record if you could break 
out that $10.5 billion so we could understand what are the 
components of it.
    [The information follows:]

    The estimated reconstruction backlog was developed by using a 1997 
Region 4 inventory of their critical arterial and collector road needs, 
considering the results of this inventory as a representative sample of 
all other Regions, and applying Region 4's inventory data Service-wide. 
The result indicates a Service-wide critical need of over $10 billion. 
This figure does not include the less critical repairs on arterial and 
collector roads, or any consideration of local road reconstruction 
needs. We do have a good inventory of forest development roads. 
However, the inventory is maintained by each individual forest and does 
not include cost estimates of backlog deferred road maintenance, the 
cost of improvement to meet current safety standards, or current 
traffic and environmental needs. Also, we do not have site specific 
data which identifies how much of this estimate is attributable to each 
road component, i.e. culverts. Of the $10.5 billion backlog, we 
estimate that Regions 5 and 6 backlog needs are $1.5 billion and $2.1 
billion respectively.
    We are currently implementing the Travel Routes component of our 
integrated infrastructure database (INFRA). INFRA will include 
nationally standardized inventory, deferred maintenance and improvement 
needs. INFRA Travel Routes will be released by mid-summer, 1998. We 
expect the forests to complete loading their inventory data by Fall 
1999. Our first review of deferred maintenance and road improvement 
costs data will also take place at that time. The completed INFRA 
database will give the capability to better review and summarize the 
total costs of the backlog work.

                        road maintenance backlog

    Mr. Dicks. And so what did you say this year we're doing on 
road maintenance, what was the total dollars?
    Mr. Dombeck. Go ahead, Bob, with the question.
    Mr. Joslin. Road maintenance is $107 million, 45 percent of 
the roads would be maintained to standard at that funding 
level. That is up from 38 percent in 1998.
    Mr. Dicks. What is that percentage of $10.5 billion? Is 
that 1 percent or----
    Mr. Joslin. When we talk about the $10.5 billion, we are 
talking about reconstruction and not the maintenance part of 
the budget. We mean culverts, bridges, relocation, 
reconstruction, and those kinds of things.
    Mr. Dicks. Culverts, bridges----
    Mr. Joslin. Relocation, actual reconstruction of the 
roadbed itself in the same location because of environmental 
effects.
    Mr. Dicks. Okay. That's the reconstruction backlog. What is 
your maintenance backlog?
    Mr. Joslin. Well, when I say for that $107 million we can 
maintain roads at the 45-percent level, it would take a little 
over double that to satisfy 100 percent of our maintenance 
needs.
    Mr. Dicks. So that's 45 percent of what you need?
    Mr. Joslin. Right.
    Mr. Dicks. So it's around $215 million is what would be 
needed.
    Is obliteration part of reconstruction or is that another 
account?
    Mr. Joslin. No, that is considered part of the maintenance 
costs that we talked about. The 3,500 miles is part of that.
    Mr. Dicks. That's part of the $107 million?
    Mr. Joslin. That's correct.
    Mr. Dicks. How much of the $107 million is obliteration?
    Mr. Joslin. About $5 million.
    Mr. Dicks. Then for new construction you said 411 miles?
    Mr. Joslin. Correct.
    Mr. Dicks. How much is that?
    Mr. Joslin. All we have there are the dollars we would need 
for engineering support. We do not have the cost----
    Mr. Dicks. Because it comes out of the revenues?
    Mr. Joslin. Right. The funds there to support that, plus 
the 7.5 miles we plan for access construction of new roads, 
would be just over $1 million. There you are talking about 
blacktop roads for recreation sites.
    Mr. Dicks. I'll finish this up here quickly, Mr. Chairman.

                            roads moratorium

    Tell me about your roadless policy.
    Mr. Dombeck. The proposal out now calls for a temporary----
    Mr. Dicks. This is in the Federal Register right now 
getting comments?
    Mr. Dombeck. Yes. In fact, there was a 60-day comment 
period and that comment period closed yesterday. The Washington 
staff told me they received in excess of 3,500 comments. Many 
of the comments have not yet been received from the field.
    Mr. Dicks. Were some of them nasty? [Laughter.]
    Mr. Dombeck. A great proportion of them have been 
supportive.
    Mr. Dicks. Supportive of what? [Laughter.]
    Mr. Dombeck. The proposal calls for a temporary suspension 
of road building. This, again, is another widely misunderstood 
issue. We are not talking about changing land allocations; we 
are talking about road construction or reconstruction. We are 
talking about building roads in typically very controversial 
areas. The number of appeals and litigation resulting in the 
failure rate of those road building projects are sometimes as 
high as 50 percent compared to about 20 percent in other areas. 
From the standpoint of economics and the business management 
side of what we do, the organization spends too much money and 
effort--everything from law enforcement to deal with 
demonstrators and those kinds of things in these areas--for 
what we get out of the investment.
    I think I mentioned earlier before you came into the 
hearing, in 1998, in RARE II areas, we have about 99.6 million 
board feet out of a 3.6-billion-board-foot program nationally. 
To get that amount of timber out would require about 170 miles 
of roads: about 70 miles of new construction plus some 
reconstruction and some temporary roads. These are expensive 
areas to get into.
    We can continue the roads conversation any way you want, 
but I think it is important that we pause. As I look at the 
program and at my responsibilities as Chief, I see that this 
issue has just been pulling us apart for 15 years. We almost 
lost 80 percent of the program in 1996. Somehow, we must change 
the terms of the dynamic so people understand----
    Mr. Dicks. In other words, we've got to surrender but the 
other side won't give us any terms. If we surrender this, then 
it will be something on top of it until we never build another 
road and take them all out and not harvest a single tree. There 
is no way to satisfy the critics here that I know of, based on 
my 30 years on Capitol Hill. There is simply no way to reach an 
agreement here.

                          timber volume offer

    That 3.5 billion board feet program used to be around 10 
billion. Now, maybe that wasn't sustainable, but we have come 
from 10 billion down to 3.5 billion and they are still out 
there fighting every step of the way. That's the reality. Do 
you disagree with that?
    Mr. Dombeck. Certainly, the challenges and disagreements 
are out there. I want to make one other point on the volume. We 
also have 6.5 billion board feet under contract because the 
operators have about a 13-year window, depending upon markets 
and so on, to deal with that. So there is a significant amount 
of wood out there.
    Mr. Dicks. Are people not drawing down the backlog? Are 
they sitting on that for a while because of market conditions.
    Mr. Dombeck. I am not sure.
    Mr. Joslin. Yes, and that fluctuates. But normally, we have 
uncut volume under contract. It varies.
    Mr. Dicks. Which is good because you want stability, you 
want some backlog so that the mills have something to work off 
of.
    Mr. Dombeck. The irony of what we deal with in this 
situation is: We have many, many, many acres of land we need to 
do work on. We need to better integrate the timbermanagement 
program and harvest levels with the urban-wildland interface and forest 
health. A tremendous amount of work needs to be done. Yet we are so 
focused on such a small but very intense debate that, somehow we must 
arrive collectively at a way to move away from it.
    Mr. Dicks. Let's say we gave up the 99.6 million in these 
RARE II areas, do you think that would be the end of it? Do you 
think the critics would be satisfied?
    Mr. Dombeck. We deal with everyone from those who think it 
is a sin to cut a tree to those who want to cut them all. Yet, 
there is a large proportion of folks out there who support 
reasoned, active forest management. That is where we are.
    Mr. Dicks. Is 3.5 billion sustainable in your personal and 
professional opinion?
    Mr. Dombeck. Yes.
    Mr. Dicks. So we're not out there over-harvesting today?
    Mr. Dombeck. In this job, believe me, the thing I look for 
most intensely are areas of agreement. In the National Forest 
System debate, a lot of people do not realize we provide a lot 
of information and technology for all landowners, from the 
small woodlot owner, to the industrial forest, to the National 
Forest Supervisor, to the State Foresters. This is the broadest 
support of anything I see across the board in the Forest 
Service is for inventory and analysis to provide the 
information we need on trends in forest health around the 
country. If you increase harvest in one area or if you slow it 
down in one area, what are the impacts of those actions on 
another area going to be? What are the interactions between 
private lands, federal lands, and State lands? I have Deputy 
Chief Robert Lewis from Research and Development who could talk 
about forest inventory and analysis as long as you wish.

                          information systems

    The other part of the issue really tiers off of Thursday's 
hearing: having systems in place in the Forest Service with the 
appropriate data to help us make decisions that are better tied 
to investments, better tied to helping us prioritize. This is 
something I am certainly going to do everything in my power to 
bring about. The entire management team is committed to fixing 
these data and business management systems. We also know it is 
not going to be easy to fix them.
    Mr. Dicks. BLM, I was with the new head of the BLM the 
other night and he said they have a new system and he said he 
would loan it to you if you needed it. He said nobody called 
him back. He said they had gotten it all straightened out for 
them.
    Mr. Dombeck. I was Acting Director of BLM at the time we 
received got our first clean financial statement in 1995. This 
started with the Chief Financial Officer Act of 1990. We know 
what we must do. Forest Service systems are much more complex 
compared to BLM systems.
    Mr. Dicks. Why not simplify them? Why do we have to have 
100,000 separate accounts at the Forest level? Why 100,000 
accounts? That's utterly ridiculous.
    Mr. Dombeck. I am asking that same question.
    Mr. Dicks. Then why don't you do something about it?
    Mr. Dombeck. We intend to.
    Mr. Dicks. Thank you, Mr. Chairman.
    Mr. Nethercutt. Thank you, Mr. Dicks.

                            roads moratorium

    Talking about the moratorium, why did you need an 18 month 
moratorium declaration? I think the perception from some is 
that it is a capitulation to those who do not want to have any 
cut in the forest or any harvesting. Why couldn't you do your 
inventory and your planning and carefully examine those sales 
that might have been being conducted in or near roadless areas? 
Why do you have to have this moratorium that now requires you 
to process 35,000 comments?
    Mr. Dombeck. I based that decision on two primary factors. 
We touched on both of them here so far today. Number one is the 
economics of the issue. From the standpoint of a business 
investment, a great deal of organizational energy goes into 
these roadless areas. We put a lot of money into these projects 
only to see them litigated and appealed at a much higher rate 
than others. The level of controversy associated with them 
escalates and they are costly to conclude.
    Mr. Nethercutt. I understand that. But why does it require 
a moratorium? Why do you have to declare a moratorium in 
roadless areas? Why couldn't you just say internally that we 
are going to look very carefully at these sales that have a 
high risk and in the process continue to do your planning? I 
think the fact that you declared a moratorium has created a 
firestorm and people are very unhappy and, therefore, very 
critical. It seems to me you would be smarter to say internally 
let's look very carefully at these kinds of high risk sales and 
slowly go through them and not make this declaration and maybe 
accomplish the same thing without expending the energy and 
resources you had to expend by virtue of the declaration.
    You may be facing greater lawsuits when you look at the 
5,000-acre configuration and somebody may scheme to say, well, 
it's closer than you say it is and therefore I am going to file 
a lawsuit to stop it. That, to me, is a potential that is a 
consequence of having made the declaration. Maybe it is 
academic here, but it seems to me it would have been smarter to 
say let's just be very, very careful about these areas that are 
roadless, recognizing that they are high risk. But with the 
declaration, everybody is angry, and scared, worried, and 
perceiving that you, the agency, has capitulated to those who 
do not want to have any harvest. Do you disagree?
    Mr. Dombeck. Certainly, the roads issue has been a hot 
topic as long as I have followed it and the level of intensity 
around the roads issue continues. I talked about economics. The 
other part is science, much of which has come out of the 
Interior Columbia Basin Ecosystem Management Project. I think 
there are many misperceptions. The forest health issue, for 
example: according to the Columbia Basin Study, 87 percent of 
forest health problems are in already roaded areas. Now, that 
does not mean we forget about the 13 percent in roadless areas. 
We apply the appropriate silvicultural techniques there as 
well.
    We are not blocking access. We are about stopping road 
construction for 18 months as a timeout to refocus and to make 
sure people understand what the issue is, and then proceed from 
there based upon the best science and technologies we have to 
better integrate the Forest Road System with counties, 
communities, and States. As uses have changed, I asked our 
staff to make sure we work with zoning boards and county 
development commissions because these roads belong to everyone.
    Mr. Nethercutt. When you think about who is more capable of 
analyzing, either a timber sale near a roadless area or forest 
health, isn't the local forest supervisor better qualified if 
they're given the opportunity to make those judgments than for 
you, Chief, to make the declaration than sort of seeming to 
have it emanate from here rather than from the forest?
    Mr. Dombeck. That is certainly the intent in the 
development of the new policy. Local personnel will have the 
tools, the best science, technologies, and the mandate to work 
with county commissioners, and appropriate local entities to 
determine what roads are needed. They will ensure we have the 
support base to maintain them. If those roads not needed as 
part of the transportation system, is their best use a hunter-
walking trail, a hiking trail, a biking trail, or, because of 
other environmental problems, should they be obliterated? Those 
kinds of decisions need to be made locally.

          interior columbia basin ecosystem management project

    Mr. Nethercutt. I agree. I just haven't felt the need to 
have this broad-based huge body of science that, again, 
conceptually seems to be directed toward a very restrictive 
policy, especially as it relates to economic and social 
consequences.
    I assume that in your analysis of the Columbia Basin Study 
you have looked at the social and economic consequences. It 
seems to me you have an obligation to be able to assess what 
they are going to be with specificity given the amount of money 
that's been spent on the study, and, secondly, what your 
projections are for the future. I would ask you, what do you 
perceive to be the findings with regard to the social and 
economic consequences in Colville or Spokane in my district? Do 
you have that information? Has that been determined yet?
    Mr. Dombeck. We have that by forest for RARE II areas in 
1998 and 1999. In fact, I would be happy to give you these 
tables. On the Colville NF, for example, it looks like we will 
have a reduction of 3 million board feet. It impacts one sale. 
I would ask the staff if we have the total sales volume for the 
Colville NF? We probably do not have that information with us.
    Mr. Nethercutt. No. I'm talking about the Interior Columbia 
Basin Ecosystem Project and the social and economic 
consequences, not just the roadless issue but everything. What 
is the projection, what are the findings relative to 
population, to economic loss, to economic consequences? That is 
what the people on the ground living in the communities are so 
fearful of, is that your projections are going to be no 
harvesting or little harvesting in five years and therefore the 
obliteration of their community as they have known it in terms 
of their jobs and their ability to participate and live in the 
area they want to live. Do you see what I'm saying?
    Mr. Dombeck. Yes.
    Mr. Nethercutt. To what extent have those studies have been 
done and what specifics are there for those areas within my 
district as well as for the others in the other States. Can you 
project that?
    Mr. Dombeck. I assume you have seen the socioeconomic study 
this Committee required of us last year. It has been a while 
now since I read it. Do you recall, Bob, is that by county?
    Mr. Joslin. I think it is by city.
    Mr. Nethercutt. Well, I'll review that again and see to 
what extent it is there and to what extent it is accurate. I 
think there are some differences. How did you arrive at your 
social and economic data? What did you do in terms of the 
process of arriving at that data?
    Mr. Dombeck. I would have to refer you. I would be happy to 
provide a response for the record done by the experts, the 
economists and sociologists.
    Mr. Nethercutt. This is probably too specific for you, 
Chief, but my sense is and the information we have is that you 
have contracted one person to determine what the social and 
economic consequences in the data would be and you are relying 
on one person as opposed to seeking a broad range of review. So 
please verify whether that is accurate or not at least relative 
to the Columbia Basin project and the State of Washington.
    Mr. Dombeck. And I would just offer that I believe that 
peer review is also important, just as it is in other 
scientific endeavors, to make sure that we use the best 
techniques.
    Mr. Nethercutt. In some cases, they look at a 20-mile 
radius, a 35-mile radius, and a 50-mile radius for different 
communities. I have not found a consistency as to why they use 
that determination in this community and why they use the 
determination of that radius in another community. So if you 
could provide that for the record, it would be great.
    [The information follows:]

    The development of the report titled ``Economic and Social 
Conditions of Communities: Economic and Social Characteristics of 
Interior Columbia Basin Communities and an Estimation of Effects on 
Communities from the Alternatives of the Eastside and Upper Columbia 
River Basin Draft Environmental Impact Statements'' was a team effort 
by members of the ICBEMP staff. The data used for the report came from 
a variety of sources, including federal, state, and county, as well as 
universities. The report includes an analysis of 543 communities 
located in the Basin for their geographic isolation and association 
with FS and BLM administered lands. Of the 543 communities, employment 
information was collected for 423 of them. The employment information 
was used to characterize the industry specialization of the 423 
communities.
    The mileage figures you referred to (20 mile radius, 35 mile 
radius, and 50 mile radius) were used in the analysis to determine two 
things. First, the 35 and 50 mile figures were used in the analysis to 
determine geographic isolation of a community. This is an important 
factor when considering the economic choices available to a community. 
The 50 mile figure was used for those communities with a population of 
more than 20,000 and located along freeways or major highways. The 35 
mile figure was used for those communities not located on freeways or 
major highways. Second, the 30 mile radius was used to determine the 
amount of FS and BLM administered lands within 20 miles of the 
communities. The proximity and amount of FS and BLM administered lands 
near a community are assumed to have some economic and social 
importance to the community.

                        forest planning workload

    Mr. Nethercutt. I just want to ask one question here for 
the record. Your forest planning workload table includes about 
every national forest covered by the Interior Columbia Basin 
Management Plans. Why will these plans need to be revised again 
right after they get modified by the large scale Interior 
Columbia Basin Project?
    Mr. Joslin. If I could answer that, Mr. Chairman.
    Mr. Nethercutt. Sure.
    Mr. Joslin. Those plans will be amended to take into 
consideration the Interior Columbia Ecosystem Management 
Project Basin. Those plans are also within the 10- to 15-year 
time limit imposed by the National Forest Management Act for 
plan revision. I know you are aware we have a committee of 
scientists examining our planning regulations. The committee 
will make recommendations at the end of May on new regulations 
for our land management planning process.
    Mr. Nethercutt. Okay. I asked you last week about the 
information on estimated production of goods and services from 
each unit of the Federal lands for the first five years of 
implementation of the Interior Columbia Basin Ecosystem 
Management Project. That was required by this committee in our 
appropriation. Have you done that?
    Mr. Joslin. On the way.
    Mr. Nethercutt. When will that be received?
    Mr. Joslin. I cannot give you an exact date right now. But 
will get back to you.
    Mr. Nethercutt. All right. Thank you.
    I want to thank you again for your testimony and your 
patience and your responsiveness. I know you have a tough job 
and the subcommittee will do its best with your budget. We 
thank you and wish you well.
    Mr. Dombeck. Thank you.
    Mr. Nethercutt. Thank you very much.
    The hearing is adjourned.
    [The following questions and answers were submitted for the 
record:]

[Pages 133 - 353--The official Committee record contains additional material here.]








=======================================================================


                          Department of Energy

                          Secretary of Energy

=======================================================================

      
                                          Thursday, March 12, 1998.

                          DEPARTMENT OF ENERGY

                               WITNESSES

HON. FEDERICO PENA, SECRETARY OF ENERGY
ROBERT S. KRIPOWICZ, PRINCIPAL DEPUTY ASSISTANT SECRETARY FOR FOSSIL 
    ENERGY
DAN REICHER, ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND RENEWABLE 
    ENERGY

                            Opening Remarks

    Mr. Regula [presiding]. Well, we'll get the hearing 
started.
    Thank you for coming, Mr. Secretary. In the interest of 
time, we'll move along. Your statement will be made a part of 
the record, and you can summarize for our committee, as you 
choose.
    Secretary Pena. Thank you very much, Mr. Chairman. I 
believe I have a more complete statement that has been 
submitted for the record. I have relatively brief introductory 
testimony which I would like to present just to give the 
subcommittee a sense of overall progress and accomplishments 
and challenges, and then obviously would be very pleased to 
answer your questions.

                           management changes

    Let me very briefly, Mr. Chairman, summarize three points. 
One is to discuss briefly some of the management changes and 
improvements we have made in the past year. I know there have 
been some concerns about that. Secondly, to summarize some of 
the broader achievements we have made in the past year. And 
then, thirdly, to talk about the budget.
    Mr. Chairman and members, we have continued to streamline 
our Federal and contractor workforce and we are intensifying 
our evaluation of grant award processes. We are working to 
ensure that more of our awards are competitively bid. I know 
this has been a concern of yours and others and I think we are 
making progress in that direction.
    I have asked the Under Secretary, Dr. Moniz, whom I think 
you all have had an opportunity to meet and to get to know, to 
do a better job in the Department of roadmapping our technology 
work. He is now chairing the Research and Development Council 
to ensure that we fully synchronize and integrate the work that 
we do across the complex, focusing on what our key objective 
is, ensuring that our laboratories are aligned with that work, 
and more importantly, that we eliminate any duplication 
occurring throughout the Department.
    Examples of that, I think, are the work we are doing in 4D 
seismic, technology which I think will have extraordinary 
implications for the private sector and for our country.

                     elk hills naval petroleum sale

    Beyond that, we were very proud this year to, very 
effectively have sold the largest valued asset ever sold by the 
government, and that was the Elk Hills Naval Petroleum sale. We 
brought in $3.6 billion to the Treasury. That was at least $2 
billion more than had been projected by the Congressional 
Budget Office, and we've been very pleased with that.

                        programming achievements

    In terms of our programmatic achievements, we have now 
developed our Comprehensive National Energy Strategy for the 
country. We've received comments and we hope to finalize that 
in April.
    We continue to maintain leadership in science and 
technology. We are trying to address this question of energy 
security in a comprehensive fashion. I'll be happy to elaborate 
on that this morning, but we see that part of that is 
diversifying our import base of oil for our country.
    And that is why, Mr. Chairman, as you know, I have spent 
time in the Caspian area and South America to make sure that in 
terms of security, we are not overly reliant on any one 
particular part of the world for our imports.
    We do continue to provide leadership in science and 
technology. We are very pleased with the progress we have made 
with the auto manufacturers and suppliers on the Partnership 
for a New Generation of Vehicles.
    Four years ago, when this administration launched that 
initiative and I was the Secretary of Transportation, I must 
say there were some questions about whether this partnership 
was going to work. If you noticed the announcements made by the 
Big Three last December in Detroit, where they brought out 
their new cars for the next century, and you looked at the 
breakthroughs they had in materials, hybrid engines, fuel cells 
and other technologies, almost all of those breakthroughs were 
the direct result of the Partnership for a New Generation of 
Vehicles.
    And that is why we have asked for additional support for 
the PNGV program. We think it has great promise, and in fact, 
our partners have also seen it to be quite helpful.They have 
allowed themselves to accelerate their work in these new vehicles 
because we are now in a more competitive environment with our 
competitors in Asia and in Europe. And therefore, this partnership is 
perhaps even more important than ever before.
    We have supported the development of a number of energy-
saving technologies, saving industry $1.8 billion since 1985, 
with 104 industrial technologies. We have been very supportive 
of our Clean Coal Technologies. Our air is cleaner today than 
any time in the past 20 years. The nation's coal utilities emit 
25 percent less sulphur today than they did in the 1980's, and 
yet they burn almost 80 percent more coal.
    So we believe these partnerships have been successful, the 
Clean Coal Technology Program and others, thanks to your strong 
support and others that we are very proud of.

                           budget highlights

    Let me just quickly summarize the budget highlights. We are 
proposing $1.4 billion, an increase of $379 million above the 
1998 appropriation. Most of that increase is for our Strategic 
Petroleum Reserve, $160 million.
    With regard to the Strategic Petroleum Reserve, we are not 
calling for any sale of oil in 1999. Let me emphasize that 
while we are showing $160 million--and that's the bulk of the 
increase--it is actually a decrease from the amount we spent 
last year. That is because we have brought down our cost.
    But you'll recall that in 1998 we had the sale of oil so 
the sale's receipts offset the cost, and it was indicated as a 
zero. So because we are not having a sale in 1999, we now have 
to request the actual number, which is $160 million.
    We are very pleased to report that the funding requirements 
for maintaining the reserve are below Fiscal Year 1998. We have 
successfully engaged in our life extension program for the 
Strategic Petroleum Reserve, and we are also very pleased to 
note that there are significant savings from prior years in the 
Naval Petroleum and Oil Shale Reserves budget, where we are 
requesting 79 percent less than in the Fiscal Year 1998. That 
is because of the success of the Elk Hills sale this past year.
    We are asking for increases in energy efficiency and fossil 
energy research and development programs, which we feel are 
needed to produce additional savings for both industry and for 
consumers, and to play a significant role in reducing energy-
related pollutants.
    The President's Committee of Advisors on Science and 
Technology has concluded in its report to the Congress and to 
the American people, that the research and development 
investments in energy efficiency have resulted in cleaner air, 
reduced reliance on imported oil, and lower energy cost to 
households and businesses.
    They urge that we add significant investments for energy 
efficiency and for renewable fuels. So we have tried to match 
their request in our budget for this year. The Committee, in 
fact, reported that DOE's past research investments contributed 
to efficiency improvements that save American consumers 
approximately $170 billion each year.
    We have also, in our 1999 budget request, in the area of 
energy conservation, reflected their recommendation that 
includes $774 million, which is an increase of $182 million, to 
support cost-shared research.
    Let me just emphasize a couple of examples. In industrial 
technologies, the request of $167 million supports ongoing 
research and development with a number of energy-intensive 
industries to increase energy and resource efficiency. With the 
help of energy efficiency technologies, we think that 
industries could save about $10 billion by 2010.
    In the transportation sector, we are requesting $293 
million to expand our work on advanced automotive technologies, 
heavy vehicle technologies and biofuels energy systems. These 
technologies could save, we think, one million barrels of 
imported oil a day by the year 2010.
    We've requested increases in our buildings technology in 
our State programs. Again, we think we can generate significant 
energy savings in that area.
    Our fossil energy request calls for $383 million, which is 
an increase of $21 million from 1998. As we all know, coal 
supplies more than half of our nation's electricity. It is our 
most affordable energy resource. It also faces great 
challenges. We believe that technologically, it is possible to 
develop a future energy concept that continues to use coal, but 
essentially eliminating many of the environmental impacts that 
we're concerned about today.
    One of the proposals we are making is this concept of 
Vision 21, which accounts for a major portion of the increase 
in our fossil energy budget. But it is, I think, a good example 
of how we can use long-term, very integrated research making 
creative uses of current technologies in ways to do a much 
better job of reducing impacts to the environment.
    The one area where we are seeking additional new funding in 
that sense is carbon sequestration. That's about $10 million, 
which is directly aimed at capturing and permanently disposing 
of carbon dioxide and other greenhouse gas emissions.
    Mr. Chairman, I could go on, but I won't. You have all read 
our request. We very much appreciate your past support. We look 
forward to working with you in the future as we address these 
issues.
    I think we have presented a proposal that reflects the 
recommendations of our top scientists in the country. Itallows 
us to continue to be world leaders in much of the research and 
development and technology that we do for the country, and it allows us 
to, hopefully, move us in a direction of greater energy security in 
years to come.
    Thank you very much.
    [The information follows:]

[Pages 361 - 371--The official Committee record contains additional material here.]

    Mr. Regula. Thank you. Mr. Skeen has another commitment 
with his committee, so we'll go to his questions.

                      waste isolation pilot plant

    Mr. Skeen. Thank you for the accommodation, Mr. Chairman. 
Mr. Secretary, it's delightful to see you.
    As you well know, the Waste Isolation Pilot Plant is 
scheduled to begin storing waste on receipt of EPA's compliance 
certification and your decision to begin operations. And also, 
you're aware that the State of New Mexico is behind schedule on 
issuance of a RCRA permit, and that the law does not require a 
RCRA permit for a shipment of nonmixed waste.
    While I in no way want to pressure New Mexico's permit 
issuance process or ship waste if the State is not agreeable, I 
believe that we should move forward with the State's blessing. 
And in addition, allow me to preface my questions by requesting 
that if either of your answers are in the negative, I would 
appreciate a detailed justification.
    The first one is, accordingly, do you intend, as DOE has 
previously indicated, to begin the shipments of nonmixed waste 
from INEL, Rocky Flats, Los Alamos immediately after making the 
formal decision to open WIPP.
    Secretary Pena. Congressman Skeen, I don't want to prejudge 
a decision that I will be making, assuming again, that EPA 
meets its deadline--and we very much expect EPA to meet its 
deadline. We very much expect to meet our obligation to 
indicate that, in fact, WIPP is ready. We have to issue a 
readiness certificate.
    Mr. Skeen. I understand that.
    Secretary Pena. We're very much on target, and we believe 
we're going to make those. You are absolutely correct, and we 
are, I guess disappointed is the best word to use, that the 
State will not be issuing its part B permit until probably 
September, maybe October of this year.
    We had always been hopeful that it would have been issued 
on a more timely basis, so that all these decisions would 
coincide with each other.
    Mr. Skeen. We're suffering through the same process 
together.
    Secretary Pena. We agree. So at this point, yes, one of the 
obvious options that's available to the Department, assuming 
that EPA proceeds with its final decision without any major 
issues, is to begin to ship nonmixed waste to WIPP.
    I believe that even after EPA decides, there is a 30-day 
period where we must allow that decision to essentially be 
reviewed. And let me simply say that one of the issues that we 
cannot anticipate is whether or not there will be litigation 
which will be brought either by the Attorney General or others 
to enjoin the Department from moving shipments of one kind or 
another.
    So we want to walk through this very carefully and 
methodically, because number one, in the event that litigation 
is brought, we want to be successful in the litigation.
    Mr. Skeen. Absolutely.
    Secretary Pena. That's why we've been very, very careful in 
our relationships with all of the governmental bodies involved, 
both Federal and State. And most importantly, we want to begin 
to move shipments as soon as possible, because it's very 
important, not only to Rocky Flats, but as you said, to the 
State of Idaho and to other sites.
    Mr. Skeen. I think you probably answered this next 
question, but I'll go ahead and get it on the record. In 
accordance with the previously issued record of decision, the 
formal decision to open WIPP 30 days after receiving EPA's 
certification, and I believe that you answered in the positive.
    Secretary Pena. That's correct. It must lie for 30 days.
    Mr. Skeen. Finally, are you confident that the budget 
request for WIPP is adequate to begin disposal operations this 
year?
    Secretary Pena. Yes, I am, Congressman. As far as I know 
the budget that we have is adequate. We are not aware of any 
significant budgetary matters here. It's simply a matter of 
getting through all the State and Federal licensing 
requirements.
    Mr. Skeen. Well, a pleasant outcome of this would be a 
little prong in the State's ear to get their permit done, get 
it done on time, because we're--it's about time. It's 
unconscionable to leave this waste above ground in the 
situation where we have it in today. And there is no excuse for 
not moving some of the waste and getting it underground.
    Thank you. I want to finally thank you for the answers and 
I look forward to working with you in the effort to resolve 
this problem. I appreciate the accommodation that you have 
made, and working with you and your staff has been very 
pleasant.
    Secretary Pena. Thank you very much, Congressman.
    Mr. Skeen. We appreciate it.
    Secretary Pena. Thank you.
    Mr. Skeen. Thank you, Mr. Chairman.

                         global climate change

    Mr. Regula. Just a couple questions, and then we'll go on 
to Mr. Dicks.
    We have had a lot of discussion of global climate change, 
obviously with the Kyoto Conference it's unlikely, however, 
that there's going to be any treaty in the near future because 
the developing nations are simply not willing to participate.
    What portion, if you know, in dollars of these proposed 
increases are directed toward CO<INF>2</INF> reductions and 
toward global climate change activities?
    Secretary Pena. Mr. Chairman, the one amount that is 
exclusively and directly connected to global climate change and 
carbon dioxide emissions is the $10 million request for carbon 
sequestration.
    The other increases we have sought build on programs that 
we have already had in the Department, and they build on the 
recommendations of the President's Committee of Advisors on 
Science and Technology.
    But they do have an impact on carbon dioxide reductions. 
When we improve our efficiency, that has an impact on carbon 
dioxide reductions. When we support other kinds of fuels that 
emit less CO<INF>2</INF>, that does reduce carbon dioxide 
emissions. But again, they build on what we are already doing 
in the Department.
    And I guess the best way I would answer that question--and 
I have heard that concern from a number of individuals--is to 
say this: If we had no Kyoto protocol, we ought to be doing 
these things anyway. They are good for the country. We ought 
not to be wasting the kind of energy we are wasting today. We 
ought to find a way to make our country more energy secure, 
more energy independent. It helps U.S. companies; it makes our 
economy stronger.
    So I think these are things that are correct to do for our 
country anyway. That is the best way I think I can explain why 
I am strongly urging that we support these programs, because 
they are, I think, very helpful.
    Mr. Regula. Obviously, it's highly unlikely that our 602(b) 
allocation will be large enough to accommodate all the 
increases you are requesting, so we will be back to you at some 
point to ask your help to prioritize it, given what we have 
available in making a final markup.
    I just want to mention that because the facts of life are 
that we are not likely to have the $1.1 billion that the 
President has proposed as an overall increase for this budget.

                     caspian region pipeline issues

    I am interested in your comment that you have been to the 
Caspian Sea, because in the long term, that is probably, a 
pretty sensitive area in terms of supply. There's obviously a 
lot of discussion over there on which route to go, i.e., 
through Russia or whether through the southern route.
    What's your observation on this? Do you think it will get 
resolved?
    Secretary Pena. Well, Mr. Chairman, that's probably the 
most important question. Let me, if I might, try to give it a--
--
    Mr. Regula. You can do this for the record, if you'd like, 
because it does have serious implications.
    Secretary Pena. It does, Mr. Chairman. And just this week, 
we were negotiating with our counterparts from Russia, who were 
here for the tenth Gore Chernomyrdin Commission meeting, and 
obviously, this is one of those issues.
    Let me give a little background, if I might, because this 
is an important issue, and it does have national security 
implications.
    The United States position is very clear. We support 
multiple pipelines through the Caspian region. When I went to 
Azerbaijan on a Presidential mission, I declared there, after 
meeting with five of the presidents of the countries involved, 
that our position was that we support a trans-Caspian pipeline, 
east-west pipelines going from Baku to Ipsa and all the way 
through Turkey coming down south.
    We believe that multiple pipelines will provide the best 
opportunity for the countries in that region to be economically 
independent and prosperous in the future. We believe that the 
multiple pipeline east-west strategy we've articulated is the 
best opportunity for peace and harmony in that part of the 
world.
    Let me also say that we object to the investments made in 
Iran. We disagree with the proposal of transmitting gas from 
Turkmenistan to Turkey through Iran. And so we believe that the 
option we have provided does give all the countries a very 
viable option in order not to allow Iran to play a prominent 
role in that part of the world.
    So we have been very clear about our position. We are 
working very closely with our companies. There are working 
groups that have been established among the countries. We have 
met with all the presidents; they have been coming here. I 
think we're making lots of progress.
    Now, where it will all end up is the question you have 
asked. In October of this year, one of the consortia operating 
in Azerbaijan will make a decision about what they are calling 
the main export pipeline. And I have urged the countries to try 
to meet that same deadline in making judgments about the other 
options that we have presented.
    So that's a very general description of our policy and the 
work that we've done in the Caspian area.

                       reason for low gas prices

    Mr. Regula. I have a number of questions. One more I might 
ask, and that is what do you attribute the relatively low price 
of gasoline right now? Is there an oversupply in the spot 
market? It makes people happy, obviously, but what is your 
analysis?
    Secretary Pena. In my discussions with the Energy 
Information Administration and Jay Hakes, whom I know is well 
known to the committee--and let me praise the work that they 
do; they have done a very good job in estimating these trends.
    There are at least two things occurring. One, obviously, 
there has been an impact on world supply and demand because of 
the Asian market situation. And secondly, there have been some 
weather patterns which have decreased certain usage, at least 
over the past several months.
    All of that has resulted in a world supply that has been 
more than adequate to meet the new demand level, which is 
slightly diminished because of the Asian situation. And as you 
know, Mr. Chairman, certain countries in the OPEC have 
increased their production, and given at least perceptions 
about what was happening in Iraq with their need to produce and 
export more oil for humanitarian purposes approved by the 
United Nations--all of those forces have combined to cause spot 
markets to drop.
    I think today the price of oil is $14 a barrel; I haven't 
seen today's paper, but it's probably the lowest it's been in a 
long time, which has resulted in significant reductions in 
gasoline prices for the American people.

                sale of strategic petroleum reserve oil

    Mr. Regula. It is not a good time to sell SPR oil, is it?
    Secretary Pena. This is the worst time to sell SPR oil, Mr. 
Chairman.
    Mr. Regula. You haven't sold any out of the 1998 budget 
yet, have you?
    Secretary Pena. No, sir.
    Mr. Regula. Well, we'll talk more about it. Mr. Dicks.

                        fast flux test facility

    Mr. Dicks. Thank you, Mr. Chairman. Mr. Secretary, I want 
to welcome you here. We in the Northwest appreciate your help 
on a variety of issues, including the Bonneville Power 
Administration and the Hanford Energy Conservation Initiatives.
    I wanted to ask you a question. I was pleased when the 
Department announced its decision to place the Fast Flux Test 
Facility, FFTF, in a warm standby status to permit its 
consideration as a possible backup source of tritium.
    Because the tritium gas has a halflife of only 12 years, it 
has to be replenished on a reliable basis in order to ensure 
that our nation's national security interests are protected.
    I also want you to know that there is strong bipartisan 
support by myself, Senator Gorton and Senator Murray and the 
Governor on behalf of FFTF at Richland.
    And the question I have is what is the timetable for this 
whole decision on tritium? And if FFTF is to be considered, do 
you think it would be the right thing to do an EIS at this 
juncture, rather than if we get to a decision, then we have to 
go back and do the EIS?
    I think the opinion of the delegation is it might be the 
right time to do it now.
    Secretary Pena. I understand.
    Mr. Dicks. Just as an option.
    Secretary Pena. Right. Congressman, as you know, I went out 
to visit the facility----
    Mr. Dicks. Right.
    Secretary Pena [continuing]. And saw the FFTF and talked to 
the people who have recommended it. I must say that when I 
heard the description of the possible use for medical isotopes, 
I was impressed with the proposal. It needs, obviously, some 
refinement, but I was impressed with the concept.
    We are, as you know, still maintaining the FFTF on a 
standby basis, and that's what we are requesting in the budget.
    Mr. Dicks. Right.
    Secretary Pena. My timetable is to meet our obligations to 
make a decision on tritium this year. I think there has been 
some sense that it might be towards the end of the year. I am 
going to do my best to accelerate that decision.
    And in that context, we obviously will be addressing the 
Fast Flux Test Reactor and get a sense of what role it may or 
may not play in that decision. But we have not made any 
judgments about that yet. This is a very complicated issue, and 
I'm trying to evaluate all of the options and obviously, all of 
the implications involved in the decision.
    But that's my timetable.
    Your question is whether we should now start an EIS on 
FFTF, and that was recently brought to my attention as a 
suggestion, and I must confess I have simply not had time to 
focus on that and to decide whether or not we should do it now 
or wait a few months.
    So I guess I owe you a more specific answer.
    [The information follows:]

          Fast Flux Test Facility and the Need to Start an EIS

    I intend to make a decision on the Department's tritium 
production strategy by the end of this year. This decision will 
address the future status of the Fast Flux Test Facility. I 
believe that it would be premature to begin preparation of an 
environmental impact statement (EIS) for the Fast Flux Test 
Facility at this time, because the Department has not yet 
determined whether to propose restart of the reactor. Safety 
and environmental studies have been conducted while the Fast 
Flux Test Facility has been in standby, and have not identified 
any safety, environmental or technical concerns that would 
prevent the Department from proposing a restart. If it is 
determined that there is a potential role for the Fast Flux 
Test Facility in our tritium production strategy, then the 
Department will prepare an EIS to analyze in detail the 
environmental impacts associated with tritium and medical 
isotope production prior to any decision to restart the 
facility. As a part of the EIS process, the public would be 
actively consulted and involved in the decision making on 
possible restart of the reactor.

    Mr. Dicks. Well, who should I talk to on your staff about 
this? Who would you want me to confer with?
    Secretary Pena. Well, I'm making the decision, so I'm happy 
to talk to you about it directly, Congressman.
    Mr. Dicks. All right, good. Well, we think--there's been 
some suggestion in the Northwest, well, this might undercut the 
cleanup effort. I look at this completely differently. In fact, 
Tom Grunbly, who we worked with very closely and I discussed 
this many times. My view is that if we can find a low cost way 
to deal with the tritium problem that doesn't require you to go 
out and build a new and very expensive reactor, that that ought 
to help us be able to ensure that we get the cleanup done, 
because it puts less pressure on your budget.
    So we think this is an alternative that should be looked 
at, and you are doing that, and that's what we asked for and we 
appreciate it. And we'll stay in touch on the EIS. But I do 
think if you're trying to look to speed up the whole process, 
if we did the EIS at this juncture, it seems to me that that 
would--and if, for whatever reason, it's picked, then we 
wouldn't have to go back and do that.
    Or maybe it's--it might be your assessment you don't have 
to do a full-blown EIS on this because it was already 
licensable. But we'll stay in touch on that.

                    cleanup at richland, washington

    I had one other question. I know the Governor and the 
Attorney General came in to see you recently on the cleanup 
program at Hanford. And there's been some concern, you know, 
about how the new contractor is doing.
    Can you give us kind of your assessment of how you think 
things are going at Richland?
    Secretary Pena. Well, Congressman, I think the best way to 
characterize what has occurred at Richland is that our 
performance has been mixed. On the tanks, for example, we have 
completed and started to pump material out of a hundred and 
nineteen of the tanks. I think we have, obviously, several more 
to go. Looked at from that perspective, one could say we've 
done a relatively good job.
    The problem is that in December we were to have cleaned up 
six; we only did three. There were some safety issues that 
arose. We found gas in one of the tanks, and for safety 
reasons, our technicians said we ought not to proceed with the 
other three.
    We also found something which nobody had anticipated when 
the agreement was signed nine years ago--a concrete slab in the 
middle of one of the tanks. So even when we have judgments 
based on the best information and evidence we have at a 
particular time, the nature of this work is that you come 
across things that nobody anticipated.
    So we did not meet that milestone in December. We have 
asked for a supplemental request from the Congress of $12 
million and $3 million for reprogramming, which will give us$15 
million, which will allow us to do some more cleanup this year.
    Of the three remaining we didn't do in December, we'll do 
two this year in 1998, and we'll do the other in 1999. So at 
least we've got a road map. But on that particular project, we 
are encountering environmental issues, safety issues, and other 
problems that were not fully anticipated. So we're going to do 
our very best to get through this and try to be as responsive 
as possible.
    My main priority is to protect the river. I have been 
there. When I was there I observed, for example, that for many 
years, the Department had not, for reasons I don't fully 
understand, been able to conclude that we had impacted the 
VADOSE zone. I listened to the people there. I made another 
study and we concluded that in fact there had been an impact on 
the VADOSE zone.
    That was, I think, a historic admission from the Department 
of Energy. But I wanted to make sure we were honest with people 
and that we presented all the facts.
    So we know we have a problem there. We are doing everything 
we can to make sure the river is protected. I think that is the 
most important thing we can do, and we'll continue to do that.
    On some other things that we're doing at the site, I think 
some things are going very well. As you know, we do have a new 
contractor. We asked for the contractor to review its own 
performance after its first year in operation, and we're doing 
our own independent review of that. There is need for 
improvement. I think the contractor realizes that.
    So we're prepared to continue to work as hard as we can to 
meet those milestones. As you know, we've missed two--one in 
December and one that was to have occurred in March. We want to 
continue to work with the State and with you to determine how 
best we can proceed.
    Mr. Dicks. Thank you.
    Mr. Regula. Let's see. Mr. Skaggs.
    Mr. Skaggs. Thank you Fusion, Mr. Chairman. Good morning, 
Mr. Secretary.
    Secretary Pena. Good morning.
    Mr. Skaggs. I was just sitting here thinking that it was a 
little over 17 years ago that I reported for duty on the Pena 
team in the Colorado State House of Representatives. 
[Laughter.]
    Secretary Pena. Is that right?
    Mr. Skaggs. And you haven't aged a bit. I'm going to 
continue asking you questions that are really within the 
jurisdiction of the Energy and Water Subcommittee. I'm sure 
they're going to ask questions about conservation when you get 
up there, so you'll be tested on flexibility. But it really 
does kind of interrelate.
    Fusion has been kind of a never-ending 25 years on the 
horizon proposition, but as we look at alternatives to fossil 
fuels, that's certainly still one of them and it at least 
relates, I think, to our thinking about solar and renewable and 
conservation, as well.
    How are things on the fusion front?
    Secretary Pena. Well, we're still investing in fusion. And 
you're right, every so many years--and the experts keep hoping 
that we'll make some breakthroughs over a very short period of 
time.
    Our budget is, I think, an adequate budget for fusion.If 
you compare it to 1998, you may observe that in 1998, we were 
funding the ITER program. Because we have reduced that 
investment for 1999, we are shifting the money that was 
previously counted towards ITER as the base part of the fusion 
budget.
    So in that sense, we think the fusion budget is adequate. I 
know there are those who would like for us to invest more money 
in fusion, but we think we are doing what is a responsible 
thing.
    So we still want to continue to be supportive of fusion. We 
think it is one of those options that needs to be pursued. We 
remain hopeful we'll see much more significant progress, but I 
think the funding request we have made addresses our priority.
    Mr. Skaggs. Is it sufficient to keep, sort of, the United 
States' relative equity share compared to other countries where 
it needs to be?
    Secretary Pena. Congressman, I believe it is, but just to 
be accurate, let me go back and review what other countries are 
doing specifically as a separate fusion investment, separate 
from the international investments that are being made.
    But I think we are still at the table. Obviously, we would 
like to invest more, but at this point, given all of the 
priorities that we have in the Department, I think we've made a 
responsible decision.

     filling environmental management assistant secretary position

    Mr. Skaggs. I hope you are making progress on filling Al 
Alm's position. He was a terrific public servant, and I know 
his leaving left a big hole in your organization. I don't know 
whether you have anything you might--I'm sure you don't have 
anything you would feel comfortable in telling us, but we're 
all anxious to make progress there.

                   energy conservation budget request

    The Chairman mentioned the uncertainty of our 602(b) 
allocation. I think if you look at the fingers of his right 
hand, you'll see that he's already been working over Mr. 
Livingston for our share and is about to lose his fingernails. 
[Laughter.]
    Was that fencing at the farm?
    Mr. Regula. Well, it was farm related, yes. I'd file a 
Workmen's Comp claim, but----
    Mr. Skaggs. I wonder whether OSHA has heard about it or 
not.
    Mr. Regula. It wouldn't have qualified for OSHA.
    Mr. Skaggs. But I'm encouraged, nonetheless, about 
obviously the administration's level of commitment on 
conservation and renewable and think it's very wise as a public 
investment.
    So I hope, Mr. Chairman, we will be able to scrounge around 
and get something that comes close to meeting these objectives.
    Just as a point of reference, if you know or if you could 
supply this for the record, my hunch is that in inflation 
adjusted terms and in share-of-budget terms, we're still 
significantly below where we were a few years ago in the 
renewable and conservation accounts.
    And that might be a useful marker for us to have a handle 
on as we judge whether these are really exorbitant requests or 
not.
    Secretary Pena. Congressman, you're right. I'm looking for 
a chart which I know I have in my book, but we can present it 
to the Committee later. If you go back several years ago, we're 
still not at the level that we were in this area in terms of 
investment.
    [The information follows:]

[Page 381--The official Committee record contains additional material here.]


    But I agree wholeheartedly with your support of this 
program. If one goes back and reviews the progress we have made 
as a nation in efficiency, for example, between 1975 and 1986, 
we saw about a 30 percent improvement.
    Since that time, we have seen improvements, but they have 
not been anything near 30 percent. I think they've been more in 
the 10 to 15 percent area. And we know that we can still make 
significant improvements.
    So given the kinds of technological breakthroughs that 
we're seeing every day, it seems, we think that additional 
investments will make significant impacts in efficiency. And of 
course, that helps our energy security posture and the other 
concerns that we have.
    I was just handed a chart, Congressman, that shows that in 
constant 1998 dollars--for example, in 1980, we were at the 
$1.5 billion level. In 1981, we were $1.3 billion. So I can 
hand this chart to you and you can see that----
    Mr. Skaggs. So we're at about--what you're asking for would 
be roughly 50 percent of where we had been in the early 80's.
    Secretary Pena. That's correct.
    Mr. Skaggs. I have some more questions, but I think my time 
is up for now.
    Mr. Regula. Okay, Mr. Nethercutt.

                                K-Basins

    Mr. Nethercutt. Thank you, Mr. Chairman. Welcome, Mr. 
Secretary.
    Secretary Pena. Thank you.
    Mr. Nethercutt. I want to focus my few minutes on Hanford 
and the cleanup effort there. The 5th Congressional District of 
Washington borders the 4th, and I work very closely with Doc 
Hastings, who has really, frankly, been the leader in our 
delegation on this issue, the expert on it and the one on whose 
judgment I think most of us rely, and appreciate his 
recommendations. I understand he had a meeting with you 
recently and it was a very good meeting.
    Secretary Pena. That's correct.
    Mr. Nethercutt. He seems pleased with the Director of 
Privatization that's been chosen. We are all concerned with, 
this cleanup, and environmental management effort.
    I would hope that you are getting closer to providing a 
decision on the Assistant Secretary for Environmental 
Management. I don't know what the status of that is. You're 
probably not prepared to discuss it here, but I hope you will 
move ahead on that and use whatever influence you have to get a 
good person in there, because there are some budgetary 
challenges, for Hanford.
    I also met with the Attorney General of our State regarding 
the K-Basins problem. I know you're familiar with them. They 
hold about 2,135 tons of spent nuclear fuel and they are 
apparently beginning to leak into the environment, which is a 
great concern to a lot of us.
    There's a need to move that spent fuel to storage. I 
understand that your schedule to remove the spent fuel has 
slipped by three years and projected costs have increased from 
$740 million to $1.09 billion.
    Last year your Department and the EPA and the State of 
Washington initially agreed on a removal schedule, but my 
understanding is there has been a refusal to commit on DOE's 
part. So I guess the question that I have for you is would you, 
for the record, state whether the Department is committed to 
cleaning up the K-Basins.
    Secretary Pena. Congressman, I think you're aware of the 
fact that we have a very nationally reputable company that was 
working on the K-Basins, but they had received a, I believe a 
``cure'' notice from the contractor. And we were all concerned 
that we had not seen much more progress on the part of that 
contractor.
    I guess the message I want to convey to you and to the 
Chairman and others is that the Department is now holding our 
contractors' feet to the fire. And in past years, there was 
probably a reluctance to take those kinds of actions. But I 
think we are now doing them. We have the same situation in Pit 
9 where that has also occurred.
    But we are very focused on this. We are very committedto 
it. I'm going to have to go back and on the K-Basins issue, give you a 
more specific sense of the numbers you referred to and our ability to 
make those kinds of deadlines.
    So let me get back to you with a more specific response and 
not hazard an inaccurate statement this morning.
    [The information follows:]

                       Hanford Spent Fuel Project

    The Department is definitely committed to completing the 
Hanford Spent Fuel Project, which involves removing corroding 
spent fuel from the Hanford K-Basins and placing it in dry 
storage until it can be disposed of in a geologic repository. 
Nevertheless, we do have several challenges to overcome in 
accomplishing this task. DOE has directed the Hanford 
Management and Integration (M&I) contractor, Fluor Daniel 
Hanford (FDH), to propose by mid-April new milestone dates 
considering all information currently available on the project. 
After DOE has reviewed this proposal, we will be ready to 
commit to a date to begin removing spent fuel from the K-
Basins.
    The December 1997 baseline for the Hanford Spent Nuclear 
Fuel Project brought the total project cost and schedule 
estimates to $1.089 billion and completion by about September 
2003. This is in contrast to May 1995 cost and schedule 
estimates of $740 million and completion by about September 
2001. Several factors account for these increases. First, about 
$85 million of the increase was allocated for development of a 
needed additional treatment process we had not anticipated. FDH 
also experience delays because of management problems. FDH 
issued a cure notice last December to its subcontractor 
requiring remedies for poor performance and recently 
established a new management team for this project. In 
addition, at about the same time the December 1997 baseline was 
approved, FDH began using a new system to track costs, forcing 
them to address the cost implications of work orders not 
previously accounted for in the baseline.
    At the same time that FDH was working to establish a 
reliable cost and schedule baseline for the project, DOE was 
negotiating with the State of Washington and the EPA (through 
the Tri-Party Agreement) on legally enforceable milestones. All 
parties to the Tri-Party Agreement want milestones that have a 
high confidence of being met. Preliminary results from the 
ongoing baseline review indicate that schedule changes may be 
necessary that would add more than a year to the December 1997 
baseline as a contingency to reach the necessary level of 
confidence.
    On February 23, I met with Governor Locke and we agreed 
that, in light of the potentially significant schedule change 
proposals we expect to receive in April we should postpone 
establishing legally enforceable milestones for three months 
(i.e., until May 1998). It will be then, in mid-May, that the 
Department will be ready to make commitments for the schedule 
for the K-Basin work.

    Mr. Nethercutt. And that's fine, sir. I would hope that you 
and your Department would meet with the Governor of our State 
and the attorney general to perhaps avoid some legal 
consequences by further delay. I think that's advisable to try 
to work it out and assure our State leaders that you're very 
serious about this, the Department is, and advise them further 
of your progress.

                        Fast Flux Test Facility

    Let me just focus on another line of questioning relative 
to Hanford. I did go visit that reservation last fall, and had 
a very good visit. I went through FFTF and I also am supportive 
of having an environmental impact statement process begun on 
that.
    I look at it more for the benefits that it provides for 
medical isotopes. I've seen evidence that some 69 or 70 nuclear 
medical people are extremely supportive of the medical benefits 
of the Fast Flux Test Facility. I have a special interest in 
health issues, so I would hope that you would take all that 
into account and look at the very substantial benefits of the 
medical isotope availability for medical purposes.
    So are you favorably disposed or do you want to--I know 
you're going to make a decision here before the end of the 
year, as you said, but can you give us any better impression of 
your----
    Secretary Pena. Congressman, I can't give you any more 
specific information other than what I previously testified to. 
Let me simply say that when I first reviewed the proposal and 
went out to visit the site and talked to people, I was 
impressed with the concept and the ideas there.
    Again, we will evaluate all of the options we have before 
us. I need to make this decision weighing all of the important 
issues that face the Department and of course, the long-term 
needs of tritium.
    And so we will carefully review all those proposals, all 
those options and make the best decision for the country.
    Mr. Nethercutt. I appreciate your willingness to do that. 
We've sort of been here before. Your predecessor and I have had 
this same conversation, I think a couple of years in a row, and 
so we hope that you'll be expeditious in the decision-making 
process.
    Thank you. Mr. Chairman.
    Mr. Regula. Mr. Wamp.

                             Climate Change

    Mr. Wamp. Thank you, Mr. Chairman, and welcome, 
Mr.Secretary. I want to also thank Assistant Secretary Reicher and also 
Melanie Kenderdine in your office for the bridges that they have built 
and the good job they do.
    In my opinion, this is the best Energy team that this 
administration has fielded, and I want to commend you all for 
what you do. As a Republican member who has deep interest in 
energy, I really work well with your office and commend you 
very much for that.
    I'm going to try to resist working my way over to the 
Energy and Water Committee because I've been to those meetings 
and they've got a full plate of energy priorities. I'm going to 
try to stay focused on Interior issues. I've got three things 
and one of them may have to come back around.
    First is climate change. Where is the lead laboratory? 
Where is your lead information source for climate change? We've 
had the League of Women Voters in Tennessee become active of 
late, wanting to separate the fact from the fiction, wanting to 
try to come down on the right side on this issue, and they want 
good science to drive it.
    And I just want to know, from your perspective, where you 
believe the best source within the Department of Energy comes 
on this issue of climate change/global warming.
    Secretary Pena. Congressman, if the League is asking the 
question, ``What is the role that technology can play in 
climate change? '' I would first refer them to the Five Lab 
Study that was conducted by five of our laboratories. This is 
an area where I asked a number of laboratory directors to work 
together in evaluating technologies that we have today, 
technologies of the future, making calculations of the amount 
of carbon that could be reduced and what the cost would be to 
the entire economy. And so that's one study that I would refer 
them to.
    Secondly, after the President addressed the United Nations, 
I had further conversations with the laboratory directors, and 
we are now working on an eleven lab study, where eleven of our 
labs have come together to give us even better information 
about this.
    But we'd be happy to provide those reports to them and 
that's one, at least, source that they could start with on the 
role that technology can play in climate change. And as you 
know, that is the main role that the Department of Energy plays 
in the Administration's approach to climate change.
    Mr. Wamp. Does the National Science Foundation then 
headquarter the science behind this issue of climate change, or 
what is the Department's role? Is it best a collaboration in 
the Department of Energy and not a specific mission of a 
particular site?
    Secretary Pena. That's correct, Congressman. But again, the 
Department of Energy, in my view, is the lead department in the 
government which is providing guidance to the President on the 
role of technology in climate change.
    Now, we work, obviously, with the National Science 
Foundation and other departments that have science work. But 
the Department----
    Mr. Wamp. Including the science behind it and the 
technologies to deal with it.
    Secretary Pena. That's correct.
    Mr. Wamp. Okay. And you think that determining the science 
behind it is best the role of all the laboratories working 
together without a central location?
    Secretary Pena. Let me correct my answer, Congressman. No, 
the Department of Energy is not the lead agency of this 
science. I misunderstood your question. We are the lead agency 
of the technology. There are others in the administration who 
are working on the science.

                         emissionless vehicles

    Mr. Wamp. On a related issue, this notion of emissionless 
vehicles to drive CO<INF>2</INF> emissions down, et cetera, I 
chaired a hearing of this subcommittee last week where we were 
talking about the fact that in Bangkok, for instance, the 
number one CO<INF>2</INF> emitter is two cycle moped engines, 
believe that or not, in a crowded place like Bangkok.
    So what is the long-range DOE strategy for working with 
foundations like the Rockefeller Foundation to promote the 
manufacturing and exportation of emissionless vehicles from 
mopeds to small cars to buses to national security vehicles 
that can create technologies that are efficient and drive down 
CO<INF>2</INF> emissions and export them to the rest of the 
world.
    Because we could do a lot in this country, and if the rest 
of the world goes to pot on this issue, we're still pretty bad 
off.
    Secretary Pena. Congressman, we're going to do at least 
three things. One, we are trying to, first of all, get our own 
house in order, if I can use that expression. And that is to 
say, develop new cars for the future, which will significantly 
reduce those emissions.
    And I brought with me today, and I'd be happy to give it to 
the members of the subcommittee, examples of the announcements 
made by our own manufacturers this past December in their 
breakthrough technologies: the Chrysler ESX2, projecting fuel 
economy of 70 miles per gallon, the Ford P2000, 63 miles per 
gallon, the fuel cells that General Motors is looking at, 80 
miles per gallon.
    The Department, through the Partnership for a New 
Generation of Vehicles--and as you know, we are the leading 
investor in PNGV--this partnership has helped produce these 
breakthrough technologies.
    Point number two is on the international front. The 
Department is part of an international team that is negotiating 
with other countries, for example, on joint implementation 
projects, in encouraging countries like China to buy the 
cleanest burning coal technology that our country has, to make 
that a product that is exportable to places like China and 
other developing countries. And we're going to continue to work 
in that area.
    With the point you've raised, and that is the mopeds, I 
need to go back and find out specifically what we are doing in 
the area of mopeds. I'm sure someone in the Department is 
working on that. I just don't have it on my fingertips at the 
moment.
    [The information follows:]

                       Advanced Technology Mopeds

    The Department has sponsored the development of advanced 
battery technology for nearly twenty years. Advanced nickel 
metal hydride batteries from the Department's programs are 
being used by General Motors and Chrysler in zero emission 
electric vehicles. One of the developers from this program, 
Ovonic Battery Company, has formed strategic alliances with 
makers of electric bikes and scooters to commercialize this 
technology worldwide in small zero emission vehicles.

                mission of national laboratory community

    Mr. Wamp. Very quickly, Mr. Chairman, if I could. A year 
ago, you and I talked about long-term vision for the National 
Laboratory System and the fact that in the post-Cold War era, 
we, as a nation, have not determined what is the primary 
mission of the National Laboratory community.
    It was driven by defense for 50 years, as we all know, and 
now that the defense mission is not, frankly, needed in terms 
of weapons proliferation. You and I were at a nonproliferation 
meeting yesterday. I would just use this forum to encourage 
you, possibly Senator Domenici and yourself, and I would 
certainly love to represent the House, to create some national 
forum to try to establish the post-Cold War mission of our 
National Laboratory System.
    The Galvin Commission came and went. It was more or less an 
inventory and an analysis. But in terms of recommendations, are 
we trying to keep people alive to be 100 years old? You know, 
there's a lot of pieces, but what is the thrust? I mean, with 
NASA, the thrust is pretty easy to determine. We're either 
going to go to the moon or go to Mars or whatever the mission 
is. But the mission for our Laboratory Systems for a long time 
was to win the Cold War. We did. Now what?
    And to me, it's still just a collage without a central 
thrust. We're going to fund it better if we determine the 
central thrust. And I think we ought to really set our goals 
between here and the turn of the century of determining what it 
is.
    Otherwise, we're going to end up at some point running out 
of resources and people are going to start saying, ``Well, 
let's just forget this and forget that.'' We've got to 
determine that national goal.
    And I encourage you along those lines. I want to continue 
each year to encourage you, and I want to participate with you.
    Mr. Regula. Did you want to comment? Go ahead.
    Secretary Pena. Congressman, I agree with you, and let me 
simply say that my Under Secretary, Dr. Moniz, is now chairing 
our R&D Council for the entire Department, and that's precisely 
what he's doing, focusing on the missions, making sure our R&D 
work is synchronized to what our goals are for the Department, 
making sure we've eliminated duplication and that, in fact, the 
work being done by the labs is going to achieve those 
particular technological goals that we need to have for the 
Department.
    But we are happy to have that conversation with you.
    Mr. Regula. We're going to have a couple of votes here, and 
I'm not sure, Mr. Skaggs or Mr. Nethercutt, whether you'll be 
able to get back. So we've got a few minutes yet, if you have a 
question that you'd still like to ask. And the same with you, 
Mr. Nethercutt.
    Mr. Skaggs. Thank you, Mr. Chairman. Let me put a couple in 
for the record, particularly, Mr. Secretary, some concerns 
about the whipsawing effect of one year use restrictions on 
your renewable side that came out of the Energy and Water 
Subcommittee, versus no year appropriation here and the 
bookkeeping complications. But as I say, I'll give you 
something to respond to for the record, please.

                         green builder program

    For this morning, you may have noticed the coverage at home 
in Denver about progress made out in Colorado with the Green 
Builder Program, in which we've had great success in the Denver 
metropolitan area with much more energy efficient and 
conserving homebuilding.
    My question is are you making any effort, as it seems to be 
happening in Colorado between homebuilders and mortgage 
lenders, to try to transfer into the mortgage lending 
calculation the impacts financially on qualification for loans 
that having a cheaper energy or less energy expenditures means, 
and are you working with the national lending quasi-public 
corporations to affect their policies and get this kind of 
thing spread through the country?
    Secretary Pena. Congressman Skaggs, we think that is a very 
real opportunity for the country. Recently, Secretary Cuomo and 
I co-hosted a meeting in his office with representatives of the 
National Homebuilders Association and other builders.
    And we had a specific conversation about how we can work 
together with homebuilders, particularly with respect to the 
construction of new homes. There are about a million new homes 
built every year. There is a base of about a hundred million 
already built in the country. And they are very interested in 
working with us to see how we can support more energy-
efficiency construction, and then hopefully tie it to some kind 
of a financing arrangement to encourage that.
    Mr. Skaggs. Well, if you haven't reached out to Fannie Mae 
and the other lending coordinating agencies, I would urge you 
to do that, because I think that will really put this within 
reach of the home buyer in a much more practical way.
    Secretary Pena. We'll do that.
    Mr. Regula. Mr. Nethercutt.

                             kyoto proposal

    Mr. Nethercutt. Thank you, Chairman, and I'll be fast here. 
Mr. Secretary, you spoke earlier in response to the Chairman 
about the Kyoto Protocol and what your thinking was about it. I 
got the impression that you are supportive of it, whether the 
Senate ratifies it or not. I'm wondering, in connection with 
your commitment to the goals of the Kyoto Protocol, have you 
directly or indirectly, within your agency or any agency that 
you work with, prepared any draft legislation or rules or 
regulations that you intend to introduce or propose any time 
before the Senate acts on the Kyoto Protocol?
    Secretary Pena. No, Congressman. As you know, we have not 
submitted the treaty to the Senate because we have not received 
the support of the developing countries, and so we are not 
doing any of that work.
    What we're doing now is simply adding to the work we're 
already doing in the Department in energy efficiency and 
renewables, which has impacts beyond just global climate 
change, with national security, energy independence, 
strengthening our economy, et cetera.
    And I think the only thing that is ``new'' is the $10 
million request for carbon sequestration.

                        electricity deregulation

    Mr. Nethercutt. Quickly, with regard to the issue 
ofderegulation, electricity deregulation. Are you working on any 
proposals that would address this issue nationally, working with the 
Administration?
    And second of all, are you proposing that there be any 
limitations on emissions for carbon dioxide or other greenhouse 
gases related to electricity generation or consumption?
    Secretary Pena. Congressman, it is the Department's view 
that electricity deregulation, through competition and the 
encouragement of new technologies will actually reduce carbon 
dioxide emissions through competition.
    Our proposal, as you know, has been completed in the 
Department. We are now trying to get the entire Administration 
to speak with one voice on this issue and we're still very 
hopeful we can make our proposals public because we want to be 
engaged with the Congress on this issue.
    Mr. Nethercutt. Thank you very much.
    Mr. Regula. The Committee will suspend for approximately 15 
minutes while we vote, and then we'll be back.
    [Recess.]

                        long-range role of coal

    Mr. Regula. Okay, we'll reconvene the Committee and get you 
out of here before lunchtime. Mr. Secretary, what's the long-
range role of coal in our economy, and do you, in your program, 
address this need, if you think there is one?
    Secretary Pena. Mr. Chairman, clearly, coal is going to 
continue to play a significant role in producing energy for our 
economy. I think estimates are that we have supplies of coal 
that exceed 200 years.
    So our goal is to try to work with the coal industry in 
developing new technologies that address some of the more 
immediate and long-term environmental issues and also 
efficiency issues that we think are right.
    And I must say that we are making lots of progress there. 
The Clean Coal Technology Program, which you have championed, I 
think is an example of the kind of successful partnership we 
have formed with the industry. We have learned from that that 
when the private sector commits its own resources to leverage 
the dollars we invest, these programs work.
    I think the private sector in the Clean Coal Technology 
Program has invested 60 percent or more of the funds involved, 
and so that's now a $5 billion plus program, largely because of 
the tremendous contribution made by the private sector.
    And with that, we have seen that they've really been 
committed to these technologies and we've seen some very 
significant breakthroughs. So we think that we can begin to 
produce the next generation of clean coal technologies that 
will give us greater efficiencies and continue to give us a 
diversified use of energy in our country.

                  technology development cost-sharing

    Mr. Regula. You mentioned that the contribution from the 
private sector is about 60 percent. Is this the case for most 
of your programs, where you're getting a match from the private 
sector? And I'm talking about technological development that is 
funded by your Department.
    Secretary Pena. Mr. Chairman, it depends on what aspect of 
technological development we are doing. Let me give you another 
different example.
    Recently, our laboratories entered into an agreement with 
the computer chip manufacturers of the country. It was part of 
a CRADA, one of these cooperative research and development 
agreements. And in that case, Intel, AMD, Motorola and some 
others made a commitment, I think, of $250 million, where they 
are basically paying our labs to help do breakthrough 
technology for computer chips, because we are the world leaders 
and we want to continue to be the world leader in the next 
generation of those chips.
    So each program is different. But with respect to this 
particular partnership, I think this is probably one of the 
best, where we have seen a very significant contribution by the 
private sector. And I think it's a model that we ought to try 
to replicate.
    Mr. Regula. You're talking about the Clean Coal Program?
    Secretary Pena. The Clean Coal Technology Program.
    Mr. Regula. Are you getting any success in exporting this 
technology, because it would seem to me like, particularly 
China, but probably all of or many of the lesser developed 
countries are going to depend on coal. And are they showing an 
interest in getting this technology?
    Secretary Pena. They are. Clearly, when we have spoken to 
the Chinese--and I have--and others, they all recognize that 
the United States is the leader in clean coal technology. 
There's no question about that. And they know that our 
technology is the best.
    When it comes to their making decisions, obviously they 
need to look at their long-term budgets and their investments, 
but clearly, they know that if they want the best technology, 
our country has the best.
    So we work with them and try to encourage them to use our 
companies. Obviously, as you know, the President has asked 
almost all the members of the Cabinet to help U.S. industry in 
terms of advocacy, and so we think there is great promise, 
particularly given what we see in the underdeveloped countries 
and the tremendous demand for energy they are going to have in 
the next 10 to 20 years.

         working with states and industry to avoid duplication

    Mr. Regula. As you know, we had an oversight hearing on 
energy and we had people from the states and also the private 
sector, as well as DOE. The purpose was to ensure that we avoid 
duplication in our research and to hopefully develop a measure 
of cooperation.
    The people from the various states indicated strongly their 
willingness to participate with DOE. And I wondered where you 
are, if any progress is being made in developing a closer 
relationship with the states to avoid duplication and perhaps 
benefit from their input as to what the needs are in terms of 
research and otherwise.
    Secretary Pena. We agree with that, Mr. Chairman. I have 
spoken to the National Conference of State Legislatures. I have 
also spoken to county officials about our R&D work generally, 
and have asked that we work together on these sorts of issues. 
I'd be happy to give you a more detailed report on the progress 
we're making there, but I think you're absolutely correct.
    [The information follows:]

             Coordination With State Energy Technology RD&D

    We are establishing mechanisms to more closely coordinate 
our efforts in energy efficiency technology research, 
development and pre-commercial deployment with those sponsored 
by States. The major mechanism is the development of 
Memorandums of Understanding (MOUs) between the Department and 
states having significant energy RD&D programs. These MOUs will 
result in improved coordination of RD&D efforts including 
funding and priority setting and more rapid dissemination of 
information. In addition to the MOU with California, we expect 
to enter into similar arrangements with several other states--
including New York as early as next month. We are working with 
the Association of State Energy Research and Technology 
Transfer Institutes (ASERTTI)--which serves as a coordinating 
organization for state energy R&D efforts--to forge closer R&D 
partnerships with other states. We are also exploring the use 
of the EERE web site, already a key mechanism for disseminating 
information, for providing a means of disseminating the results 
of state RD&D on energy efficiency technologies.

    Secretary Pena. Last week we signed a memorandum of 
understanding with the California Energy Commission. Of course, 
they are going through electric restructuring, but that's an 
example of where we can do that kind of work. So we very much 
agree with your analysis of avoiding duplication.
    Mr. Regula. And of course, it is important to get industry 
to buy into the various research programs. They really need to 
be consulted up front, I think. And do you do that? Do you find 
out what they are interested in, in terms of what you do, so 
that they will buy in?
    Secretary Pena. We very much want to do that, Mr. Chairman. 
Dr. Moniz, in chairing our R&D Council, has made the point that 
as we look at these new technologies, we've got to first ask 
the question, ``What is really needed?'' What does the private 
sector require as their priority?
    And then, from there, work with our labs, our own DOE 
people in headquarters and make sure that we shape the R&D work 
and the actual technology work we do to reflect what is 
actually needed in the marketplace.
    And I think he is going to bring the kind of focus that a 
number of members have been asking that we have in the 
Department.

                  working with other federal agencies

    Mr. Regula. The day of the hearing I suggested we would 
send a copy of your budget justifications to the State and 
private sector people that were here to get a response. We have 
gotten some already, and we hope to have more to get their take 
on it.
    We're just trying to make sure we manage these dollars as 
well as possible, and I think having a partnership with states 
and the private sector is very profitable in terms of using 
research money carefully.
    Are you making a greater effort to work with the other 
Federal agencies, i.e., EPA, in particular, because it seems to 
me you have somewhat the same objectives. They want to reduce 
emissions; you want to reduce consumption. Then the two go 
together.
    Secretary Pena. We do, Mr. Chairman. First, through the 
Science Advisor to the President, Dr. Jack Gibbons, who has 
helped coordinate the work of the Department, but also through 
OMB to ensure that we eliminate duplication.
    For example, in the Partnership for a New Generation of 
Vehicles, we are the lead contributor in terms of financial 
resources. But the Department of Commerce has some money, the 
Department of Transportation has some investments and EPA has 
some investments.
    But we try to shape them in a way to make sure that we do 
not duplicate the work that we're doing.

              partnership for a new generation of vehicles

    Mr. Regula. It would seem to me, from the number of news 
articles that have appeared recently in the press that 
competition is pushing the auto industry very substantially.
    It says in one here from the Los Angeles Times, ``the 
carmaker is the new green.'' And then ``Step-on-it-buddy,'' 
Mobil oil saying that they are working with the auto industry 
to increase fuel efficiency. And then here's one in the Wall 
Street Journal about NAVISTAR's choice of suppliers, 
``automakers look to diesel engines.''
    Do you think that the competition factor will drive the 
PNGV program enough that we can reduce our input in dollars?
    Secretary Pena. Mr. Chairman, I think it's the other way 
around. Let me be more specific, because I recently had a 
conversation with the vice presidents who are shaping the PNGV 
work for the three manufacturers.
    What has happened, and I observed this when I was the 
Secretary of Transportation and when I participated in the 
European forums on this question, is that for the first time 
our country is organized.
    By that, I mean that for many years it was perceived that 
the government was not working in a synergistic way with the 
private sector, not only the manufacturers, but suppliers.
    And I don't think it's any secret that perhaps our 
competitors around the world were doing a better job of 
synchronizing their work. Now that we are organized, and now 
that we have a PNGV partnership with a goal of 80 miles per 
gallon in the year 2004, we have energized our competitors.
    And so we are now seeing fierce competition. And I think if 
you were to have that conversation with our own industry, they 
would suggest, and they certainly suggested this to me, that 
our partnership today is even more important than it was when 
we started it four years ago.
    Mr. Regula. With the auto industry?
    Secretary Pena. That's right.

                          carbon sequestration

    Mr. Regula. One other question at the moment, and then, Mr. 
Moran, we'll go to yours. You mentioned about sequestering 
CO<INF>2</INF> I think you have $10 million in your request for 
this program.
    Secretary Pena. That's correct.
    Mr. Regula. Exactly how do you propose to accomplish this? 
Recognizing that CO<INF>2</INF> is the problem, specifically, 
how do you plan to sequester CO<INF>2</INF>, or is this a 
research goal?
    Secretary Pena. It's partly research, but there are some 
ways that one can reuse CO<INF>2</INF>. For example, our plant 
in North Dakota, I believe, which is now going to be capturing 
CO<INF>2</INF> and sending it to Canada to reinject into wells, 
is----
    Mr. Regula. Capturing it from?
    Secretary Pena. Capturing it from the plant and then 
literally piping it to Canada to be able to use to inject in 
recovery operations is one way that you can effectively use 
CO<INF>2</INF>. And that's, in a sense, reinjecting it into the 
earth.
    There are other proposals that have been made which we want 
to explore, but that's the nature of the kind of example that 
we would like to pursue.
    Mr. Regula. So as part of this, would you be funding 
research grants with the private sector to develop new 
techniques in the sequestering of CO<INF>2</INF>?
    Secretary Pena. I think, Mr. Chairman--and I'll need to get 
you more specific information--there will be some private 
sector participation. But essentially, we want to explore all 
the opportunities we have to sequester carbon dioxide.
    [The information follows:]

                    Sequestration of CO<INF>2</INF>

    If funds are provided we will pursue research opportunities 
with the private sector. This pursuit will be on a competitive 
basis and we will seek cost sharing to the maximum extent 
possible.

    Mr. Regula. It would seem you would have to work 
cooperatively with agriculture because a tree does a pretty 
good job of sequestering CO<INF>2</INF>, as well as no till 
farming.
    Secretary Pena. That's correct. In fact, a couple of weeks 
ago, we signed another memorandum of understanding with the 
agriculture industry in another area, but it's related to how 
we can use their products to produce certain kinds of fuel.
    So we think there is great promise in working very closely 
with the agriculture community.
    Mr. Regula. Mr. Moran.

                 comprehensive national energy strategy

    Mr. Moran. Thank you, Mr. Chairman. Nice to see you. Very 
nice to see you, Mr. Secretary.
    I wanted to start with a general question. You said in your 
testimony that you are drawing this year's budget from a couple 
of major documents. One is that commission that the President 
had on science and technology, and then you've got a 
Comprehensive National Energy Strategy.
    This subcommittee held a hearing on a national energy 
strategy last month. The biggest problem with these national 
energy strategies is not that they don't make a lot of sense 
and that a lot of thoughtful well-intentioned people don't put 
a lot of work into them, but they wind up just gathering dust 
on shelves, generally.
    Now, I know that the Department of Energy's policies keep 
evolving, but it must be frustrating for you, and I know it's 
frustrating for a lot of people, veteran civil servants that 
have worked on these national energy strategies, to see one 
after another come out.
    And one of the problems is that, while they may be used in 
an initial budget presentation, they often are not followed up 
on, and that they're not consistently applied across the board 
in terms of interagency coordination.
    I'm glad that in responding to the Chairman's question 
about this Partnership for a New Generation of Vehicles, you 
talked about the fact that a number of agencies are working in 
cooperation on this product.
    You probably have a lot of questions on the Clean Air Act 
and global warming and so on. If not, I'm sure you have from 
other committees. One of the principal areas that we need to 
deal with, obviously, is this New Generation of Vehicles that 
can give us far more fuel-efficient mileage.
    But in addition to the one that you cited in the testimony, 
we have other ways, rather than simply extending the mileage 
that you get from normally gas-powered vehicles. Natural gas 
vehicles is another tremendous area, potential area. But we've 
got to find a way to store the natural gas, or we've got to 
create an infrastructure for natural gas vehicles around the 
country to make it pay. I'd like to know whether we're getting 
much small business cooperation in that, and what the response 
seems to be?
    One of the frustrating aspects of this issue is that even 
though the car manufacturers have been cooperative and we've 
gotten some pretty impressive vehicles now that can travel 80 
miles on a gallon of gasoline, people are not buying those.
    In fact, if you go with market trends, the market trend is 
with sport utility vehicles, and the bigger and more gas-
guzzling the vehicle, the more likely it is to sell today.
    Are you putting research into reducing the gas mileage in 
those vehicles, or do you just think we have to wait until the 
cycle turns and people look back to more fuel-efficient models?
    The American public is probably going to wind up being the 
biggest barrier to rational energy policy. And I'd like to get 
you to make some comments on the record with regard to where 
we're really going and whether it's worth it to be putting this 
money into research and development when the public doesn't 
seem to have any interest in buying the products of this R&D 
effort.
    Secretary Pena. Congressman Moran, you've asked some 
excellent questions. Let me try to answer all of them. Number 
one, on the Comprehensive National Energy Strategy, I agree 
with you that one of the frustrations has been that we have not 
implemented those strategies perhaps very effectively.
    What we are doing is, first of all, in addition to 
conducting three hearings where we gathered public comments, we 
are also sharing the document with other Departments in the 
administration. We will get their comments and we will get that 
finalized sometime in April.
    Then we're going to embark on a round two effort where we 
begin to identify specific actions that we can take to 
implement the objectives and the goals in that strategy. So 
we'll have a sense of what is the actual road map that allows 
us, with some certainty, to say we're going to be able to reach 
those objectives.
    So we're going to get buy-in from all the Departments. 
We're going to move on this in a next-step fashion and we're 
trying to shape our budget in a way that responds to that 
strategy.
    Secondly, on the sport utility vehicles, light-duty trucks, 
which now exceed the so-called average car in terms of sales, 
we are, as a goal, attempting to make those vehicles at least 
35 percent more fuel-efficient in the next decade.
    In addition to that, to respond to your concern about the 
fact that the consumers, in some cases, for example, are not 
buying some of these newer vehicles because they are still a 
bit costly, the President has proposed a series of tax breaks 
which would take effect when you'd get a vehicle that is twice 
as efficient and then three times more efficient.
    And hopefully that will provide the kind of incentive for 
consumers to buy these vehicles, once they start coming off the 
production lines in the early part of the next decade, 
particularly as a result of PNGV.
    Let me also comment about heavy trucks, which are alsonot 
as fuel-efficient as they can be. We have just signed an agreement with 
the Department of Transportation. We are requesting that each of us 
invest, I believe it's $5 million, and that will be matched by the 
private sector--they've already agreed to do this, we had an 
announcement about this--so that we can increase the efficiency, the 
fuel efficiency of heavy-duty trucks.
    Imagine this--heavy-duty trucks get a little over seven, 
maybe eight miles to the gallon. If we can just take that to 
eight and a half or nine miles to the gallon, that will have a 
significant impact on fuel usage for that industry.
    So that's the approach we are taking, and I think given the 
tremendous response we have seen from the entire automobile 
industry and the exciting news that is announced almost every 
month.
    For example, a few months ago, we announced a new fuel cell 
that eventually can go into a car that can run on gasoline, not 
just on ethanol or methanol or CNG, but on gasoline. We think 
it gives consumers hope that in a relatively short period of 
time, we're going to have these vehicles.
    And of course, our goal is to have them produced so that 
they are competitive in terms of price and that they have the 
same safety standards and the same customer convenience 
amenities that customers want today in their cars.

                 tax breaks for fuel efficient vehicles

    Mr. Moran. What have the auto manufacturers said about this 
idea of giving tax breaks just to the fuel-efficient owners of 
vehicles?
    Secretary Pena. Well, I think they are interested in the 
concept. I think we need to work on refining it, and of course, 
Treasury will be the one responsible for refining the criteria 
for how those tax breaks are used.
    But it's a conversation that I think there is interest in 
pursuing, and we are hopeful that this will be the kind of 
incentive that will allow customers to begin to purchase those 
vehicles when they come off the assembly line.
    Mr. Moran. Thank you, Mr. Secretary.
    Secretary Pena. Thank you.
    Mr. Regula. Mr. Yates.

                           electric vehicles

    Mr. Yates. Mr. Secretary, I have the impression from recent 
television shows, that certain automobile manufacturers, are on 
the verge of placing electric vehicles in the market.
    Is my impression wrong from that show? What is the status 
of electric vehicles?
    Secretary Pena. Congressman, as you know, there is the EV1 
that is now being leased in California. It is not being--
    Mr. Yates. Oh, I didn't know that had gone that far.
    Secretary Pena. Yes. The problem is that they are still a 
bit costly and so the company has decided not to actually sell 
them, but to lease them. Obviously, this is a prototype. They 
are experimenting with this and are trying to see what the 
response is in California.
    In addition to that, the announcements made----
    Mr. Yates. When you say ``the company,'' which company is 
it?
    Secretary Pena. This is GM.
    Mr. Yates. GM.
    Secretary Pena. Well, in addition to that, the recent 
announcements made by the Big Three in December, and I brought 
a chart here that indicates that--suggests that a number of 
them are looking at everything from parallel hybrid operations. 
They are now looking at what is called a compressed ignition 
direct injection engine.
    Others are looking at the use of nickel metal hydride 
batteries. All of these developments have resulted from the 
Partnership for a New Generation Vehicle that we've had with 
the Big Three and the auto suppliers.
    So we think that electric and dual-use hybrid electric cars 
are certainly part of the potential future market of our 
country.
    Mr. Yates. There was a company that was manufacturing a 
fuel cell to power that kind of a car, wasn't there?
    Secretary Pena. Yes, there is.
    Mr. Yates. Is it still trying to do it?
    Secretary Pena. Absolutely. And we are part of that 
partnership, and we made that announcement about three months 
ago, which would allow this fuel cell to be used in a car and 
it can run on at least four different sources of energy.
    Their challenge now, now that they've demonstrated that you 
can actually, for example, use gasoline in a fuel cell, now 
their challenge--which was a major breakthrough--now their 
challenge is to reduce its size so that it can actually be put 
in a practical way into a vehicle.
    And thus far, they feel very optimistic that perhaps around 
2004 or earlier, that kind of technology would be available for 
automobiles. But we are part of that research.
    Mr. Yates. Can they get it into a Toyota? I see that staff 
has handed me a Los Angeles Times article, ``Carmakers, the new 
greens.'' Iacocca is hawking electric vehicles and General 
Motors chief John Smith predicts no automakers will succeed in 
the 21st century if it relies on internal combustion engines.
    Do you agree with that?
    Secretary Pena. Congressman, I am very cautious about 
making absolute predictions about the next century.
    Mr. Regula. You probably are, too, Mr. Yates.
    Secretary Pena. But at any rate--
    Mr. Yates. What about the election? [Laughter.]
    Mr. Regula. Strike that.
    Secretary Pena. I think I'll stick with energy predictions.
    Mr. Regula. You'd better take the Fifth.
    Secretary Pena. Take the Fifth. I think the point that is 
being made by Mr. Iacocca and others is that all these 
industries around the world are recognizing that technological 
breakthroughs that were once simply discussed are now real.
    And that there is now a fast race, a highly competitive 
race, throughout the globe in the industry to see who will get 
there first. And we recognize that in the Department of Energy, 
and that is why we are working in partnership with these 
companies.
    Ultimately, it will be the marketplace that decides the 
winners and the losers. But I believe there is a role to play 
for a number of these vehicles, whether it is compressed 
natural gas vehicles or electric vehicles or these new 
compressed ignition direct engine vehicles, and certainly 
vehicles that are run with fuel cells.
    We see great promise, and I think the one thing I have 
learned in a very short period of years is that we always, it 
seems to me, underestimate the ability of our scientists and 
engineers to come up with revolutionary technology.
    Mr. Yates. Well, I think we had a Secretary of Energy who 
did. Oh, this goes back many, many years when we were putting 
money into the Department of Energy for grants to use for 
funding energy-saving refrigerators and automobiles and other 
things.
    And he didn't want the money. His wife went out and bought 
an energy-saving refrigerator. That's in the record somewhere. 
At any rate, I won't cite his name. [Laughter.]
    Well, I see by this article that Daimler-Benz is making 
these. Is Japan engaged in it, too?
    Secretary Pena. Absolutely.
    Mr. Yates. Well, it is a race, isn't it?
    Secretary Pena. It is a race, and everyone knows it.
    Mr. Yates. It is a race. Who's winning it so far?
    Secretary Pena. Well, I'd say thus far, there are some 
early--we see some early movement on the part of some of the 
companies. I'd want to take my hat off to Daimler-Benz. They 
always find a way to be on the cutting edge.
    The Japanese continue to do that, but Congressman, I want 
you to know that we are committed not to lose this race. And I 
think the partnership we have formed with not only the 
manufacturers, but the suppliers in the entire auto industry is 
working.
    And we want to continue it. We see that it has great 
promise and I believe we are going to meet our goal of 
producing this new car for the next century, which will use 
leap-frog technology. And the kind of lightweight materials 
we've seen, the other sort of technology breakthroughs we've 
seen just in four years of the partnership indicate that this 
relationship has great promise.
    Mr. Yates. All right. Thank you, Mr. Secretary. Thank you, 
Mr. Chairman.

                        advanced vehicle program

    Mr. Regula. Just a couple things. I noticed you had a news 
release here that the Administration is moving the Advanced 
Vehicle Program from Defense to Transportation and Energy. 
That's $20 million.
    I'm not sure we're going to be prepared to pick up that 
cost, and I assume it would be an additional $10 million for us 
and an additional $10 million for Transportation. Is that 
correct?
    Secretary Pena. Mr. Chairman, let me get you the details on 
how that breaks down. I think the Department of Transportation 
has included that in their separate budget with their amount.
    Mr. Regula. It probably has.
    Secretary Pena. And we have included this in our budget. 
But we have worked with AARPA, DARPA, depending on what it was 
called, and they feel very comfortable in allowing us to take 
the lead in this area.
    Mr. Regula. They give us the bill.
    Secretary Pena. Let me get back to you on that, Mr. 
Chairman, and give you a specific answer on how that's going to 
work.
    [The information follows:]

                        Advanced Vehicle Program

    The mission of the Defense Advanced Research Projects 
Agency (DARPA) of the Department of Defense, in the case of 
advanced vehicles, is to invest in technology R&D only to the 
point that the development can be focused on specific 
applications. Through the Advanced Transportation Technology 
Consortia (ATTC), DARPA has successfully demonstrated 
components and complete electric and hybrid electric vehicle 
propulsion systems. These technologies have tremendous 
potential to improve the energy efficiency and reduce emissions 
in commercially important trucks and buses, which contribute a 
large part of the emissions in urban non-attainment areas, and 
represent a large part of the nation's transportation energy 
consumption. The Department of Energy's program will focus on 
applying the technology developments initiated by the Defense 
Department to the commercial transportation segment.
    In FY 1999, $10 million has been requested by the 
Department of Energy to conduct extensive technology validation 
through the ATTC and its industry partners. DOE's efforts will 
be focused on medium duty urban delivery and service trucks. 
This pre-market validation will include component, vehicle, and 
infrastructure development and testing in cooperation with the 
vehicle manufacturers, component suppliers, and fleet 
operators. The Department of Transportation also has requested 
$10 million in FY 1999 and will center its efforts on transit 
buses and similar applications. The program goal is to achieve 
at least a 50% improvement in energy efficiency with emissions 
30% below the Environmental Protection Agency standards for 
2004 and beyond. The program will maintain a 50% cost share 
from the Advanced Transportation Technology Consortia.

                      expenditures versus products

    Mr. Regula. Well, I would hope that if this is the case, 
that in making the allocation they reduce Defense $20 million 
and added $20 million to ours, or $10 million to ours and $10 
million to Transportation.
    I guess, just to wrap up, and following a little bit with 
what Mr. Moran mentioned about an energy strategy, we've spent 
$20 billion in the life of this agency. And I have to say when 
I put $20 billion on this side of the scale and I look over 
here what's on the product side, it's probably a little skimpy, 
given the amount that we've invested.
    Would you hope that if we did this in another three or four 
years that the balance would be better?
    Secretary Pena. Absolutely, Mr. Chairman. If one looks at 
the strategy we're developing and the five goals we have 
outlined there, and they are all unique. For example, let's 
just take the one we talked about earlier this afternoon, and 
that is diversifying our world import base, that is working.
    Venezuela is now the largest importer of oil in our 
country. Mexico is number two. Saudi Arabia is number three. I 
have the feeling most Americans don't know that.
    Mr. Regula. Say that again. Venezuela--oh, it's the largest 
exporter.
    Secretary Pena. Exporter, I'm sorry. Exporter of oil to the 
United States.
    Mr. Regula. To the United States. Go through that. 
Venezuela is number one.
    Secretary Pena. Venezuela, Mexico and Saudi Arabia is 
number three. Every once and in awhile, Mexico and Saudi Arabia 
change places. But the point is that our strategy of trying to 
diversify our import base is working. As you know, we are now 
focused on the Caspian and we talked about that.
    And one of our other goals in our National Energy Strategy 
is the question of efficiency, just trying to find a way to 
make our entire economy run more efficiently. And that's why 
our budget is committed to a number of very specific programs 
which I think have already shown success in the past. We've 
simply got to stay the course and do more of it, is also part 
of that strategy.
    So Mr. Chairman, I am very hopeful that we can demonstrate 
to you concrete progress. As I said to Congressman Moran, the 
next step of this, once we finalize the Comprehensive National 
Energy Strategy in April, we will to then establish objectives 
and have measurable goals so that we can see how we're doing 
and so that this document doesn't sit on a shelf and is never 
implemented or used in any practical way.
    And that's our effort here, and it's not going to happen 
overnight. But I think if we can all agree at least on the 
blueprint and the strategy and the kinds of investments that 
are needed, then we can go arm in arm and try to get it done.
    Mr. Regula. Well, I hope so, because we have a whole stack 
of these energy strategy reports back here in the office, and 
we don't need another stack.
    Secretary Pena. I agree.

                   energy information administration

    Mr. Regula. The State people who were here at our oversight 
hearing were complimentary of the EIA and encouraged our 
Committee to maintain it. Are you keeping significant support 
for this program within your agency?
    Secretary Pena. Yes, we are, Mr. Chairman. I want to 
applaud Jay Hakes and his entire staff at EIA. They have done a 
superb job and more and more interested parties, both in the 
government and the private sector, and frankly, people around 
the world, are now using their data in ways that demonstrate 
increased confidence in their accuracy.
    Mr. Regula. Are you on the Internet with all your data?
    Secretary Pena. Yes.
    Mr. Regula. So it's available worldwide.
    Secretary Pena. Just about to anybody.
    Mr. Regula. How about other countries? For example, the 
industrial countries, Japan, Europe? Do they, (a) do similar 
things to what we're doing, and (b) do they make the 
information available?
    Secretary Pena. Mr. Chairman, I would have to go back and 
ask Jay that question. I'm going to assume that to some extent 
they do that. We are, as you know, the most open society in the 
world and we are very willing to share data and information 
with our own citizens, first of all. And of course, once it's 
on the Internet, you can get it anywhere.
    So let me go back and investigate that question.
    [The information follows:]
                Energy Information in Foreign Countries
    Most countries have some level of energy information and analysis 
capability. However, the capability may range from part-time 
responsibility for a lone individual to a full-time staff depending on 
the size of the country and its capability to commit resources to 
energy information. Few countries make energy information available in 
a similar fashion to the United States. In general the United States 
differs from other countries in three respects: the degree of 
integration of its energy data collection, analysis and dissemination; 
the breadth of its dissemination options (press releases, hard copy 
reports, Internet access, CD-ROM); and its ability to make analyses 
without the requirement to advocate particular policy positions.
    Almost all countries have some form of statistical collection that 
includes information about population, economic activity, and social 
data. Usually these activities are in a national statistical office, 
and often these programs include some amount of energy information such 
as production, imports, and exports. In some countries the energy data 
may be provided directly to the government policy makers by industry. 
Countries differ in the amount, frequency, quality, and timeliness of 
energy information. In addition, analysis of the data and policy 
development is often done by a government organization that is separate 
from the data collecting entity. Dissemination of the data is typically 
in the form of reports, though a few countries are beginning to provide 
data on the Internet.
    The Canadian government collects a wide variety of information 
through Statistics Canada (an organization somewhat like the Bureau of 
the Census in the United States). Energy data collected by Statistics 
Canada is quality-checked and provided to the public and to government 
agencies such as Natural Resources Canada. Natural Resources Canada 
prepares analyses and forecasts for energy policy development. Canadian 
information is available both in hard-copy reports and electronic form.
    Japanese industry groups (such as the Japan Refiners Association) 
and government agencies (such as the Ministry of International Trade 
and Industry) collect and disseminate energy information. Analysis of 
energy information may be done by the Institute of Energy Economics (a 
non-government organization somewhat like the laboratories associated 
with the U.S. Department of Energy). Policy development occurs within 
the Agency for Natural Resources and Energy within the Ministry of 
International Trade and Industry. Some information is available in 
hard-copy reports.
    The Brazilian government collects national statistics through the 
Brazilian Institute of Geography and Statistics and, like Canada, 
develops analysis and policies through other government agencies. Data 
are available in hard-copy reports.
    South Africa collects energy information through industry sources 
and its university system. The Department of Mineral and Energy Affairs 
provides overall coordination of its energy programs and policy 
development. Dissemination capability has been developed both through 
publications and electronic means. The United States and South Africa 
maintain a joint Internet home page for exchanging energy information.
    International organizations provide another mode for countries to 
enhance energy information dissemination. The Asia-Pacific Economic 
Cooperation program, the European Union, the International Energy 
Agency, the Latin American Energy Organization, the United Nations, the 
World Energy Council all collect information from their members. These 
programs have both broadened the amount of international energy 
information available to the public and have helped to improve data 
quality by requiring common definitions and units of measure. In 
addition, some of the international organizations are beginning to 
provide information on the Internet. The Asia-Pacific Economic 
Cooperation program will begin to release a substantial portion of its 
data on a web page in the spring of 1998. The International Energy 
Agency, the Latin American Energy Organization, and the United Nations 
all sell their information on diskettes. Their information on the 
Internet is much more limited than in the publications.
    International organizations recognize the value of work done by 
EIA. The World Bank believes that strong energy information programs 
offer a foundation for orderly economic development and sound energy 
policy decisions. As a result the World Bank is encouraging the 
creation of organizations like EIA in developing countries.
    EIS is working with other countries to share energy information and 
assist in the improvement of their collection of energy statistics. 
Some recent examples of energy information cooperation include programs 
with China, the Philippines, and South Africa. Activities have included 
training in data collection, review, analysis, modeling, and 
documentation; sharing of energy data and analysis; training in the 
development of Internet web pages and other forms of electronic 
dissemination; and opportunities to meet with policy makers and energy 
industry experts.

    Mr. Regula. It'd be interesting. I think sometimes we're a 
research resource of the world and we're paying the bill and 
they're using the information. But maybe that's just as well if 
we're going to have worldwide CO<INF>2</INF> emission 
reductions.
    Let me say again that we want to continue to consult with 
you on priorities because it's very unlikely that we're going 
to have the resources available that would allow us to go all 
the way with your budget. And I hope we will continue to 
communicate to do the best job possible with what's available.
    And in establishing priorities, there was a statement a few 
years ago that this Committee, particularly the Majority, was 
conducting an assault on the environment because we didn't come 
up with all the money.
    Well, we were not going to have an assault on the 
taxpayers, and we don't want an assault on the environment. We 
want to use these dollars as well and efficiently as possible 
so Mr. Moran will be happy with the next energy strategy, 
right?
    Mr. Moran. Well, I think so. As long as the subcommittee 
continues this line of questioning, I know Secretary Pena fully 
intends to make use of the work that his agency comes up with 
under his term. I hope he stays there for a long time to 
maintain that continuity and consistency.
    Mr. Regula. When you do your energy strategy, you apply the 
Moran test before you bring it to us.
    Mr. Moran. The Regula test. Mr. Chairman, can I ask one 
other, one last question?
    Mr. Regula. Sure.

                             Nuclear Energy

    Mr. Moran. Nuclear energy. A group of people came to my 
office the other day, a couple of weeks ago. They said they 
were going to bring in some French firm into Virginia to 
develop a nuclear plant in Virginia around Leesburg.
    And I asked them about the technology that France has to 
recycle the used rods instead of burying them, basically. And 
Europe is recycling. We don't.
    Mr. Regula. Japan must be also.
    Mr. Moran. I know Japan is, absolutely. We have the 
technology. We have the personnel to do it. We just don't have 
the political environment, seems to be the bottom line.
    And I know the Carter administration felt very strongly 
about that. I'm not sure how strongly the Clinton 
administration feels. I know my views have changed, just 
because I'm a little less ignorant than I used to be. I used to 
be in the nuclear freeze that still, in some areas, in military 
areas may make some sense. But in terms of its application for 
commercial purposes, I don't think it makes sense not to look 
carefully at how the rest of the world is using nuclear power.
    What are you thinking in that area, Mr. Secretary, in terms 
of the recycling instead of the burying of rods?
    Secretary Pena. Well, Congressman, the President some years 
ago embraced the previous policies of many administrations 
going back to the Carter administration, not to support 
recycling reprocessing, as we call it.
    And there were some very serious nonproliferation reasons 
for the administration taking that view. Our view being that if 
we can find a way not to continue to have these materials 
around and used over and over again, but finally dispose of 
them permanently, that that would help the general 
nonproliferation goals of our country and of the world.
    And so the President, in embracing that policy, has tried 
to show leadership for others throughout the world. It is true 
that France and others continue to reprocess. Russia, 
obviously, is still in that mode.
    But we have had conversations with our Russian colleagues, 
and particularly in all the Gore Chernomyrdin Commission 
meetings, about how we can work better together to look at 
these kinds of processes, again from a nonproliferation 
perspective.
    That's the administration's position to date. I know there 
have been a number of people who have asked the question, as 
you have today, whether that policy should be revisited. My 
best information is that there is not any indication on the 
part of the administration to revisit the policy that has been 
longstanding for many, many decades.
    Mr. Moran. Well, okay. I'm sure that's the correct answer, 
from a political standpoint certainly. But I wonder if this 
policy really isn't being driven more by political environment 
rather than the objective efforts and experience of other 
nations.
    Mr. Regula. I might follow up on that. The countries like 
France and Japan that have intensive use of nuclear sources for 
their power industry, have they had any real problems in the 
last 10 years, for example?
    Secretary Pena. Mr. Chairman, every once in a while, there 
are issues that have surfaced, for example, in Japan, very 
recently, and you probably were aware of certain demonstrations 
in Europe that were fairly sizeable.
    But generally speaking, those countries continue to remain 
fairly heavily reliant on nuclear power.
    Mr. Regula. But they've had the demonstrations, but have 
they really had problems with the plants exploding or other 
serious problems?
    Secretary Pena. Not in the sense of explosions. There were 
some concerns in Japan some time ago with some incidents, but I 
think the Japanese government has been able to address them and 
resolve them. Questions were raised by certain communities, but 
not of the Chernobyl type nature.
    Mr. Regula. Thank you, Mr. Secretary.
    Secretary Pena. Thank you, Mr. Chairman.
    Mr. Regula. The committee is adjourned until 1:30.
    [The following questions and answers were submitted for the 
record:]

[Pages 404 - 470--The official Committee record contains additional material here.]








=======================================================================


                          Department of Energy

                        Office of Fossil Energy

=======================================================================







                                          Thursday, March 26, 1998.

                          DEPARTMENT OF ENERGY

                        OFFICE OF FOSSIL ENERGY

                                WITNESS

PATRICIA FRY GODLEY, ASSISTANT SECRETARY FOR FOSSIL ENERGY

[Pages 474 - 475--The official Committee record contains additional material here.]

                            Opening Remarks

    Mr. Regula. The committee will come to order. Pat, we are 
happy to welcome you, and we will put your full statement in 
the record. Anything you want to say by summarization, we will 
be anxious to hear from you.
    Ms. Godley. Thank you very much. I am very glad to be back 
before you, of course, as well, and I will make very brief 
remarks today. I know we are rushed for time. A lot has changed 
since I appeared before you last year on appropriations 
matters, but one thing certainly has remained constant. As we 
discussed last year, fossil fuels continue to provide over 85 
percent of our nation's energy. And as we forecasted last year, 
over the next two decades the figure still is likely to 
increase.
    Meeting our increasing energy requirements creates 
formidable challenges, Mr. Chairman, especially if we are going 
to protect the environment while we continue to grow the 
economy. Since I appeared before you last year, again the 
Office of Fossil Energy has made significant progress towards 
meeting these challenges.
    In the area of power generation, we continue to obtain 
excellent data from the clean coal gasification plant that you 
helped us dedicate last year in Tampa. And we are nearing----
    Mr. Regula. Excuse me. Is that working out well?
    Ms. Godley. Absolutely. It really is. It is a great 
demonstration project--very successful.
    Mr. Regula. It really seemed to embody all the things we 
have been trying to accomplish.
    Ms. Godley. That is very true, and they have had a lot of 
visitors looking at that plant and seeing its success. We are 
also nearing the point where another clean coal plant employing 
a similar process but also scaled for the independent power 
market is about to come on line in Reno, Nevada, and you may 
want to visit that plant as well.
    Mr. Regula. Is this a coal plant?
    Ms. Godley. Yes, IGCC plant.
    Mr. Regula. Embodying the same--get everything but the 
squeal technology?
    Ms. Godley. Right. You have got it, another IGCC plant. 
These projects are, of course, as you know, pioneering the 
first fundamentally new advance in coal fired power generation 
in the last 50 years. In our R&D program, we have tested the 
largest, highest pressure ratio utility combustion turbine 
compressor ever built.
    This is a critical component in our advanced turbine 
systems program that will produce a revolutionary ultra clean 
gas turbine in the post-2000 time frame. We have completed 
tests on the first precommercial prototypes of advanced fuel 
cells, and we have moved into the final phase of our low 
emissions boiler system.
    In the era of oil and gas resource R&D, one of the most 
important advances in exploration and production technology has 
been the development of 3-D, our three dimensional seismic 
imaging. Within the last year, a DOE industry co-sponsored 
field test has shown how time can be included in the geologic 
portrait; in effect, adding a fourth dimension to length, 
width, and depth in multidimensional seismic imaging. The 
result, again, is an entirely new way to examine a reservoir 
with fewer wells drilled, less environmental impact, and higher 
finding rates.
    Meanwhile, we have phased out or are phasing out work that 
has become lower priority for a variety of reasons. For 
example, the major technical obstacles of atmospheric fluidized 
bed combustion both for coal and coal waste mixtures have been 
resolved, and our R&D has reached a successful conclusion. On 
the other hand, we are concluding our work in refinery related 
thermodynamics R&D because it offers questionable value to the 
industry. So we are phasing out as well as continuing important 
work.
    And we are managing taxpayer dollars more efficiently. Our 
administrative costs have decreased by more than $22 million 
since fiscal year 1995, and we have reduced our Federal staff 
by 20 percent. We remain on track to complete the privatization 
of the former NIPER facility in Oklahoma, and that will save 
another $25 million over five years. And we have completed, as 
you know, the largest divestiture of Federal property in the 
history of this government earning $3.65 billion for deficit 
reduction through the sale of Elk Hills.
    Mr. Regula. How did that amount compare to your estimates?
    Ms. Godley. It was higher than our estimates. It was double 
CBO's estimates. Looking to the future, with unprecedented 
involvement of universities, national laboratories, industry, 
and other state and Federal agencies, we have developed a long 
term strategic plan that more clearly focuses our work on 
defined goals with measurable outcomes.
    This has brought us to the budget that we are presenting to 
you today. In our fiscal year 1999 budget, we have added 
funding for a new concept we call Vision 21 that builds on our 
existing and our advanced technologies that are already in our 
program. We believe it is technologically possible to develop a 
future energy concept that continues to use coal and yet has 
virtually no environmental impact outside of the footprint of 
the plant, no air emissions, no solid or liquid wastes, and 
potentially with carbon sequestration no net release of 
greenhouse gases.
    We refer to this concept as an energyplex because rather 
than producing just electricity, it can also produce fuels and 
chemicals and process heat for nearby factories, in essence, 
squeezing every usable BTU out of a lump of coal. That would 
represent a true breakthrough, of course, in the way we use our 
most abundant energy resource.
    We have also added funding for an expanded research effort 
in carbon sequestration, believing that if an affordable way 
can be developed to capture and dispose of carbon from fossil 
fuels, it will be much easier to implement a global climate 
change strategy.
    With respect to our oil and gas supply program, one key 
change is the much tighter integration of both oil and gas 
exploration and production technology. We still separate them 
in our budget, but in many respects what we do in one area 
benefits the other.
    There are two new areas though in natural gas research that 
we were proposing for fiscal year 1999. One is an initiative 
recommended by the President's Committee of Advisors on Science 
and Technology, the PCAST report, to resume examining the 
potential for gas hydrates, methane molecules enclosed in an 
ice latticework.
    Some place the size of this resource of methane in this 
resource at 46,000 trillion cubic feet to as much as 400 
million trillion cubic feet. It is an unimaginable resource if 
we can perfect the means of recovering it. That is compared to 
the current estimate of total worldwide gas reserves of just 
under 5,000 trillion cubic feet. The potential of this resource 
is immense, and we believe it warrants a new look.
    The second effort is to try to understand why gas stripper 
wells are being abandoned at an alarming rate, a 45 percent 
increase in abandonments of gas stripper wells between 1995 and 
1996.
    Mr. Regula. Do you think it is the low price of gasoline?
    Ms. Godley. We don't really know what is causing it. That 
is why we are asking for some money. We think prices may have 
had something to do with it, but in the past when prices have 
been that low, that didn't result in these kinds of 
abandonments. So we are trying to look at some of the 
technological reasons for that as well.
    In our strategic petroleum reserve program we have been 
able significantly to reduce the costs by reengineering the way 
we run that program, and, of course, I have already mentioned 
the Naval Petroleum and Oil Shale Reserves.
    So, in short, we are proud of the work we have done, we are 
proud of the work we are doing, and we think our fiscal year 
1999 budget request will help us continue to ensure adequate 
supplies of affordable and clean energy resources for this 
country. Thank you, Mr. Chairman.
    [The information follows:]

[Pages 479 - 499--The official Committee record contains additional material here.]

                               elk hills

    Mr. Regula. Thank you. I have a lot of questions, but we 
will try to get around so everybody gets a chance. What 
happened to the $3.65 billion you got for Elk Hills?
    Ms. Godley. It is dedicated for deficit reduction. We have 
created some reserve funds that reserve monies from the sale to 
use, for example, to cover the California teachers settlement 
requirement. Some of those funds were required to be set aside.
    Mr. Regula. Yes. Since you mention that, is that statutory 
that we have to reimburse the California teachers?
    Ms. Godley. The defense authorization statute for fiscal 
year 1996, which authorized the sale of Elk Hills, also 
required the Department of Energy to enter into settlement 
discussions with the State of California settling an old land 
grant claim that they had for years against the Department. We 
did that in accordance with the statute.
    The statute also required us to set aside funds from the 
proceeds of the sale--up to nine percent of the net proceeds of 
the sale to be set aside in a fund to be able to fund that 
settlement with the California teachers subject to 
appropriations.
    Mr. Regula. Well, is the money there? Because the way it 
looks in the President's budget, we have to take it out of 
parks or out of something else, unless we get a specific 
allocation for it.
    Ms. Godley. I don't know the mechanics of the allocation 
process. I know though that the fiscal year 1996 Act required 
us to set aside money from the proceeds of the sale. We had 
done that.
    Mr. Regula. Where did they put that money they set aside?
    Ms. Godley. It is in a fund at the Treasury. It is set 
aside in a special account at the Department of Treasury.
    Mr. Regula. So we will appropriate it out of a special 
account at the Treasury?
    Ms. Godley. Yes, sir.
    Mr. Regula. So it won't score against our 602(b) 
allocation?
    Ms. Godley. I don't know the scoring rules, sir. I do know 
the money is in an account.
    Mr. Regula. I am just making the record here. Were the 
Tampa and the Nevada plants a result of clean coal technology?
    Ms. Godley. Yes, sir.
    Mr. Regula. Very interesting. I see that you want to sell 
SPR oil again according to your budget request.
    Ms. Godley. No, sir, we are not proposing the sale of SPR 
oil in fiscal----
    Mr. Regula. Are you saying that it will cost less to 
operate it?
    Ms. Godley. It will cost less. We finished the degassing 
effort, and while we are still proceeding on the life extension 
program, it has significantly reduced our budget in this year--
the FY 1999 request versus the cost of the FY 1998 request.
    Mr. Regula. So you do not believe we should sell any more?
    Ms. Godley. We do not believe we should sell more SPR oil.
    Mr. Regula. Do you have an offset that we could use to 
rescind the FY 98 sale?
    Ms. Godley. We have not been successful so far in finding 
an offset, but we are looking.
    Mr. Regula. Keep looking please.
    Ms. Godley. Yes, sir.
    Mr. Regula. Elk Hills--you asked for $22.5 million. This is 
for the Naval Petroleum Reserve at Elk Hills. Why do you need 
money if you sold it?
    Ms. Godley. There are a number of activities ongoing, and 
Elk Hills is part of our contract or purchase and sale 
agreement with Occidental Petroleum, the purchaser of Elk 
Hills. Under our contract, we are still liable for cleaning up 
certain of the environmental issues at Elk Hills after the 
sale.
    Also, we are continuing to resolve--you might recall, we 
sort of tabled our equity issues with Chevron, and in exchange 
for Chevron's agreement not to challenge title to the property, 
letting us get full value for the sale. We still have to finish 
up those equity proceedings as well.
    Mr. Regula. I am just curious. Will Chevron and Occidental 
operate it on a joint venture or joint activity?
    Ms. Godley. They have a unit operating agreement where 
Occidental will run the field on behalf of both owners.

                          carbon sequestration

    Mr. Regula. Just in a ballpark figure, how much of your 
budget request is driven by carbon sequestration or, in effect, 
global climate change? Of course, the Senate is not likely to 
approve the agreement from Kyoto. But aside from that, what 
would you say is allocated to global warming technology in your 
budget request?
    Ms. Godley. With respect to the submission of the Kyoto 
Treaty to the Senate, as you know, the President has said that 
one of the conditions of issuing or submitting that treaty to 
the Senate for ratification consideration is an agreement with 
developing countries that there will be meaningful 
participation by developing countries in that treaty. So until 
that agreement occurs, the President has said that he would not 
submit the treaty to the Senate.
    Mr. Regula. But aside from that, you probably have some 
dollars in here----
    Ms. Godley. We do.
    Mr. Regula [continuing]. That are driven by the policy on 
global climate change, and that is what I am trying to 
ascertain.
    Ms. Godley. Okay. Much of our work, particularly in the 
advanced power generation program, which is there already, has 
a beneficial effect on the emission of greenhouse gases, 
primarily in increasing the efficiency of power generation from 
coal and gas, which is the primary focus of our program. You 
get benefits in the emissions of greenhouse gas. So there are 
multiple benefits. Most of that work is not dedicated solely 
towards greenhouse gas emissions, but it has a beneficial 
effect.
    Mr. Regula. So, it would probably be there with or without 
Kyoto?
    Ms. Godley. That is correct.
    Mr. Regula. It would be just part of an ongoing 
conservation program?
    Ms. Godley. And to, again, increase the efficiency, yes, 
sir, of our power generation plants, as we have been doing all 
along. As you know, our program ultimately is looking at 
creating up to 60 percent efficient coal-fired plants and other 
coal-fired power generation.
    In the area of carbon sequestration, we have had an ongoing 
program for about two years at about the 1.5 to $2 million 
level for the last couple of years looking at different 
techniques of carbon sequestration. We have asked for an 
increase of $10 million in the fiscal year 1999 budget. So that 
program would be about $12 million in fiscal year 1999. That 
work is principally directed towards the greenhouse gas 
emissions effort.

                      strategic petroleum reserve

    Mr. Regula. One last question. On the SPR, do we have a 
commitment to allies in establishing the level of oil we would 
maintain in SPR?
    Ms. Godley. Sure. And if I could add to my carbon 
sequestration answer just for a second, Kyoto Treaty or not, I 
think that this country faces an obligation that the rest of 
the world will give to us and expect us to do something about 
the lowering of greenhouse gas emissions. So I think that that 
work is important regardless of whether the Kyoto Treaty is 
submitted and ratified.
    Mr. Regula. Well, I was in Kyoto, and I found the Chinese 
are very enthused--enthused for us to do it.
    Ms. Godley. Right. And, again, that is part of the 
commitment the President has made with respect to developing 
nations. With respect to the SPR, we are a member of the 
International Energy Agency. All the members of that agency 
have agreed to maintain 90 days' worth of import and net import 
protection to those countries, and we have that commitment as 
well.
    Mr. Regula. What do we have actually have in reserve now?
    Ms. Godley. We have about 70--71 days' worth of protection 
in government stores in the SPR, and there are additional 
stores that we rely on in the private sector. Ithink that we 
have--I am sorry--we have 63 days in the SPR storage today and industry 
has about 66.
    Mr. Regula. So we are meeting our commitment at this point?
    Ms. Godley. We are meeting our commitment. Right. I will 
say though that the United States has taken the lead in trying 
to lead the other countries into maintaining government stores. 
Japan does that, Germany does that, most of the other countries 
rely on their industrial capacity, but those other countries 
also have regulatory requirements that really regulate and 
require by statute or by regulation industry to maintain those 
stores. We do not impose that restriction on our companies.
    Mr. Regula. So they are meeting their obligation one way or 
the other?
    Ms. Godley. That is correct.
    Mr. Regula. Mr. Skaggs.

                          carbon sequestration

    Mr. Skaggs. Thank you. Good afternoon. I wanted to start 
out on a somewhat frivolous semantic point, which is that we 
seem to be at the beginning of the creation of a new term, 
``carbon sequestration,'' which those of us in Washington 
understand, but one I think starts to fade somewhere a couple 
of miles to the west. Would ``carbon capture'' work?
    Ms. Godley. You have to capture it before you can store it. 
So it is sort of a two-step process--capturing the carbon from 
various--for example, for power generation. Once you capture 
the CO<INF>2</INF>, then you have to do something with it. So 
capture is part of sequestration.
    Mr. Skaggs. People might actually understand that term.
    Ms. Godley. Capture and store sort of gets it for me.
    Mr. Skaggs. Okay. I didn't know whether there was, you 
know, a department of terminology within the Department of 
Energy, and we could put in maybe some report language about 
how to make this area accessible to the normal American mind.
    Ms. Godley. You know, they do define Washington on occasion 
as five square miles surrounded by reality so that----
    Mr. Skaggs. Sometimes that's how they define Boulder, 
Colorado, too, but that subject would take all afternoon. I am 
intrigued about this area of research, beside however we talk 
about it. Can you elaborate a little bit on what we think we 
might be able to do by way of carbon capture and storage and 
what particularly promising areas you would anticipate focusing 
some research grant money toward and who is doing it?
    Ms. Godley. Sure, in the Department of Energy, we are 
proposing to do sequestration work in fiscal year 1999--in the 
Office of Energy Research, as well as in the Office of Fossil 
Energy.
    The Office of Energy Research is going to look at the 
fundamental science underlying the idea of capturing carbon and 
sequestering it or storing it or finding somewhere to put it. 
They will study the basic mechanisms of carbon capture and 
sequestration--how is carbon transferred, the science of it, 
what happens chemically to it? So they will be looking at the 
basic stuff.
    The Office of Fossil Energy is going to be looking more at 
the applied research end in three main areas. One is how can we 
enhance natural storage of CO<INF>2</INF>--for example, through 
the trees, through forestry management. I mean, there are 
natural storehouses of carbon. Or increasing, for example, the 
productivity of oceans and algae. Incremental improvements on 
existing technologies would be secondary.
    We currently take CO<INF>2</INF> and inject it into oil 
reservoirs to help increase the productivity of oil. So can we, 
you know, perfect some of those techniques--reservoir 
characterization, injection techniques--to maintain the 
CO<INF>2</INF> in storage. Also ocean disposal is another area 
that has been successfully demonstrated by other countries or 
in other countries, and we are involved in participating in 
some international research on ocean storage of CO<INF>2</INF> 
as well.
    The third area is one that I really am intrigued by, and 
that is the notion of novel concepts. What haven't we thought 
about yet? What are some new ways that we might be able to do 
this? We have already issued a solicitation for that. It is 
sort of like a golden carrot award where we would try to get 
beyond the usual folks who do carbon sequestration work into 
universities, into some laboratories that we might not already 
deal with.
    And we will be issuing some smaller grants up to $50,000 
each and then sort of proceeding through concept development to 
larger projects and larger grants to people who are more and 
more successful. And we are hoping to announce within the next 
couple of weeks the selection of the first round of those novel 
concepts projects.
    Mr. Skaggs. So, carbonating the ocean?
    Ms. Godley. Yes, only it is deep water.
    Mr. Skaggs. Doesn't it bubble out just like it does in----
    Ms. Godley. It is deep water storage or deep water----
    Mr. Skaggs. So at some depth the pressure captures it in a 
more or less permanent way?
    Ms. Godley. Yes, sir.

                               vision 21

    Mr. Skaggs. I wanted to ask about the nonemission power 
plant you were envisioning. Presumably under that hypothetical 
technology, something happens to the carbon, and it is rendered 
nongaseous and used for something else. Again, I am trying to 
get the flavor of what this might involve.
    Ms. Godley. In that case in the Vision 21 concept, and we 
actually have an illustration that might be helpful, Mr. 
Chairman, if I could distribute those. Would you mind?
    Mr. Regula. You mean a picture?
    Ms. Godley. Picture.
    Mr. Regula. Thank you.
    Ms. Godley. This picture really again emphasizes that 
Vision 21 concept is not a new start for the Office of Fossil 
Energy. It is really finding ways to configure the various 
elements of work that are already ongoing into our program to 
realize maximum efficiency and environmental impact.
    This chart shows one possible configuration of these 
component parts. There could be many permutations and 
combinations of these, but it is important, just this as an 
example, to look at what goes in and then what comes out. A 
typical power plant, as you know, uses one type of fuel--coal 
or oil in some cases, nuclear energy and so forth--and produces 
one product--electricity.
    Vision 21 is different in that it would be fuel flexible. 
Coal and biomass might be the fuels as they are shown here. 
Natural gas could be. Waste products and so forth also could be 
fuels for this plant, and it could produce multiple products. 
Electricity would be one. Fuels and chemicals might be another.
    Process heat that could provide heating facilities as well 
would be multiple products that could come out of this, and so 
the input--what goes in and what comes out is sort of a new 
flexible approach. And this approach is an attempt to squeeze 
again every BTU out of whatever is being burned as afuel and 
could result in 80 percent efficiencies for this energy plex, which is 
a lot.
    Mr. Skaggs. I may have misunderstood your characterization 
during your opening statement. I thought that something 
happened to the CO<INF>2</INF> that turned it into another 
product. This is sort of--it is not a black box, but it is an 
orange box on your chart. I mean, it still begs the question of 
what do you do with the CO<INF>2</INF>. Right?
    Ms. Godley. Right. And we don't have a solution to that, 
but our solution at the moment is and the best one that all of 
the minds across the world have come up with again is to 
improve carbon sequestration mechanisms. And that again is what 
is shown at the bottom of this graphic is to find ways to 
capture the CO<INF>2</INF> from the process, and we have ways. 
We would like to perfect those ways and then take the next step 
under our current knowledge of sequestering that 
CO<INF>2</INF>.
    Mr. Skaggs. Well, maybe we can visit sometime. I am just 
interested in what the next chart down here would look like 
that elaborates on what CO<INF>2</INF> sequestration really 
means.
    Ms. Godley. Sure. I would be glad to do that.
    Mr. Regula. Will you yield?
    Mr. Skaggs. Certainly.
    Mr. Regula. Do you have money in here to go from the step 
on CO<INF>2</INF> sequestration to another step?
    Ms. Godley. No, we do not.
    Mr. Regula. And you don't really know at this moment any 
technology that will allow that to happen?
    Ms. Godley. Well, the step that is here that we have asked 
for about $12 million of funding for in FY 1999 is the 
sequestration piece itself.
    Mr. Regula. Okay. So you hope to develop the ability to 
deal with that?
    Ms. Godley. Yes.
    Mr. Regula. Thank you.
    Ms. Godley. I misunderstood your question.
    Mr. Skaggs. I mean, I understand that we don't know yet, 
and we are trying to find out. But I just wanted to get as much 
of a flavor as I could, and I infer that if we can make 
something like this work, it has huge potential for dealing 
with our Kyoto obligations if we ever assume them?
    Ms. Godley. That is right.

                               fuel cells

    Mr. Skaggs. Just a question or two on fuel cells. I assume 
that a hunk of the fuel cell money would be going toward 
vehicle application, but I just wanted to again ask you to 
elaborate a little bit on where we are in R&D on fuel cells and 
what seems to be the most likely applications that are really 
going to be seen in the market anytime soon?
    Ms. Godley. Yes. The Department has really two related and 
coordinated but separate fuel cell programs. The one that is 
pursued in my office, the Office of Fossil Energy, is fuel 
cells directed towards power generation applications. The 
Office of Energy Efficiency, the Assistant Secretary Dan 
Reicher will be testifying shortly, is developing the fuel cell 
for mobile applications. So that is how the two programs are 
divided.
    Our program again had some very successful demonstrations 
of both the molten carbonate fuel cell and solid oxide fuel 
cells technologies in the last year, and we are proceeding with 
that program--the development of the concepts demonstration.
    Mr. Skaggs. Is there any cost in internal research 
efficiency and having this split between two different outfits 
of the Department?
    Ms. Godley. It is one of the programs that we successfully 
coordinate. One of the efforts that Undersecretary Moniz has 
enhanced since he has been at the Department, which is not 
directly related to the fuel cell program, is the 
revitalization of the R&D Council within the Department of 
Energy. This includes energy research, nuclear energy, energy 
efficiency, and fossil energy and renewable energy. Assistant 
Secretaries sit together and do joint planning of the R&D 
program and look for ways of enhancing our work together.
    So, for example, we are developing a power generation 
roadmap--technology roadmap that involves energy research, 
nuclear energy, fossil energy, and energy efficiency, which 
brings together all of our work towards attaining, the perfect 
power plant of the future.
    And so we are coordinating through that effort, but our 
offices--Dan's and my office already have designed and are 
implementing that program, and we get the benefits of each 
other's research applied to different activities.
    Mr. Skaggs. Do you Fusion in the fossil area snicker at the 
prospects of fusion, or do you take it seriously?
    Ms. Godley. We take it seriously.
    Mr. Skaggs. Thank you, Mr. Chairman.
    Mr. Regula. Mr. Wamp.

           investments in fossil energy us energy efficiency

    Mr. Wamp. Thank you. Again, I would like to commend Mr. 
Skaggs on his intellect. He is up on the issues, and we are 
going to miss him. I always wondered what I would look like 
wearing a bow tie, and I never had the courage to try.
    Mr. Regula. Why don't you loan him one?
    Mr. Skaggs. I will bring you one, Zach.
    Mr. Wamp. I still don't have the courage to try, but you 
look good. Thanks for coming. I was trying to lighten this up. 
And I have a real dilemma that I want to share with you because 
I figured if I served long enough, I would run into a conflict, 
and Loretta knows what my conflict is.
    I don't know whether you know, but I represent the Oak 
Ridge National Laboratory, which is very professional at energy 
research and energy conservation, renewables. I also am the 
Chairman of the TVA caucus, and the Tennessee Valley Authority 
is about 60 percent reliant, 8 million customers, on fossil 
power production. So you end up in a real conflict.
    I also represent Chattanooga, Tennessee, which may be the 
best example but certainly one of the best examples in the 
nation of sustainability and zeroing out our waste and building 
emissionless vehicles and now exporting those vehicles and 
working towards energy efficiency.
    I have all these different forces all in the same district, 
and I have people at the Oak Ridge National Laboratory that are 
working on energy conservation, and I have the difficult task 
of making sure that while they are working on that, the lights 
don't go out, and that is a real problem.
    If Kyoto survived, that would be a real problem for our 
Valley and for the region because of fossil. I have to try to 
work through this, and I raise that dilemma that I have because 
I have these conpeting interest in my district I have the UT 
Space Institute wanting to work on Vision 21. I have people at 
the lab wanting to work on pieces of Kyoto before the treaty is 
ever signed, and I want to support those people, but I also 
don't want to get the cart before the horse to the point that 
it paralyzes the ratepayers in a seven-state region that 
arehighly reliant on fossil power production.
    As a matter of fact, the Kingston steam plant in my 
district powered the entire Oak Ridge complex out of one coal-
fired plant all through the Manhattan Project. At one time I 
think they generated 10 percent of the nation's power on a 
given day out of one facility coal-fired. Now, that is a lot of 
power.
    I raise that because I am going to have a hard time 
sleeping at night as we try to work through this because I have 
all these interests among my 600,000 constituents, and requests 
come left and right from both sides now. I raise that dilemma 
because I hope to sit at this committee for the next nine years 
and work through this.
    So I throw that out, Dan and Patricia, Mr. Chairman, 
Loretta, everyone, because I might have the laboratory under my 
nose about how we are going to deal with this. Because I have a 
hunch that, like you talked about, Mr. Chairman, that even 
without Kyoto, you all are marching down this road.
    I would like to know a little more about what is after 
Vision 21, what is after this initial investment? My 
constituents are wanting to participate, but I have to look a 
little bit at the bigger picture and say where are we going, 
how much is that going to cost, and what is it going to 
actually do?
    Because if we are going to ultimately end up in a box or 
painted into a corner and we are going to reduce fossil 
emissions to the point that we are going to have to rely on 
wind or sun and the technology is not there and the production 
is not there and we have shortages or we have higher rates, I 
have actually worked to hurt the very people that I am trying 
to help without meaning to. That is the dilemma in a simple 
east Tennessee explanation of where I am at. So kind of help me 
right now start that process.
    Ms. Godley. The dilemma that you described for your 
district is really a challenge for the nation. I think that 
when you think about we rely in this country--58 percent of our 
electric power generated in this country is generated by coal. 
Another opportunity that lies in that is we have more proven 
reserves of coal in this country than the rest of the world has 
proven reserves of oil. So there is an opportunity for us 
there, as well as an economic challenge.
    But I think that the investment that we are proposing in 
fossil energy, as well as the energy efficiency programs, 
recognize that we have to have a balance of energy resources, 
as well as balancing our energy production--that we use our 
energy supply together with decreasing our demand for energy--
our energy efficiency efforts. So I think that the 
Administration's strategy on climate change and on energy 
security and on continuing to grow the economy is a balance.
    The President's commitment is to invest additional money 
both directly in research through the Federal agencies, as well 
as to create tax incentives for the development of technology. 
You know, we are really betting on technology to be able to get 
us there, as well as voluntary actions by industries across the 
board to help us get there.
    But technology really is going to be the key we believe, 
and sequestration is one of the very technologies that will 
help us continue to use fossil fuels and continue to use them 
in an affordable way so that we are not hurting the economy of 
your district or other areas of this nation. So it is a 
balance. It is one that we sort of have to feel our way through 
as we go along. We will continue to evaluate the impact of the 
penetration of these technologies as we, move towards 2010, 
2012, and the time frame for Kyoto.
    Mr. Wamp. Well, I hope that your goal, and I think or I 
would like to believe that your goal is to stimulate the 
technologies as quickly as possible so that we don't have to 
regulate, globally or domestically, our way out of this 
problem.
    I think that is a grave concern of a lot of members from 
both sides of the aisle here in the Congress so that we don't 
end up regulating ourself out of this dilemma, but we actually 
work our way through it with the advancement of technologies. I 
think we are going to need to say that every time we get 
together and make sure that there is not an agenda to regulate 
or ration down fossil power production. I am concerned about 
that, Mr. Chairman.
    Mr. Regula. I might point out to you, Mr. Wamp, and I am 
going to quote from the Secretary's statement--this is a direct 
quote, ``By 2020, unless energy growth slows significantly, the 
United States could be consuming almost one-third more total 
energy than it did in 1995. Fossil fuels will supply the 
largest portion of this additional demand.''
    So you are saying this is where it is, and we have this 
huge supply. I think the Tampa or the Nevada demonstrations are 
the answer. I would like for you to see that Tampa plant, Mr. 
Wamp. They can use high sulphur coal. They get the sulphur out 
of it. It is really state of the art, and I was not saying 
facetiously they get everything but the squeal out of that lump 
of coal.
    Mr. Wamp. This is my second year. I was waiting for you to 
invite me on a trip.
    Mr. Regula. Well, we will wait until it is wintertime to 
go.
    Mr. Wamp. Thank you, Mr. Chairman.
    Mr. Regula. But really you would find that Tampa technology 
absolutely fascinating, and depending on your lifestyle, we 
could go to Nevada now that you are secretary.
    Mr. Wamp. I am a Baptist, Mr. Chairman.
    Mr. Regula. Mr. Skaggs, any more questions? We have a lot 
ofquestions, but because of time constraints, we will submit 
them for the record, and I am sure some of the other members will have 
questions also.
    Ms. Godley. Thank you.
    [The following questions and answers were submitted for the 
record:]

[Pages 509 - 578--The official Committee record contains additional material here.]








=======================================================================

                          Department of Energy

            Office of Energy Efficiency and Renewable Energy

=======================================================================









                                          Thursday, March 26, 1998.

                          DEPARTMENT OF ENERGY

            OFFICE OF ENERGY EFFICIENCY AND RENEWABLE ENERGY

                                WITNESS

DAN W. REICHER, ASSISTANT SECRETARY FOR ENERGY EFFICIENCY AND RENEWABLE 
    ENERGY

[Page 582--The official Committee record contains additional material here.]


                            Opening Remarks

    Mr. Regula. Thank you. Okay. Now, we go to the Department 
of Energy, Energy Efficiency, Mr. Reicher, Assistant Secretary 
for Energy Efficiency and Renewable Energy. Mr. Reicher, your 
statement will be made part of the record. We will appreciate 
it if you would summarize.
    Mr. Reicher. Mr. Chairman, Mr. Skaggs, Mr. Wamp, I very 
much appreciate the opportunity to appear before you today. 
This is my first time testifying on our budget request. Mr. 
Chairman, there is often a tendency to view energy efficiency 
as somehow different from our traditional energy investments as 
some green alternative to the real business of energy.
    Given that over 90 percent of the energy we consume today 
comes from fossil fuel and nuclear fuel, we must use these 
sources as efficiently as possible. In responding to Mr. Wamp, 
the investments we make in energy efficiency do not simply save 
energy, they represent one of the best public investments we 
can make to ensure the productivity and competitiveness of our 
economy, and one of the cheapest, least intrusive ways of 
accomplishing our environmental objectives.
    Mr. Chairman, there is also an unfortunate view of some 
that taxpayer investments in energy conservation programs have 
produced few public benefits. In fact, I can state confidently 
that the $5 billion appropriated by this subcommittee over the 
past 15 years has generated tens of billions of dollars in 
consumer and industry savings, as well as reduce pollution and 
dependence on foreign oil.
    Let me highlight a few key components of our FY 1999 budget 
request. In industrial technologies, our increased request 
supports ongoing R&D that will build on remarkable achievements 
in enhancing energy efficiency and resource efficiency in a 
number of energy-intensive industries.
    Just last month, the Department entered into a new R&D 
partnership with the agriculture industry to use crops like 
corn and soybeans instead of oil to make everyday consumer 
items ranging from paints and plastics to carpets and car 
parts. The mining industry, which consumes about three percent 
of industrial energy and produces about 11 percent of all 
industrial wastes, has asked us to initiate collaborative R&D 
in fiscal year 1999.
    We are also successfully developing advanced turbine 
systems for industry that are nearly 50 percent more efficient 
than current stock with 80 percent lower nitrogen oxide 
emissions. We will also launch an effort to help exploit a 
monumental inefficiency in our economy. The average American 
power plant burns three units of fuel to produceonly one unit 
of electricity. The wasted heat energy equals the total amount of 
energy Japan uses each year. Your funding of our combined heat and 
power activities will help us turn this waste into productive energy 
and cost savings.
    In transportation, we request additional funds to expand 
cost-shared R&D on advanced technologies and accelerate 
deployment with state and local partners. As you know, in 
January, Chrysler, Ford, and GM unveiled innovative fuel 
efficient concept vehicles which have resulted in large measure 
from the Partnership for a New Generation of Vehicles, which 
this subcommittee has funded.
    As representatives of the big three automakers recently 
wrote to the subcommittee, ``While these new concepts are 
impressive, significant additional technology breakthroughs and 
advancements will be required to achieve the ambitious PNGV 
goals,'' Mr. Chairman, if we were to pull back our support for 
PNGV at this time, we could lose the unprecedented global race 
to produce the clean car of the next century.
    We will also work with industry to develop efficient diesel 
engines for pickups, vans, and sport utility vehicles to raise 
by at least 35 percent the efficiency of these immensely 
popular vehicles whose 1998 sales are actually expected to 
exceed those of passenger cars.
    In building technology state and community programs, we 
request additional funds for technology R&D to help us reach 
our 2010 goal of improving the energy efficiency of new homes 
by 50 percent, new commercial buildings by 30 to 50 percent, 
and existing buildings by 20 percent.
    We recognize that our efforts in the buildings area have 
sometimes been fragmented and unfocused. But we are making 
progress through strategic planning and reorganization to build 
an effective organization and R&D program that supports the 
most promising technologies.
    In fiscal year 1999, we will work with the building 
industry to incorporate energy efficiency technologies and 
principles in five new 200-home Building America communities. 
We will also add 85 new Rebuild America partnerships in states 
and localities across the country to facilitate the deployment 
of energy efficiency technologies in existing commercial 
buildings.
    We will also weatherize more than 78,000 homes, reducing 
energy costs for low income and elderly citizens while 
enhancing local environmental quality and increasing jobs. And 
we will work with states to coordinate R&D efforts and support 
their energy priorities through highly leveraged energy 
efficiency projects.
    With an FY 1999 budget request of $34 million, the Federal 
Energy Management Program will continue to lead the Federal 
Government's efforts to reduce its $8 billion energy bill by 
improving energy efficiency by 30 percent by 2005 relative to 
1985.
    The Federal Energy Management Program has developed broad 
streamlined Super Energy Savings Performance Contracts that 
allow energy improvements without up-front expenditure of 
taxpayer dollars. This innovative approach will attract up to 
$5 billion in private capital investments and cause a 
revolution in energy efficiency investments in scores of 
Federal agencies.
    However, we need additional dollars to manage these 
contracts effectively and provide technical assistance and 
training so that Federal agencies can seize this opportunity 
and generate enormous savings. With an increased level of 
effort, we expect reimbursements to DOE from other agencies to 
rise significantly after fiscal year 1999 and our budget 
requirements to decrease in subsequent years.
    Mr. Chairman, we have not been successful to date in 
increasing various agency budgets for Federal energy 
management. Our private sector approach is indeed our last best 
hope for bringing down Federal energy costs. I can't stress 
enough that this is a fiscally wise investment that costs a 
little bit more now but will save taxpayers billions of dollars 
down the road.
    Finally, Mr. Chairman, I recognize that we must put our 
financial house in better order. We are increasing the level of 
competition in selecting contractors. We are also looking 
carefully at our noncompetitive grants and contracts. We are 
focusing closely on program evaluation and terminating projects 
that have reached their goals or don't measure up.
    To cite a few examples, we are concluding our research on 
flywheels, ultracapacitors, and gas turbines for vehicles. With 
your support, we are also better coordinating our research with 
state energy R&D programs. Just three weeks ago, we signed an 
agreement with the California Energy Commission to increase R&D 
co-funding and decrease duplication.
    We are also expanding our collaboration with other DOE 
programs, including fossil energy, energy research, and nuclear 
energy. Furthermore, we are developing a clearer budget and a 
more open budgeting process. Thank you again, Mr. Chairman, and 
members of the subcommittee for the opportunity to discuss this 
budget.
    [The information follows:]

[Pages 586 - 592--The official Committee record contains additional material here.]

                  climate change technology initiative

    Mr. Regula. Thank you. Let me say up front here I notice 
you have a 32 percent increase, which, frankly, is not reality. 
We are going to have to go back to you and say we want to know 
your priorities, given much less of an increase than that. It 
is just the facts of life. The President requested $1.1 billion 
above our FY '98 enacted bill, but that is like saying he 
requested zero for Bosnia, which he did. Well, Bosnia has got 
to be paid for. And so everything is going to have to give.
    And maybe while we are going around here with questions, 
you can have somebody on your team calculate what portion of 
your budget is driven by global climate change? I am sure a 
substantial number of the increases are a result of that, and 
maybe you know already.
    Mr. Reicher. In the President's budget, we have identified 
about $160 million in the Interior account of our budget as 
part of the climate change.
    Mr. Regula. 160----
    Mr. Reicher. Million.
    Mr. Regula. Million?
    Mr. Reicher. As part of the Climate Change Technology 
Initiative. What I would say though to echo what Patricia 
Godley said earlier is that much of what we do in this program 
responds to not only climate but energy security, economic 
competitiveness, dealing with traditional air pollutants. So it 
is quite hard to sort out of thisbudget what response to 
climate considerations.
    As you know, the carbon dioxide emissions very much track 
energy use so the more efficient we become, the less we 
produce. And, therefore, this whole budget in many ways is 
focused on, as you know, energy efficiency and, therefore, has 
those benefits.

                reorganization of the buildings program

    Mr. Regula. I see in your buildings program you have a lot 
of increases. I am not sure this is consistent with our attempt 
to consolidate and manage programs better. Would you want to 
address that?
    Mr. Reicher. Yes, I would. Two things, Mr. Chairman. We are 
reorganizing the buildings program through a strategic plan, 
which we owe you, and we are working on it diligently. We have, 
for example, in the interim put a single manager in charge of 
all of our R&D in the buildings area instead of the split we 
had earlier. We are decreasing the number of small, little 
areas of inquiry and trying to consolidate and get much more 
efficient in what we do.
    The second thing I would say though is I think we are 
really having an impact on buildings overall and their 
efficiency, and if I could just point this out, this is an ad 
we just saw in a newspaper out in Nevada selling a new housing 
development, the most energy efficient new homes in Las Vegas. 
No pie in the sky gimmick here. These homes are the result of a 
professional program sponsored by the United States Department 
of Energy.
    And, interestingly, it goes on to point out that these 
homes are so well built and insulated that they don't need 
furnaces. And that is a partnership that we have developed with 
the building industry to build homes like that all over the 
country. Let me emphasize, we are not paying for the 
construction of the homes. What we are paying for is moving 
that R&D work that we have been doing for so long into real 
use.
    Mr. Regula. That is available to any home builder?
    Mr. Reicher. That is available but having homebuilders make 
that transition into using these advanced technologies is not a 
simple thing.
    Mr. Regula. If I were a homebuilder, could I use the 
Internet to find out techniques that you have developed through 
your research to make those houses more efficient?
    Mr. Reicher. Some of this is available on the Internet. We 
are trying to make more of it, but, Mr. Chairman, what I would 
say is that there is a great deal of technological work that 
needs to be done to move a homebuilder that might, you know, 
have a staff of five or ten and is very stretched to the limits 
in building houses. To make the decision to take that step into 
these higher technology areas, it is not a simple transition. 
And what we are trying to do is make it simpler for people by 
pioneering these activities.
    Mr. Regula. Do you have any idea of what the additional 
costs per square foot on those houses would be as a result of 
achieving their efficiency?
    Mr. Reicher. Well, let me put it this way. I can get you 
the actual up-front difference, and it is relatively small. But 
what we can say in a large number of cases is that the life 
cycle costs--when you look at the cost to buy it and the cost 
to operate it nets out at zero or less, and, in fact, I was 
handed a page that says zero in terms of the up-front costs.
    But the most important thing I think is the life cycle 
costs that we are looking at, and you can dramatically reduce 
those operating costs, and, for example, as I said, eliminate 
the need for a furnace, which is a big savings in building a 
house.
    Mr. Regula. Do you think you are using the Internet 
effectively to get the information you develop available to the 
public?
    Mr. Reicher. We are using the Internet, we are using 
software, a whole host of things in a very aggressive way to 
move our information out into the public. This is something in 
our industries program. It is a CD-ROM. There was so much 
information available that it was actually difficult to just 
use the Internet, and so we have made this available in a CD-
ROM format. And this charts thousands of projects that we have 
been engaged in with industry looking at efficiency of 
industrial energy use.
    Mr. Regula. Are you working closely with the states and/or 
local communities on building standards?
    Mr. Reicher. Yes. We have a well-developed program in that 
area to work with states in developing their own energy codes, 
and we are trying to move the use of those codes out into a 
larger number of states than we have been doing over the past 
few years. But I think it is something that the states are 
finding very beneficial and we are pushing hard.

                           fuel cell research

    Mr. Regula. Last question. The Japanese are currently 
producing a fuel cell car, and each of the automakers has 
announced work they are doing in this area. Why do you think we 
need to be spending more on fuel cell research if there appear 
to be breakthroughs by the private sector?
    Mr. Reicher. Mr. Chairman, as I said in my opening 
statement, we are in a real race with other countries. And I 
think to win that race on fuel cells, it is going to take joint 
industry-government work. We bring to the table through the 
government, through the national labs, for example, a great 
deal of expertise that, frankly, industry wants to make use of.
    Secondly, there are speculative investments in some areas 
of fuel cell research that, frankly, companies are not often 
able or willing to make. And just as is the case with some of 
our competitors, government and industry gets together to make 
sure that the whole package of investments is there so that we 
can, in fact, win this race.
    Mr. Regula. Where does your fuel cell research fit with 
what Pat Godley was talking about?
    Mr. Reicher. Our fuel cell research, first of all, as she 
said, is focused on developing fuel cells with industry for 
automobiles. We are also spending some of our money looking at 
developing fuel cells for use in industrial and residential 
applications as well.
    There is rapid progress being made, for example, in the use 
of fuel cells actually in homes, and there are fuel cells being 
used today in commercial buildings to power commercial 
buildings. And so we are focusing some of our efforts on those 
as well.
    In fact, just to add a point, I think that because it is a 
simpler approach, we will see a much more rapid implementation 
of fuel cells in stationary sources like commercial buildings 
and homes, and we will in vehicles. The vehicles are going to 
take longer, and it is going to take more money to get us 
there.
    Mr. Regula. I read recently the Wall Street Journal or the 
Los Angeles Times--I think it was in the Wall Street Journal 
too that the carmakers are the new greens, and here is Ford 
spending $420 million; a boost forfuel cells. And, of course, 
they have European carmakers involved with them. Do you think that with 
their investment public funding is still required in this development 
process?
    Mr. Reicher. I do, Mr. Chairman, just to make two quick 
points. One, as I said, the labs are essential to this work, 
for example, at Los Alamos, work at Oak Ridge focused on 
materials. There is a great deal of effort going on in the 
laboratories that industry needs. Industry tells us they don't 
have the capabilities in certain areas that we can bring to the 
table. That is number 1.
    Number 2, I just want to make sure you know that we are not 
spending these dollars directly on Chrysler, GM, and Ford. What 
we are doing is this money is going out to build an 
infrastructure across the United States for all the components 
and all the capabilities that it is going to take to really 
have an industry based on fuel cells. So these are component 
manufacturers. These are the integrators of those components. 
These are people who are testing the overall systems.
    We have to develop, just like we have in other parts of the 
energy world, an entire infrastructure in this country if we 
are going to be producing fuel cells in the hundreds of 
thousands unit bases that we are going to need to use them in 
vehicles and in homes and commercial buildings.
    Mr. Regula. Is there any motor vehicle using a fuel cell 
commercially at this point?
    Mr. Reicher. Yes. I am aware of a couple of experimental 
larger vehicles. I think they are buses that are operating on 
fuel cells today.
    Mr. Regula. Are there stationary applications for fuel 
cells that are commercial?
    Mr. Reicher. Yes. There are stationary applications that 
are being used by hospitals. They are being used by commercial 
buildings. They are being manufactured at a couple of companies 
around the country. And so they are in use, and we are, 
frankly, learning a lot from those actual applications.
    Mr. Regula. Do you think you are at the point where a 
decision could be made as to which kind of technology is the 
most efficient because there are different ways to do this?
    Mr. Reicher. That is a good----
    Mr. Regula. You might want to answer for the record.
    Mr. Reicher. I would like to answer for the record, but 
what I would say is that the technology of choice I believe 
very much depends on the application. When you are onboard a 
car with those constraints, you may end up with something that 
looks different from what you need if you are powering a 
hospital.
    [The information follows:]

                      Fuel Cell Technology Choice

    The fuel cell technology of choice depends very much on the 
application requirements and not on a comparison of 
efficiencies. Within the Department of Energy, the Office of 
Fossil Energy (FE) is supporting development of fuel cells for 
large stationary and industrial applications and the Office of 
Energy Efficiency and Renewable Energy (EERE) is supporting 
fuel cells for small stationary and transportation 
applications.
    The technology of choice for automotive and most other 
highway vehicle transportation applications is clearly the 
proton exchange membrane (PEM) type of fuel cell. In comparison 
with other fuel types, PEM fuel cell technology is selected 
because: low temperature (60-80 +C) operation allows faster 
startup and therefore minimal energy consumed during startup; 
high power density (1,000 watts/liter) allows it to fit the 
limited under-hood space available; inherent modular design 
makes it well suited for the size needed for automotive 
application (about 50 Kilowatts); and cost projections by 
automakers show that PEM fuel cells can potentially meet 
automotive targets (less than $50/Kilowatt).
    Due to the potential of very low cost for PEM fuel cells, 
they are now being considered for small stationary applications 
such as residential, small commercial buildings, and remote 
power. Within EERE, we have initiated an effort to integrate 
the PEM development activities among the transportation, 
buildings, and utility end-use sectors. We are also 
coordinating our PEM development efforts with other government 
agencies which are sponsoring development or demonstration 
activities. EERE is not currently developing any other fuel 
cell types.
    While we have focused our fuel cell development only on PEM 
fuel cells, progress and potential opportunities in other types 
of fuel cells are continually monitored. Under FE, high 
temperature (650-1,000 +C) molten carbonate and solid oxide 
fuel cells for very large (over 1,000 kilowatt) stationary and 
industrial applications are being demonstrated. The cost target 
for these applications is $1,000/Kilowatt. Unlike automotive, 
these applications do not require frequent start-up and shut-
down. Therefore, high temperature is desirable so that the high 
quality steam produced can be used for process heat and for 
driving turbines, leading to very high efficiencies. The low 
temperature PEM fuel cell, which is the right choice for 
transportation applications, is not best suited for these very 
large applications.

                           fuel cell vehicles

    Mr. Regula. Mr. Skaggs.
    Mr. Skaggs. Thank you, Mr. Chairman. Good afternoon, Mr. 
Reicher. You don't have any bad terminology lurking in your 
bureau, do you?
    Mr. Reicher. I will try not to, but we are the Department 
of Energy.

                   federal energy management program

    Mr. Skaggs. I was intrigued at what I sensed was some 
frustration on your part in getting your sister departments to 
take the energy management program opportunity seriously. What 
can we do to help on that? Should we try to get some kind of 
language into the GSA, the Treasury Postal bill, or it may be 
the Chairman and I could team up and get some kind of report 
language into all of the appropriations bills that would be a 
little nudge?
    Mr. Reicher. Mr. Skaggs, I think a nudge would be helpful, 
but I think we have a different approach that is going to 
leverage the private sector funds if we can find the small 
dollars we need to run this new approach. And let me step back 
and try to answer your question more broadly and then get to 
some specifics.
    We are, in fact, today, throwing away on the order of $800 
million to a billion in easily recoverable energy savings. And 
if you look at what that represents to a taxpayer, that is 
about 200,000 taxpayers' worth of their tax dollars at an 
average bill of $5,000. That is a lot of money that we are 
throwing away.
    We have not succeeded, as I said, in getting agencies to 
come up with the Federal dollars to make the improvements to 
the 500,000 Federal buildings to get at this problem. So we 
have said let us find a different way to do this. And what we 
have basically said and what we have put into place is a 
competitive process where energy service companies who are in 
the business of going into buildings, doing audits, making 
their own investments in the upgrades, and then sharing in the 
resulting savings with us.
    Our move is in that direction to energy service companies 
through something with the ponderous name of Energy Savings 
Performance Contracts. We will have put on the street by the 
end of this year $5 billion in contracting authority for 
Federal building managers. What we need a little more of this 
year is the money to run those programs.
    Just in the last six months, we now have 60 projects in 
various stages of the pipeline in the western region where we 
have put the first of these energy savings solicitations out--
60 projects in the pipeline which is far more projects than we 
have had in years using this technique. So we are very excited 
about it.
    The other thing I want to stress is that if you give us the 
money this year, we will be reimbursed by the agencies that 
avail themselves of our service for our work. And so over time, 
and we are willing to provide you with a chart that 
demonstrates this, our requests for you will go down.
    Let me provide something to you right now. And if we could 
pull up the board, you will see on the top, the top chart is 
the cumulative savings in billions of dollars that we project 
beginning in FY 1999 through an aggressive implementation of 
these energy savings performance contracts.
    This is in millions of dollars. This is our budget which I 
say if we fund it adequately this year, we will see a dropoff 
in what we need as a result of the recovered funds we get from 
reimbursements. So we think it is a very smart approach to 
saving a lot of taxpayer dollars, and I do feel strongly about 
it.
    Mr. Skaggs. You should. So you don't need us to be 
prodding?
    Mr. Reicher. I think prodding would help, Mr. Skaggs, very 
much.
    Mr. Skaggs. Is everybody's favorite landlord, the General 
Services Administration, the best proddee?
    Mr. Reicher. It really should be directed at many agencies. 
These projects we have----
    Mr. Skaggs. Why don't you give us an address list and----
    Mr. Reicher. I will do that. With these 60 projects, we 
have the Interior Department, the Labor Department. We have GSA 
and EPA all coming in through this new process saying we want 
to sign up to this program, but we need the people, we need the 
small amount of dollars so we can administer this contracting 
process.
    Mr. Skaggs. Have your people come up to look at the Capitol 
and our office buildings and what we might do here in the 
neighborhood?
    Mr. Reicher. We have actually gotten a request to help with 
that and we plan to.
    Mr. Skaggs. So maybe we should put something in the 
legislative branch appropriations bill too?
    Mr. Reicher. We would welcome it. We would like to help 
with Federal buildings of all sorts.
    Mr. Regula. If you will yield?
    Mr. Skaggs. Yes, sir.
    Mr. Regula. Do you contract with private groups like the 
labs in Tennessee to do this work on your behalf, or do you do 
it with in-house people?
    Mr. Reicher. The work that we do to administer this program 
using the big private sector dollars is a combination I believe 
of our Federal employees with some contractor support. I 
believe that is the case, and we will get a specific answer to 
that for the record.
    Mr. Regula. The staff is nodding yes. Okay.
    Mr. Skaggs. I think you have already covered your 
perspective on the quality of coordination that goes on between 
your fuel cell program and your colleagues, so I don't want to 
cover that again. As I did when the Secretary was in a few 
weeks ago, I just wanted for the record to flip the coin over 
and suggest that even though, yes, you are asking for a huge 
percentage increase over fiscal 1998, even if you got it, we 
would be at X percent in inflation-adjusted investment of the 
1980-81 period--I think was probably the highest in your area. 
But what is X? Thirds or half or----
    Mr. Reicher. Mr. Skaggs, it is in that neighborhood. There 
were substantially higher budgets for these activities in the 
early to mid-1980s, and we can provide you with a chart that 
illuminates that. Oh, I am told it is about one-third of what 
it was. So it is substantially less.
    [The information follows:]

[Page 599--The official Committee record contains additional material here.]


                  energy efficiency at u.s. embassies

    Mr. Skaggs. I just wanted to take a second to put in a 
plug. Mr. Chairman, in our other subcommittee, Commerce, 
Justice, State, we had the Undersecretary of State for 
Administration and some of her folks in a couple of weeks ago. 
I don't know whether you were there at the time, Ralph.
    Evidently, there is some effort now underway to have at our 
consulates and embassies demonstration applications of our 
energy conservation and solar technology, which is something 
that has intrigued me for many, many years, and this is 
centered between you and the Department of Commerce and the 
Department of State. You are nodding enthusiastically here.
    Mr. Reicher. Yes.
    Mr. Skaggs. What have we done and what more can we do to 
both do the right thing by efficient operation of our posts 
overseas and also promote American technology?
    Mr. Reicher. Well, there is an opportunity to do both to a 
very large extent, and we have been working with the State 
Department to actually, number 1, using an approach similar to 
these Energy Savings Performance Contracts find ways to get 
some private sector investments in these foreign embassies so 
they can upgrade their energy technologies and save money. And, 
secondly, there is a great deal of interest in the embassies of 
demonstrating both renewable and efficient technologies, and 
that is moving along.

              industries of the future-laboratory funding

    Mr. Skaggs. One final question if I can, Mr. Chairman. I am 
told that in the Industries of the Future Program that 
laboratory funding is zeroed out and that the labs can't bid on 
the competitive solicitation, which I guess maybe makes sense, 
but I am just wondering if you would explain to us what the 
rationale and the cost of that might be?
    Mr. Reicher. Let me tell you what I think is the case 
today, and that is that labs can, in fact, participate as 
subcontractors to a prime contractor bidding for work in the 
Industries of the Future Program. And what I understand is that 
unlike perhaps in the past where the money would flow through 
the prime contractor to the subcontractor, in the new situation 
the money would flow directly to the lab. But as I understand, 
we are now in a position where labs can, in fact, participate 
as subcontractors.
    Mr. Skaggs. So if they are, as is many times the case, the 
unique repository of talent that needs to work on these things, 
they can get into the act?
    Mr. Reicher. As I understand, they can team up and make a 
bid in the Industries of the Future Program.
    Mr. Skaggs. Mr. Chairman, if I could put a couple of 
questions in for the record, and with apologies I have got 
another hearing so please excuse me. Thank you, Mr. Reicher.
    Mr. Reicher. Thank you, Mr. Skaggs.
    Mr. Regula. Mr. Wamp.
    Mr. Wamp. Thank you, Mr. Chairman. Mr. Assistant Secretary, 
I want to thank you for your responsiveness to the problems 
that I have brought to you in my district, some of which I have 
already identified today. I guess the average family probably 
spends more on taxes, their house, and their transportation, 
their cars, than any three things.
    I was just thinking about that. I still have small children 
so education is not yet up there. I know it is going to be at 
some point, but those three issues, and we are trying to cut 
down on the cost of energy for your homes and your cars and all 
transportation. And you know I have got interest in each of 
those, and I am going to leave the cars on the side for a 
second and talk about the houses.

                      energy efficiency in housing

    The Chairman said we are obviously not going to be able to 
meet your budget request and for you to try to set your 
priorities. In every committee I have served on in just the few 
years I have been here, you can't ever get anybody to say I 
would rather have this than that. They just don't do that. It 
has got to have it all.
    But can you tell us where you get the most bang for your 
buck in energy efficiency programs and energy conservation 
programs for the outside of the house? I think maybe a lot of 
energy loss is a problem for poor people that at this point may 
not have that ability to overcome this Government housing, 
public housing--energy loss must be tremendous there.
    Address that and then come into the house and tell me what 
you think about accelerated replacement programs for appliances 
where technology is creating a much more efficient appliance 
because sometimes DOE is the enemy of manufacturers.
    But sometimes DOE might be the friend of manufacturers 
because through the Accelerator Replacement Program, you 
actually might be able to finally be the friend of 
manufacturers who are making a much more efficient product. So 
the Chairman and I both have an interest in that, and if you 
could take us on the outside of the home and then come inside 
the home.
    Mr. Reicher. First of all, Mr. Wamp, I think the average 
homeowner spends about $1,300 a year overall in energy costs to 
run a house. So it is not insignificant, and that is not 
including what one spends to power a car. So there is a real 
opportunity there to save some real money for people.
    Looking at a house, there are just a terrific number of 
things one can do. Many of those off-the-shelf technologies, 
not exotic technologies, that are available today, and, in 
fact, I guess we have got one here--one of the best is windows, 
and these are windows that more and more are going into homes 
and through something we call our Energy Star Program we are 
able to make more and more people simply aware of what are the 
more efficient windows when you go to purchase them. So this is 
a great way to relatively cost effectively to improve.
    Insulation is one of the simplest, whether it is in an 
expensive house or the home of a poorer person that we might 
weatherize. There is a great array of opportunities inside a 
home, as you talk about, and appliances are one of the biggest 
opportunities.
    The heating and ventilating system, the air conditioning 
system, the refrigerators are technologies that you funded in 
this subcommittee that have advanced to the point now where the 
United States will be selling refrigerators in the year 2001 
that use the energy that is equivalent to only about a 40 or 50 
watt light bulb.
    And the refrigerators when we used to call them iceboxes 
back in the '50s and '60s and '70s were big energy hogs using 
far, far more energy than that--probably on the order of four 
or five times. So those appliances, getting those out, telling 
in a simple way people through this kind of labeling system 
that this is the refrigerator to buy if you are interested in 
energy savings. So it is a combination of appliances. It is 
building materials. It is energy systems through smart 
thermostats and other kinds of things.
    I just wanted to say one more thing. You raised the issue 
of priorities as did the Chairman. We will do our very best, 
understanding that there is a limited pot of money, to make 
sure that we provide you with our priorities as time goes on.
    Mr. Wamp. Thank you, Mr. Chairman.

            advanced transportation technologies consortium

    Mr. Regula. What is the Advanced Transportation 
Technologies Consortium?
    Mr. Reicher. The Advanced Transportation Technologies 
Consortium is a group of regionally based entities that are 
interested and have been funded to do innovative things, to try 
out new technologies in the transportation area. They 
arelocated all over the country, and they have funded innovative 
programs in advanced buses, in cars, electric vehicles, in fueling 
stations. So it is a way to take R&D work that has been done in the 
government and move it out into the public.
    Mr. Regula. Well, this program has been in the DOD, and it 
is proposed in this budget to move $10 million into our budget 
and $10 million into the Department of Transportation. Is there 
any rationale since the DOD has more money than we do?
    Mr. Reicher. I will give you the rationale, and I also can 
provide you with some information about the various consortium 
members. As I say, they are located all over the country. The 
rationale, Mr. Chairman, is quite straightforward, and that is 
that the work that has been funded by the Pentagon for quite a 
number of years in this area has gotten to a point where the 
Pentagon has gotten out of it what it needs for its military 
purposes.
    And what we want to do between the Department of 
Transportation and the Department of Energy is to take those 
technologies and improve their commercialization. Lots of good 
technologies that have been funded by the Pentagon now 
available to the Pentagon, but they have huge potential on the 
commercial side, and it is time to take that program and move 
it into the two agencies that focus in this way.
    Mr. Regula. It leads to something else, and we have tried 
to adopt the policy in the committee that we only go to the 
point where something is commercial and not use Federal dollars 
to take the next step, which is to market. Would this not 
appear to violate that policy in some ways?
    Mr. Reicher. Well, let me say I may have used a term that 
doesn't correctly describe what is going on here. These are 
technologies that still need precommercial kinds of work, 
whether it is battery-powered vehicles, whether it is fuel cell 
powered vehicles, buses that run on alternative fuels. It is a 
whole host of things that need an additional push before they 
will be ready for commercialization.
    Mr. Regula. Could this not be funded within the PNGV budget 
given the constraints that we have?
    Mr. Reicher. This is work that is for the most part larger 
vehicles, particularly medium and heavy duty kinds of vehicles. 
PNGV, as you know, focuses specifically on passenger cars, the 
80-mile-per-gallon car by 2004. But this is on other kinds of 
vehicles. And as I say, it is an area of focus that goes beyond 
the R&D in the PNGV area.

               federal energy management program increase

    Mr. Regula. You have asked for a 71 percent increase in 
Federal Energy Management Program, and last year you your 
predecessor told us that if we gave you the legislative 
authority to use energy savings from performance contracts, you 
would not need substantial increases in appropriations, and yet 
there is a large increase in here.
    Mr. Reicher. Well, I should respond to that for the record, 
but I think there may be a bit of a difference of understanding 
of the commitment that was made last year. I just do want to 
stress though that what we can say to you today is that this 
graph indicates that this would be with adequate funding the 
high water mark in terms of your funding of the Federal Energy 
Management Program because, in part, of these reimbursements.
    [The information follows:]

        Federal Energy Management Program Legislative Authority

    In FY 1998, the Department suggested that if the 
legislative authority was put in place to allow the Federal 
Energy Management (FEMP) to be reimbursed from the savings it 
generated through privately financed contracts, that FEMP could 
forgo the need for $300,000 of its requested $2.1 million for 
Program Direction. FEMP believes that it will generate about 
$300,000 in FY 1998 in funding from other agencies using this 
new authority. The Department did not suggest that the FY 1998 
request of $31.2 million should be reduced by any more than the 
$300,000 that could be expected to be recovered in that fiscal 
year.

                           energy star award

    Mr. Regula. Well, as you know in our conversations, I am 
great on management, and I hope that (you are still in your 
shakedown cruise,) by next year you will come in with a lot of 
evidence of good management, which will reduce your need for as 
much money.
    Mr. Reicher. You and I share the same goal.
    Mr. Regula. It is going to be tough this year because all 
signs point to a 602(b) allocation that will be, at best, flat 
plus maybe some accommodations to inflation. One last comment. 
I see that the Maytag Company got the first energy star award. 
A little bit of parochialism. Maytag owns the Hoover Company, 
which is in the 16th District of Ohio, and so we will excuse 
the commercial.
    Mr. Reicher. I take due note of that. I actually had the 
pleasure of giving them that award at a ceremony a couple of 
evenings ago. And it is an extraordinary--some extraordinary 
breakthroughs that that company has made in appliances. And 
they are the first to put this energy star label on 
theirappliances at the factory.
    Mr. Regula. Now, can they put that on all the appliances, 
or just refrigerators, or washing machines?
    Mr. Reicher. There are a variety of appliance categories 
within this program, and it is only those that qualify because 
they are the high efficiency models. But at the factory, these 
will now go on so when they go out to whatever the retailer is, 
someone can simply walk up, look for the star, and know they 
are going to buy a high efficiency appliance.
    Mr. Regula. Well, thank you very much, and we will be back 
to you. Please be thinking about what your real priorities are 
because reality is that we are not going to be able to do all 
these things.
    Mr. Reicher. I understand that and we will focus carefully 
on that, and we will be back to you. Thank you, Mr. Chairman.
    Mr. Regula. The committee is adjourned.
    [The following questions and answers were submitted for the 
record:]

[Pages 605 - 669--The official Committee record contains additional material here.]









=======================================================================


                          Department of Energy

                   Energy Information Administration

=======================================================================










[Pages 673 - 677--The official Committee record contains additional material here.]









                           W I T N E S S E S

                              ----------                              
                                                                   Page
Dombeck, M.P.....................................................    87
Glickman, Hon. Dan...............................................     1
Godley, P.F......................................................   473
Hakes, J.E.......................................................   673
Joslin, Robert...................................................    87
Kripowicz, R.S...................................................   357
Lewis, Robert....................................................    87
McDougle, Janice.................................................    87
Pandolfi, Francis................................................    87
Pena, Hon. Federico..............................................   357
Reicher, D.W...................................................357, 581
Stewart, Ron.....................................................    87
Thompson, Clyde..................................................    87












                               I N D E X

                              ----------                              

                          U.S. Forest Service

                                                                   Page
Accountability...................................................    49
Accountability Factor............................................   102
Additional Committee Questions...................................   133
Appeals and Litigation...........................................   114
Chief's Opening Remarks.........................................90, 101
Civil Rights.....................................................    15
Custodial Forest Management......................................   114
Economic Contribution of Recreation..............................    25
Economic Effects.................................................    22
Economic Returns from Forests....................................    29
Everglades and Sugar.............................................    34
Export Enhancement Program.......................................    27
Fire Fighting Program............................................   118
Forest Health Issues.............................................   120
Forest Management Training.......................................   103
Forest Planning Workloads........................................   131
Forest Service Mission...........................................    20
Fuel Loading Buildups............................................   104
Fuels Reduction..................................................   119
Grazing Program..................................................    37
Income from Recreation...........................................    43
Information Systems..............................................   128
Intelligence Data................................................    23
Interior Columbia Basin Ecosystem Management Project.............   130
Interior Columbia Basin Project..................................    96
Interior Columbia Basin Project Funding..........................    97
Litigation.......................................................    36
Maintenance Backlog..............................................    26
Methyl Bromide...................................................    33
Multiple-Use Mission......................................101, 107, 112
Natural Resource Agenda..........................................     9
Northwest Forest Plan............................................   100
Olympics.........................................................    25
Opening Remarks..................................................     8
Profitability of Timber Sales....................................    41
Purchaser Road Credits...........................................    30
Questions from Chairman Ralph Regula.............................   264
Questions from Congressman Moran.................................   266
Questions from Congressman Yates.................................   269
Questions from Congressman Kolbe.................................   278
Questions from Congressman McDade................................   284
Questions from Congressman Taylor................................   286
Questions from Congressman Obey..................................   298
Questions from Congressman Skeen.................................   306
Questions from Congressman Nethercutt............................   339
Receipt-Sharing Payments.........................................     9
Recreation.......................................................    14
Recreation Roads.................................................   122
Road Budget......................................................    31
Road Construction................................................   121
Road Maintenance and Reconstruction..............................    36
Road Maintenance Backlog.......................................123, 125
Road Moratorium..............................................21, 28, 32
Road Obliteration................................................   123
Road Program Needs...............................................    46
Roads............................................................    14
Roads Moratorium..........................................112, 126, 128
Roads Policy Proposal............................................    99
Shooting Ranges................................................108, 109
Silviculture Study Report........................................   105
Stablization of Payments to States Proposal......................    98
Timber...........................................................    20
Timber Sales Program Information Reporting System................   106
Timber Salvage...................................................    43
Timber Salvage Program...........................................   104
Timber Salvage Sales.............................................    40
Timber Volume Officer..........................................121, 127
Urban-Wildland Interface.........................................   117

                          Secretary of Energy

Additional Committee Questions...................................   404
Advanced Technology Mopeds.......................................   386
Advanced Vehicle Program.........................................   397
Budget Highlights................................................   359
Carbon Sequestration.............................................   392
Caspian Region Pipeline Issues...................................   374
Cleanup at Richland, Washington..................................   377
Climate Change...................................................   384
Comprehensive National Energy Strategy...........................   393
Coordination With State Energy Technology RD&D...................   390
Electric Vehicles................................................   395
Electricity Deregulation.........................................   388
Elk Hills Naval Petroleum Sale...................................   358
Emission Vehicles................................................   385
Energy Conservation Budget Request...............................   379
Energy Information in Foreign Countries..........................   400
Energy Information Administration................................   399
Expenditures Versus Products.....................................   398
Fast Flux Test Facility..........................................   384
Fast Flux Test Facility and the Need to Start an EIS.............   377
Fast Flux Test Facility..........................................   376
Filling Environmental Management Assistant Secretary Position....   379
Fusion...........................................................   378
Global Climate Change............................................   373
Green Builder Program............................................   387
Hanford Spent Fuel Project.......................................   383
K-Basins.........................................................   382
Kyoto Proposal...................................................   388
Long-Range Role of Coal..........................................   389
Management Changes...............................................   357
Mission of National Laboratory Community.........................   386
Nuclear Energy...................................................   401
Opening Remarks..................................................   357
Partnership for a New Generation of Vehicles.....................   392
Programming Achievements.........................................   358
Questions From Congressman David E. Skaggs.......................   462
Questions From Congressman Charles H. Taylor.....................   466
Reason For Low Gas Prices........................................   375
Sale of Strategic Petroleum Reserve Oil..........................   375
Sequestration of CO2.............................................   393
Statement of Federico Pena.......................................   361
Tax Breaks for Fuel Efficient Vehicles...........................   395
Technology Development Cost-Sharing..............................   389
Waste Isolation Pilot Plant......................................   372
Working with Other Federal Agencies..............................   391
Working with States and Industry to Avoid Duplication............   390

                 Assistant Secretary For Fossil Energy

Additional Committee Questions...................................   509
Biography of Patricia Fry Godley.................................   474
Carbon Sequestration.............................................   502
Carbon Sequestration.............................................   501
Elk Hills........................................................   500
Fuel Cells.......................................................   505
Investments in Fossil Energy Vs. Energy Efficiency...............   506
Opening Remarks..................................................   476
Questions Submitted By Congressman Jim Moran.....................   575
Questions Submitted By Congressman George R. Nethercutt, Jr......   577
Statement of Patricia Fry Godley.................................   479
Strategic Petroleum Reserve......................................   502
Vision 21........................................................   504

     Assistant Secretary For Energy Efficiency and Renewable Energy

Additional Committee Questions...................................   605
Committee Questions Submitted by James P. Moran..................   663
Committee Questions Submitted by David E. Skaggs.................   662
Advanced Transportation Technologies Consortium..................   602
Biography of Dan W. Reicher......................................   582
Climate Change Technology Initiative.............................   593
Energy Star Award................................................   603
Energy Efficiency in Housing.....................................   601
Energy Efficiency At U.S. Embassies..............................   600
Federal Energy Management Program................................   597
Federal Energy Management Program Increase.......................   603
Fuel Cell Research...............................................   594
Fuel Cell Vehicles...............................................   597
Fuel Cell Technology Choice......................................   596
Industries of the Future--Laboratory Finding.....................   600
Opening Remarks..................................................   583
Questions Submitted By Congressman George K. Nethercutt, Jr......   667
Reorganization Of The Buildings Programs.........................   593
Statement of Dan W. Reicher......................................   586

            Administrator, Energy Information Administration

Statement of Jay E. Hakes........................................   673

                            <all>
</pre></body></html>
